<html>
<title> - TO EXAMINE RECENT FAILURE TO PROTECT CHILD SAFETY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




           TO EXAMINE RECENT FAILURE TO PROTECT CHILD SAFETY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2003

                               __________

                           Serial No. 108-28

                               __________

         Printed for the use of the Committee on Ways and Means


92-618              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON WAYS AND MEANS

                   BILL THOMAS, California, Chairman

PHILIP M. CRANE, Illinois            CHARLES B. RANGEL, New York
E. CLAY SHAW, JR., Florida           FORTNEY PETE STARK, California
NANCY L. JOHNSON, Connecticut        ROBERT T. MATSUI, California
AMO HOUGHTON, New York               SANDER M. LEVIN, Michigan
WALLY HERGER, California             BENJAMIN L. CARDIN, Maryland
JIM MCCRERY, Louisiana               JIM MCDERMOTT, Washington
DAVE CAMP, Michigan                  GERALD D. KLECZKA, Wisconsin
JIM RAMSTAD, Minnesota               JOHN LEWIS, Georgia
JIM NUSSLE, Iowa                     RICHARD E. NEAL, Massachusetts
SAM JOHNSON, Texas                   MICHAEL R. MCNULTY, New York
JENNIFER DUNN, Washington            WILLIAM J. JEFFERSON, Louisiana
MAC COLLINS, Georgia                 JOHN S. TANNER, Tennessee
ROB PORTMAN, Ohio                    XAVIER BECERRA, California
PHIL ENGLISH, Pennsylvania           LLOYD DOGGETT, Texas
J.D. HAYWORTH, Arizona               EARL POMEROY, North Dakota
JERRY WELLER, Illinois               MAX SANDLIN, Texas
KENNY C. HULSHOF, Missouri           STEPHANIE TUBBS JONES, Ohio
SCOTT MCINNIS, Colorado
RON LEWIS, Kentucky
MARK FOLEY, Florida
KEVIN BRADY, Texas
PAUL RYAN, Wisconsin
ERIC CANTOR, Virginia

                    Allison H. Giles, Chief of Staff

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                   WALLY HERGER, California, Chairman

NANCY L. JOHNSON, Connecticut        BENJAMIN L. CARDIN, Maryland
SCOTT MCINNIS, Colorado              FORTNEY PETE STARK, California
JIM MCCRERY, Louisiana               SANDER M. LEVIN, Michigan
DAVE CAMP, Michigan                  JIM MCDERMOTT, Washington
PHIL ENGLISH, Pennsylvania           CHARLES B. RANGEL, New York
RON LEWIS, Kentucky
ERIC CANTOR, Virginia

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.


                            C O N T E N T S

                               __________

                                                                   Page

Advisory of October 30, 2003, announcing the hearing.............     2

                               WITNESSES

Andrews, Hon. Robert E., a Representative in Congress from the 
  State of New Jersey............................................     9
Camden County Office of the Prosecutor, Vincent P. Sarubbi.......    31
Children's Rights, Marcia Robinson Lowry.........................    46
Come Alive New Testament Church, Reverend Harry L. Thomas, Jr....    34
Communications Workers of America, Carla Katz....................    40
Ferguson, Hon. Mike, a Representative in Congress from the State 
  of New Jersey..................................................    15
New Jersey Department of Human Services, Colleen Maguire.........    20
New Jersey Office of the Child Advocate, Kevin Ryan..............    27
Pascrell, Jr., Hon. Bill, a Representative in Congress from the 
  State of New Jersey............................................    11

                                 ______

                       SUBMISSIONS FOR THE RECORD

American Academy of Adoption Attorneys, New York, NY, Douglas H. 
  Reiniger, statement............................................    75
Atwood, Thomas C., National Council for Adoption, Alexandria, VA, 
  letter.........................................................    87
Beebe, Jeanne M., Pueblo, CO, statement..........................    75
Bell, Shirley and Robert, Aurora, CO, statement..................    76
Child Welfare League of America, statement.......................    76
Cohen, Steven D., New Jersey Child Welfare Panel, Trenton, NJ, 
  statement......................................................    88
Dooley Polcha, Kathleen, New York, NY, statement.................    81
Evan B. Donaldson Adoption Institute, New York, NY, Adam Pertman, 
  letter and attachment..........................................    81
Frenzel, Hon. Bill, Pew Commission on Children in Foster Care, 
  statement......................................................    91
Haffner-Jones, William, Middletown, RI, statement and attachment.    83
Hanson, Joyce, Littleton, CO, statement..........................    84
Home School Legal Defense Association, Purcellville, VA, J. 
  Michael Smith, statement.......................................    84
Hoxie, Bette, Old Town, ME, statement............................    85
Kanos, Jaime and Lisa, New Port Richey, FL, statement............    85
Kernaghan-Baez, Dorothy, Augusta, GA, statement..................    85
Kulp, Jodee, Brooklyn Park, MN, statement........................    86
Lambert, Christine, Twin Bridges, MT, letter.....................    86
Miller, Hon. George, a Representative in Congress from the State 
  of California, statement.......................................    18
National Council for Adoption, Alexandria, VA, Thomas C. Atwood, 
  letter.........................................................    87
New Jersey Child Welfare Panel, Trenton, NJ, Steven D. Cohen, 
  statement......................................................    88
O'Loughlin, Anna Marie, Bloomingdale, NJ, statement..............    90
Pertman, Adam, Evan B. Donaldson Adoption Institute, New York, 
  NY, letter and attachment......................................    81
Pew Commission on Children in Foster Care, Hon. Bill Frenzel, 
  statement......................................................    91
Reiniger, Douglas H., American Academy of Adoption Attorneys, New 
  York, NY, statement............................................    75
Smith, J. Michael, Home School Legal Defense Association, 
  Purcellville, VA, statement....................................    84
Sokoloski, Cheryl B., LaPorte, CO, statement.....................    92
Upton, Kay, Hodgenville, KY, statement...........................    93

 
           TO EXAMINE RECENT FAILURE TO PROTECT CHILD SAFETY

                              ----------                              


                       THURSDAY, NOVEMBER 6, 2003

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 1100, Longworth House Office Building, Hon. Wally Herger 
(Chairman of the Subcommittee) presiding.
    [The advisory announcing the hearing follows:]

ADVISORY FROM THE COMMITTEE ON WAYS AND MEANS

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                                CONTACT: (202) 225-1025
FOR IMMEDIATE RELEASE
October 30, 2003
No. HR-5

                      Herger Announces Hearing to

                       Examine Recent Failure to

                          Protect Child Safety

    Congressman Wally Herger (R-CA), Chairman, Subcommittee on Human 
Resources of the Committee on Ways and Means, today announced that the 
Subcommittee will hold a hearing to examine a recent failure to protect 
child safety. The hearing will take place on Thursday, November 6, 
2003, in the main Committee hearing room, 1100 Longworth House Office 
Building, beginning at 10:00 a.m.
      
    In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include State and local officials and outside experts 
familiar with the recent high-profile child abuse case uncovered in New 
Jersey involving several boys who were starved by their adoptive 
parents. However, any individual or organization not scheduled for an 
oral appearance may submit a written statement for consideration by the 
Committee and for inclusion in the printed record of the hearing.
      

BACKGROUND:

      
    Recent news accounts documented cases of shocking abuse and neglect 
of children adopted by a family in New Jersey (see http://
www.nytimes.com/2003/10/27/nyregion/27JERS.html). Similar stories have 
been written about cases in other States involving the death or abuse 
of children involved with the child welfare system. Federal taxpayers 
provided States $3.1 billion in 2002 to support children in foster care 
and adoptive settings, and $2.8 billion more in administrative funding 
for States and localities to use to ensure the safety of vulnerable 
children.
      
    In announcing the hearing, Chairman Herger stated, ``It is hard to 
imagine how adults could intentionally starve children. It is also hard 
to accept the grim reality that we as taxpayers subsidized their 
terrible neglect to the tune of tens of thousands of dollars. This 
hearing seeks to expose how these children's abuse went unnoticed so 
that we can work to prevent other children from enduring such horrible 
abuse.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on: (1) what happened to the children 
starved in the New Jersey case, (2) how their years of abuse escaped 
the notice of child welfare workers and others in the community, and 
(3) what Federal and State officials can do to prevent the recurrence 
of such horrific acts in New Jersey and other States.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Due to the change in House mail policy, any person or 
organization wishing to submit a written statement for the printed 
record of the hearing should send it electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a2cac7c3d0cbccc5c1cec7d0c9d18cd5c3dbd1c3ccc6cfc7c3ccd1e2cfc3cbce8ccacdd7d1c78cc5cdd4">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, by the close of business, Thursday, November 20, 2003. 
Those filing written statements who wish to have their statements 
distributed to the press and interested public at the hearing should 
deliver their 200 copies to the new Congressional Courier Acceptance 
Site at the location of 2nd and D Streets, N.E., at least 48 hours 
prior to the hearing date. Please ensure that you have the address of 
the Subcommittee on Human Resources, Room B-317 Rayburn House Office 
Building, on your package, and contact the staff of the Subcommittee at 
(202) 225-1025 of its impending arrival. When a couriered item arrives 
at this facility, it will be opened, screened and then delivered to the 
Subcommittee office, within one of the following time frames: (1) 
expected or confirmed deliveries will be delivered in approximately 2 
to 3 hours, or, (2) unexpected items, or items not approved by the 
Subcommittee office, will be delivered the morning of the next business 
day. The U.S. Capitol Police will refuse all non-governmental courier 
deliveries to all House Office Buildings.
      

FORMATTING REQUIREMENTS:

      
    Each statement presented for printing to the Committee by a 
witness, any written statement or exhibit submitted for the printed 
record or any written comments in response to a request for written 
comments must conform to the guidelines listed below. Any statement or 
exhibit not in compliance with these guidelines will not be printed, 
but will be maintained in the Committee files for review and use by the 
Committee.
      
    1. Due to the change in House mail policy, all statements and any 
accompanying exhibits for printing must be submitted electronically to 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e9818c889b80878e8a858c9b829ac79e88909a88878d848c88879aa984888085c781869c9a8cc78e869f">[email&#160;protected]</a>, along with a fax copy to 
(202) 225-2610, in Word Perfect or MS Word format and MUST NOT exceed a 
total of 10 pages including attachments. Witnesses are advised that the 
Committee will rely on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. Any statements must include a list of all clients, persons, or 
organizations on whose behalf the witness appears. A supplemental sheet 
must accompany each statement listing the name, company, address, 
telephone and fax numbers of each witness.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.

                                 <F-dash>

    Chairman HERGER. This Subcommittee will come to order. Good 
morning, and I welcome all our guests here today. I am pleased 
to see that we have such an interested audience today. Please 
remember that you are our guests and interruptions will not be 
tolerated. Those who might disrupt this important hearing will 
be asked to leave. I hope this will not be a problem, but I 
want to make sure everyone understands the ground rules before 
we get under way.
    Today's hearing covers a child welfare tragedy in which 
four boys suffered from apparent starvation while under the 
care of their adoptive parents. The oldest, at age 19 and just 
45 pounds when found, was rooting through a neighbor's trash 
for food. The other boys, age 9, 10, and 14, weighed about a 
third of what is typical for their ages. This tragedy unfolded 
in the New Jersey town of Collingswood, a community in suburban 
Philadelphia, but it might have happened anywhere.
    Unfortunately, these cases too often occur despite the best 
efforts of thousands of hard-working caseworkers, caring foster 
and adoptive parents, and those of us here today who want the 
very best for these vulnerable children.
    I believe I speak for us all when I say we are deeply 
concerned about the Jackson boys and any other children like 
them suffering abuse. Our hearts go out to them, and we hope 
and pray that they can overcome this tragedy.
    Nearly every one of our States has witnessed high-profile 
tragedies in which vulnerable children have been horrifically 
abused, neglected, and even killed. Several features of this 
particular case demand a close review of whether Federal and 
State protections designed to prevent such tragedies are 
working. Based on what we have learned to this point, they were 
not working in the case of the four Jackson boys.
    As representatives of Federal taxpayers, we oversee the 
billions of dollars provided to States for maintenance payments 
to foster and adoptive families. In this case, approximately 
$28,000 was paid last year alone to care for the children in 
this family.
    Congress also oversees Federal funds used to administer 
child welfare programs in the States. Sadly, in this case, 
these funds were not put to the good purpose Congress intended. 
These taxpayer dollars were not used to better the lives of 
children in need of a good home. Instead, it appears these 
funds subsidized appalling neglect.
    This case is about a lot more than Federal funds, so we 
have asked a panel of local experts and officials familiar with 
this specific case, as well as New Jersey's recent efforts to 
prevent such tragedies, to help us answer some very basic 
questions: what happened, what should have happened to prevent 
or at least detect such abuse, and how can we ensure other 
children do not suffer a fate similar to these four innocent 
boys?
    Joining us today are individuals representing the adoptive 
parents, New Jersey's child welfare agency, and the caseworkers 
involved in this case as well as other local officials. We also 
will hear from experts monitoring New Jersey's efforts to 
reform its child welfare programs following the death of a 
child earlier this year. This pattern of tragedy and the fact 
that caseworkers entered the Jackson's home literally dozens of 
times in the past several years without taking action are key 
reasons for today's hearings.
    I want to thank my Democrat colleague, Mr. Cardin, for his 
help in putting this hearing together. Mr. Cardin and I have 
worked together in recent weeks to pass legislation promoting 
adoption, continuing our record of cooperation in this 
important area for children. Today, there are no Democrat or 
Republican witnesses because our purpose is simply to get the 
facts. This is the only way we can make an informed judgment 
about whether changes are needed.
    Subsequent hearings, including one a week from today, will 
probe more deeply into the policy implications of this case for 
the Nation. For example, we will review efforts in all States 
to monitor foster and adoptive children as well as ask broader 
questions related to how the Federal Government can help State 
and local officials across the country prevent such horrific 
cases of abuse.
    As this suggests, our hearing today marks a continuation, 
not an end to our efforts to protect children. Based on just 
what we know so far about this tragic case, there is a lot of 
work ahead.
    Without objection, each Member will have the opportunity to 
submit a written statement and have it included in the record 
at this point. Mr. Cardin, would you like to make an opening 
statement?
    [The opening statement of Chairman Herger follows:]

   Opening Statement of the Honorable Wally Herger, Chairman, and a 
        Representative in Congress from the State of California

    Good morning, and welcome to all our guests today.
    Today's hearing covers a child welfare tragedy in which four boys 
suffered from apparent starvation while under the care of their 
adoptive parents. The oldest, at age 19 and just 45 pounds when found, 
was rooting through a neighbor's trash for food. The other boys, ages 
9, 10 and 14, weighed about a third of what is typical for their ages.
    This tragedy unfolded in the New Jersey town of Collingswood, a 
community in suburban Philadelphia. But it might have happened 
anywhere. Unfortunately, these cases too often occur despite the best 
efforts of thousands of hard-working caseworkers, caring foster and 
adoptive parents and those of us here today who want the very best for 
these vulnerable children.
    All of us here today are concerned about these boys, and any other 
children like them suffering abuse. Our hearts go out to them, and we 
hope and pray that they can overcome this tragedy.
    Nearly every one of our States has witnessed high-profile tragedies 
in which vulnerable children have been horrifically abused, neglected 
and even killed.
    But several features of this case demand a close review of whether 
Federal and State protections designed to prevent such tragedies are 
working. Based on what we know so far, they are not.
    As representatives of Federal taxpayers, we oversee the billions of 
dollars provided to States for maintenance payments to foster and 
adoptive families. In this case, apparently $28,000 was paid last year 
alone to care for the children in this family.
    Congress also oversees Federal funds used to administer child 
welfare programs in the States. Sadly, in this case, these funds were 
not put to the good purpose Congress intended. These taxpayer dollars 
were not used to better the lives of children in need of a good home--
instead these funds subsidized appalling neglect.
    But this case is about a lot more than Federal funds.
    So we have asked a panel of local experts and officials familiar 
with this specific case, as well as New Jersey's recent efforts to 
prevent such tragedies, to help us answer some very basic questions:
    What happened?
    What should have happened to prevent--or at least detect--such 
abuse?
    And, how can we ensure other children do not suffer a similar fate 
as these four innocent boys?
    Joining us today are individuals representing New Jersey's child 
welfare agency, the caseworkers involved in this case, the adoptive 
parents and the local community. We also will hear from experts 
monitoring New Jersey's efforts to reform its child welfare programs 
following the death of a child earlier this year. This pattern of 
tragedy, and the fact that caseworkers entered this home literally 
dozens of times in the past several years without taking action, are 
key reasons for today's hearing.
    I want to especially thank my Democrat colleague Mr. Cardin for his 
help in putting this hearing together.
    Mr. Cardin and I have worked together in recent weeks to pass 
legislation promoting adoption, continuing our record of cooperation in 
this important area for children.
    Today there are no Democrat or Republican witnesses because our 
purpose is simply to get the facts. This is the only way we can make an 
informed judgment about whether changes are needed.
    Subsequent hearings, including one a week from today, will probe 
more deeply into the policy implications of this case for the Nation. 
For example, we will review efforts in all States to monitor foster and 
adoptive children, as well as ask broader questions related to how the 
Federal Government can help State and local officials across the 
country prevent such horrific cases of abuse.
    As this suggests, our hearing today marks a continuation, not an 
end, to our efforts to protect children. Based on just what we know so 
far about this tragic case, there is a lot of work ahead.
    Mr. Cardin, would you like to make an opening statement?

                                 <F-dash>

    Mr. CARDIN. Let me thank Chairman Herger for holding this 
very important hearing, and I thank you for your concern and 
working together, as you said, not as Democrats or Republicans 
but together to deal with America's most vulnerable children.
    I also want to acknowledge our colleagues that are here. I 
note that Don Payne from New Jersey has joined us, Mr. Andrews, 
Bill Pascrell, and Mike Ferguson. We appreciate all your 
concerns on this issue and your participation in today's 
hearing.
    Mr. Chairman, my staff has shown me a photograph of the 
Jackson family, and you are not going to be able to see it from 
here, but I think particularly the picture of Bruce will haunt 
me for some time. It should shock all of us what has happened 
to four children who were adopted to the same family in New 
Jersey: Bruce, Michael, Tyrone, and Keith. Their total weight 
was 134 pounds for the four children. They ranged in age from 9 
to 19.
    I know that we are all asking questions how this happened, 
but one thing we should be doing is asking how can we be 
motivated into action to make sure that we provide more help 
and greater tools to deal with children who are very, very 
vulnerable in our society today. The first question, of course, 
is how did these boys become so malnourished.
    Now, the county prosecutor has charged the couple who 
adopted them with aggravated assault and child endangerment, 
saying they intentionally starved the children. The couple have 
indicated that the children had eating disorders, but that is 
hard to balance with the fact that once the children were 
removed from the family, they seemed to have gained weight. 
This indicates that something could have been done a lot 
earlier in regards to these children.
    The next big question is how did the State agency charged 
with protecting the children fail to help these boys, even when 
a caseworker was routinely visiting the home? You would think 
that we would have picked up these issues earlier and been able 
to act on this case at an earlier time. Unfortunately, the 
boys' circumstances were not discovered until one of them was 
found looking for food in the neighbor's trash.
    The final question this panel should be asking is what 
implications does the New Jersey case present for our Nation's 
child welfare system. For example, one issue raised by this 
case is how vulnerable certain children can be if they do not 
go to school or have regular medical checkups. If these boys 
would have interacted with a broader group of adults earlier, 
we may have been able to catch this matter at an earlier stage.
    One of my major concerns is whether we are providing 
adequate support for our child welfare system. We know that 
turnover among caseworkers is very rapid. We are not able to 
maintain experienced caseworkers. We do not pay our caseworkers 
enough. Their caseload is way too high for them to effectively 
be able to monitor the families they are responsible for. All 
of that calls upon us as Federal policymakers to do something 
about our child welfare system. The U.S. General Accounting 
Office has told us that low salaries, high caseload, and 
insufficient training has led to some very high turnover rates 
for child welfare caseworkers throughout the Nation.
    Now, Mr. Chairman, I know that the New Jersey case suggests 
that we have a problem, but it may not just be in New Jersey. 
In fact, I think it is systematic around the Nation that we 
have to be doing a better job in our work. We know that there 
may very well have been negligence involved in this case, but 
the environment in which caseworkers work in has a direct 
impact on how effective they can be in our child welfare 
system.
    So, I hope that this hearing will help us in plotting a 
strategy to try to deal with the broader issue, not just one 
family's circumstance, but the broader issue throughout the 
entire system.
    Today's hearing focuses on alleged abuse in the adoptive 
home, but we have also heard enough stories of abuse in birth 
families and in foster care to know that the whole system needs 
to be improved. I look forward to working with you as we sort 
through this circumstance to plot a strategy to help America's 
children. Thank you, Mr. Chairman.
    [The opening statement of Mr. Cardin follows:]

Opening Statement of the Honorable Benjamin L. Cardin, a Representative 
                 in Congress from the State of Maryland

    Mr. Chairman, we are confronted with some very troubling questions 
today regarding four children who were adopted into the same home--
Bruce, Michael, Tyronne, and Keith. These boys, who range in age from 9 
to 19, reportedly had a combined total weight of 134 pounds when they 
were removed from their home. Not one of them weighed more than 50 
pounds. The thought of these boys slowly wasting away is something that 
should shock and haunt all of us.
    The first question, of course, is how did these boys become so 
malnourished. The local county prosecutor has charged the couple who 
adopted them with aggravated assault and child endangerment, saying 
they intentionally starved the children. The couple has said the boys' 
malnourishment was caused by eating disorders. This declaration, 
however, does not seem to account for the fact that all of the kids 
have reportedly gained significant weight since being removed from 
their home.
    The next big question is how did the State agency charged with 
protecting children fail to help these boys, even when a caseworker was 
routinely visiting their home. Although these visits were focused on a 
foster child in the same house, they should have revealed obvious signs 
of starvation in the four boys. After all, the foster child was being 
considered for adoption, which should have led to an assessment of the 
children already in the home. Unfortunately, the boys' circumstances 
were not discovered until one of them was found looking for food in the 
neighbor's trash.
    The final question this panel should be asking is--what 
implications does the New Jersey case present for our Nation's child 
welfare system. For example, one issue raised by this case is how 
vulnerable certain kids can be if they do not go to school or have 
regular medical checkups. If these boys had more interaction with a 
broader group of adults who had experience in assessing the welfare of 
children, their situation would have been detected much sooner. Of 
course, this reality has to be balanced against our goal of treating 
adoptive families like any other family.
    The plight of these four boys also raises much broader issues that 
affect the safety of all children in the child welfare system, 
regardless of whether they are in birth, foster or adoptive homes. One 
of the most significant of these concerns is the apparent inability of 
the child welfare system to retain qualified and experienced 
caseworkers.
    The General Accounting Office has told us that low salaries, high 
caseloads and insufficient training have led to very high turnover 
rates for child welfare caseworkers throughout the Nation. Most of 
those on the job now have less than two years experience--a low 
threshold from which to make potentially life and death decisions.
    News accounts in the New Jersey case suggest the relative lack of 
experience for the lead caseworker, coupled with an excessive caseload, 
may have been part of the problem. I am certainly not ruling out 
negligence, but I am suggesting that certain environments are more 
likely to produce both innocent errors and a dereliction of duty.
    Mr. Chairman, there are other systemic problems that I do not have 
time to examine in detail now, such as the inadequate response to the 
link between substance abuse and child abuse, and insufficient access 
to prevention activities and post-adoption services. So let me say 
generally that I hope this case leads us to look at the big picture, 
instead of hoping for a quick fix.
    Today's hearing focuses on alleged abuse in an adoptive home, but 
we all have heard enough stories of abuse in birth families and in 
foster care to know that the whole system needs improvement. We can all 
make speeches today, but ultimately we need to step up to the plate 
with adequate supervision and resources to prevent future tragedies 
from occurring. Thank you.

                                 <F-dash>

    [The opening statement of Mr. Foley follows:]

  Opening Statement of the Honorable Mark Foley, a Representative in 
                   Congress from the State of Florida

    I want to start by thanking you for calling this very important--
and long overdue--hearing to examine our nation's child welfare system. 
As someone who has worked on child protection issues throughout his 
career, the incident recently in New Jersey was one of the most 
shocking cases of state mismanagement that I have ever seen.
    Over a year ago in Florida, we were rocked by the horrible news 
that our Department of Children and Families (DCF) could not locate 
several hundred children in its custody. Immediately after this story 
came to light, Governor Bush ordered a Blue Ribbon commission to 
investigate DCF's failures and to recommend ways to improve the system. 
Soon after the report was released DCF, under its new Secretary Jerry 
Regier, made acclaimed changes to his agency--now making it the model 
for all other states to follow.
    After our terrible time last year, you would think that other 
states would have ``woken up to smell the coffee.'' That states would 
have done a thorough review of their own systems to prevent this 
tragedy from ever happening again. However, we once again find 
ourselves with a state social service agency asleep at the wheel--with 
unbuckled children in the backseat and the car is about to go over the 
cliff.
    New Jersey's Division of Youth and Family Services (DYFS) failures 
were catastrophic. Thirty-eight visits over several years--what more 
did they need to see? A 19 year old who is 4 feet tall and weighs 45 
pounds . . . where were they? A 14 year old who is a little over 3 feet 
in height . . . again I say, where were they? The fact is, Mr. 
Chairman, that most Americans treat their pets better than New Jersey 
cared for their children.
    Mr. Chairman, I expect to hear arguments today that the Division 
lacked funds, resources, cap caseloads--what have you. These are 
completely outrageous statements and do not explain the events of this 
case. It took nothing more than common sense to have saved these kids 
years ago. DYFS should have acted immediately and removed these 
children the first time they were there.
    I know all too well that New Jersey is not alone in this tragedy. 
We must get to the bottom of this crisis and fix it once and for all. 
Excuses and reasons will not save the lives of our children--only 
action will.
    Mr. Chairman, in that light, I would like to state that I intend to 
introduce a bill in the next two weeks that will give state social 
service agencies access to the NCIC criminal data base. As those who 
have worked in this area know, this resource will give field staff the 
ability to determine whether the guardian the child is being placed 
with has an out-of-state criminal record--something they don't 
currently have access to.
    Though this is a first step towards strengthening our states 
ability to further protect our children, there is much more work we 
need to do.
    I am very grateful for this opportunity to bring this issue to 
light and I look forward to working with you and Chairman Thomas to 
ensure--once and for all--that all of our nation's children are safe.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Cardin. Before we move on 
to our testimony, I want to remind our witnesses to limit their 
oral statements to 5 minutes. However, without objection, all 
of the written testimony will be made a part of the permanent 
record. To begin our hearing, I would like to welcome three 
Members of Congress from the State of New Jersey, the Honorable 
Robert Andrews, the Honorable Bill Pascrell, and the Honorable 
Michael Ferguson. Congressman Andrews your testimony.

STATEMENT OF THE HONORABLE ROBERT E. ANDREWS, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. ANDREWS. Thank you, Mr. Chairman. Good morning, Mr. 
Cardin, Members of the Committee. We deal with a lot of very 
important questions in the U.S. House of Representatives, and I 
know that the Members of this Committee in this room deal with 
very consequential matters all the time. I can't think of a 
more consequential or important subject that the Committee will 
take up ever than the issue that you are looking at today.
    Thirty days ago, a young man and three little boys in 
southern New Jersey, in Collingswood, New Jersey, their names 
were not known beyond their own family, neighborhood, and 
friends. Today, their names are being reported in the national 
media, worldwide media, because of the horrific events 
surrounding their lack of care and what has happened to them.
    I thank Mr. Cardin for mentioning in his very opening 
remarks the most important subject, which is the very good news 
that reports are that each of these four young men are making 
medical progress. We are thankful for that, and we hope that 
that continues.
    This is a matter where there is one set of facts that is 
indisputable, there is another set of questions that is very 
much in dispute, and there is a third set of questions that I 
think we have a responsibility to take under our wing and 
answer. What is not in dispute is that a young man and three 
boys were in grave medical distress when they were discovered 
by the Collingswood, New Jersey Police a few days ago. As Mr. 
Cardin said, these four young men were shockingly underweight 
and in terrible, terrible condition. That is indisputable.
    There is much dispute as to how they got there and whose 
responsibility that is. It is the responsibility of the county 
prosecutor, Mr. Sarubbi, in whom I have great confidence, and 
the court system, in which I have great confidence, to sort out 
the question of whose legal responsibility this terrible 
situation is. I am certain that the courts and the criminal 
justice system and the administrative law system will sort 
these questions out.
    Frankly, it is important that the Committee know the facts, 
but it is even more important that the regular legal processes 
that deal with these children, their parents, and other people 
associated with this matter run its course and be dealt with 
properly. The Congress of the United States is not a place that 
decides innocence or guilt or liability or the lack thereof.
    The third question is the one for which we have great 
responsibility, and that question is not simply how did these 
four young men find themselves in such desperate straits that 
day, but whether we know for sure whether there are other 
little boys or other little girls elsewhere in America that are 
in the same situation as we meet this morning.
    The taxpayers of the United States in the last fiscal year 
spent $5.8 billion of Federal money to erect and maintain a 
system to look after the most vulnerable children in America. 
Now, I know that many people in that system are everyday 
heroes; moms and dads, foster moms and dads who go far beyond 
what is legally required of them and love those children with 
their whole heart and their whole soul.
    It has been my experience that the vast majority of 
caseworkers and professionals in the child welfare system also 
go far beyond what is legally required of them. The clock may 
say they are supposed to punch out at 5 o'clock, but they do 
not stop caring about children at 5 o'clock. Many of them use 
their own time and their own money to do what needs to be done 
for the children under their care.
    I am confident that throughout this system there are many, 
many good people who perform exceptionally good work every day, 
and I would hope that none of them would think that the purpose 
of this hearing is to impugn their performance or their 
integrity.
    It is also, however, indisputable that, as these facts so 
sadly point out, not every child receives the benefit of such 
high quality care. The question that I think we need to focus 
on here is who is watching the watchers. Each State has a child 
welfare agency that is responsible for looking after children 
who are placed in foster care or who are under consideration 
for adoption, and that looking-after process involves home 
visitations and interviews with people who know the parents and 
others who were involved. It is the job of the child welfare 
agencies to make sure that the people entrusted with the 
everyday care of the children are doing their job.
    It is our job to make sure that the State child welfare 
agencies who receive this $5.8 billion are doing the job that 
we have entrusted them to do with that money. We don't know the 
answer to that question. What I would hope the Committee would 
focus on would be ways that we could improve our own oversight 
so that an incident like this never happens again to any child 
anywhere in our country.
    Now, let me also say, in concluding, that these tragedies 
are not new to New Jersey, I am saddened to say. As my friend 
and colleague, Mr. Payne, can tell you, we have been rocked 
with horrible stories in recent months throughout our State of 
children forgotten, abused, and killed. I would say that the 
State of New Jersey did not wake up the morning after the 
Jackson case became news and start trying to do something about 
it. In fact, there has been a consistent effort over the last 
number of months in particular, where Governor McGreevey and 
the administration in New Jersey has made a concerted effort to 
try to make things better.
    I believe you are going to hear from Mr. Kevin Ryan this 
morning, who is the Child Advocate who has been appointed as a 
result of the settlement of a Federal lawsuit against the New 
Jersey Child Welfare System. I think New Jersey is in the lead 
in this category of bringing in an independent observer to try 
to make sure these things do not happen again.
    I don't say these things by way of explanation for what we 
found in Collingswood, but I say them to say that you can be 
assured that in New Jersey the efforts to try to fix this 
reprehensible problem did not begin the day after the case of 
these young men became public.
    Finally, let me say that I want to give some credit to the 
Collingswood, New Jersey Police Department here. It is the 
first public agency that took action when these grave facts 
became known. It is the very first agency that stepped forward 
and did something to help these boys. In our system, Mr. 
Chairman, that is not really the job of the police department, 
but the police officers who responded, responded as human 
beings, and they deserve our credit.
    I hope, Mr. Chairman, that another hearing like this is 
never necessary again, but I commend you for calling it so we 
can collectively work together and do a much better job of 
supervising those to whom we are giving $5.8 billion and, more 
importantly, giving the high moral responsibility of guarding 
those who are least able to guard themselves.
    Chairman HERGER. Thank you very much, Representative 
Andrews, for your testimony. Representative Pascrell to 
testify.

STATEMENT OF THE HONORABLE BILL PASCRELL, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. PASCRELL. Thank you, Mr. Chairman, Ranking Member 
Cardin, and Members of the Subcommittee, my brother Donald 
Payne from New Jersey, Michael Ferguson, and Rob Andrews here.
    I think the main reason we come down here to Washington or 
come over to Washington or up to Washington is to protect the 
most vulnerable in our society; older people, our kids, those 
who are infirm, and those who are disabled. I think this is a 
priority. I think good can come of this painful experience if 
we hold a mirror to ourselves. I think that is critical to this 
issue, to be honest about this entire situation.
    As a member of the State legislature, I thought I had seen 
the worst in the foster care system. In 1994, foster parents 
Marilyn and Bruce Wylie were given custody of Yasmin Taylor, 
better known as Pumpkin to all of us, a medically fragile 
child. Pursuant to a court order later that year, the Division 
of Youth and Family Services (DYFS) took Yasmin from her foster 
parents and returned her to her biological maternal 
grandmother. The foster parents protested, argued that Yasmin 
was too sick and weak at the time. This was a child that needed 
immediate medical attention, Mr. Chairman. Ignoring the pleas 
and concerns, Yasmin was removed, and she died 2 days after she 
was released. It was a tragedy. It shook me, it shook my 
hometown of Paterson, New Jersey.
    As a result of that incident, I started to really dig into 
what DYFS was all about. There are many good people, as 
Congressman Andrews just pointed out, who served there and 
still serve there from then. I introduced several bills, a bill 
that would have established an Office of Ombudsman. Who are the 
advocates for these children? Who advocates for them? Not just 
simply has oversight responsibility but who advocates for these 
kids? In fact, then State Senator Jim McGreevey introduced a 
companion measure in the State senate, I introduced it in the 
State assembly.
    Our bill would have created an independent office for a 
child advocate outside the Department of Human Services or DYFS 
bureaucracies. If in existence, the Wylies could have used this 
ombudsman as a resource. After 7 years, that concept has 
finally been enacted this past September by Governor McGreevey 
establishing the Office of Child Advocate. Kevin Ryan, the 
newly appointed Child Advocate, you will hear from in a few 
moments.
    This was among many recent changes prompted by the court-
enforced settlement this past summer. The settlement required 
an immediate safety assessment for every child in the foster 
care system. Of the 14,000 children in the system, the report 
found only 87 children where their safety was a concern, of 
which 31 were removed from foster homes or the facility, which 
brings us here today. Unfortunately, as we know, the Jackson 
boys were not part of the 87; in fact, not even after the 
caseworker visited a foster child in the same household 38 
times.
    As Mr. Ryan has stated, the caseworker reported that those 
children were all safe, despite the fact that the utilities had 
been turned off for the last 6 months, the kitchen doors were 
locked shut, and the four boys were obviously starving, quote-
unquote. Whatever the reasons, whatever those may be, why the 
system failed to identify the abuse of these boys, we need to 
recognize that the same problems keep on surfacing.
    One issue I believe that can be better addressed is the 
issue of transparency. On the Federal level and on the State 
level there needs to be accessibility to records. We need to 
know which agencies are able to go to those records, protecting 
privacy of course at all times, accessibility to records by 
those proper agencies. As I said, 7 years ago confidentiality 
laws protected DYFS from public scrutiny but did not protect 
the children.
    Requiring public knowledge of child abuse and neglect 
investigations, as I had proposed while serving in the State 
legislature, is key to holding any agency accountable. While 
DYFS should take the lead, all social and educational services 
can certainly be on the same page.
    I am proud that New Jersey is having incredible success in 
placing foster care children into permanent homes. New Jersey 
placed over 5,000 children in permanent homes, earning a total 
of $4.5 million in adoption bonuses, which is the ninth highest 
nationwide over the past 4 years. I praise the Governor and his 
administration for taking the steps that should have been taken 
7 years ago, 14 years ago, 20 years ago. I am confident these 
major systemwide improvements will be illustrated in the U.S. 
Department of Health and Human Services (HHS) Family and Child 
Services review due early next year, I believe it is in March. 
That is for New Jersey.
    You know this is not just a New Jersey problem, Mr. 
Chairman. I am concerned about the penalties issued after the 
secondary Title IV-E Federal review processes. New Jersey is 
working through a case that is costing the State $6 million. 
While I understand that HHS wants to make sure that States 
comply with program requirements, I do not believe that 
imposing monetary penalties will necessarily help the States 
improve their system.
    My friend Mr. Cardin has a proposal to help the States 
improve their foster care systems, including funds for 
training. As we see the number of children in the program 
increase, and the State has increased its commitment 50 percent 
over the past 5 years, that is a tremendous number, Mr. 
Chairman. We need the Federal Government to be a participant in 
paying its share.
    Mr. Cardoza has legislation for a National Commission on 
Foster Care. We can and must find the best models nationwide 
and then create incentives to encourage States to implement 
these best practices.
    In conclusion, I urge you, Mr. Chairman, to use this 
hearing as the first in a series to get to the heart of the 
problem. I urge you to continue to work on these issues, 
bringing in interested Members to help in this purpose. Let us 
not wait until another horrific incident happens. I compliment 
the Committee for its oversight. I can assure you there are too 
many children throughout this Nation with too many needs to 
allow us to rest. This is a first step. I commend you, Mr. 
Chairman. Thank you.
    [The prepared statement of Mr. Pascrell follows:]

  Statement of the Honorable Bill Pascrell, Jr., a Representative in 
                 Congress from the State of New Jersey

    Chairmen Herger, Ranking Member Cardin, Members of the 
Subcommittee, I thank you for inviting me to testify today.
    Back when I was a member of the State assembly and the Mayor of 
Paterson, NJ, I thought I had seen the worst in the foster care system. 
In 1994, foster parents Marilyn and Bruce Wylie were given custody of 
Yasmin Taylor, a medically fragile child. Pursuant to a court order 
later that year, the Division of Youth and Family Services (DYFS) took 
Yasmin from her foster parents and returned her to her biological 
maternal grandmother. The Wylies protested the removal--argued that 
Yasmin was too sick and weak at the time. This was a child that needed 
immediate medical attention. But ignoring the pleas and concerns, 
Yasmin was removed. She died two days later from a virus that attacked 
her heart. It was a tragedy that shook my hometown of Paterson.
    As a result of that incident and others, I introduced several State 
assembly bills to improve the foster care system in New Jersey, 
including a bill that would have established an Office of the Ombudsman 
for Abused and Neglected Children. In fact, then-State Senator James E. 
McGreevey introduced a companion measure in the State Senate.
    Our bill would have created an independent office for a child 
advocate, outside the Department of Human Services or DYFS 
bureaucracies. If in existence, the Wylies could have used this 
ombudsman as a resource in its fight with DYFS. The office would serve 
as an advocate for abused and neglected children by receiving and 
investigating complaints about DYFS, and increasing coordination and 
collaboration among State and local agencies. After seven years that 
concept was finally enacted into law this past September, establishing 
of the Office of the Child Advocate. Kevin Ryan, who is scheduled to 
testify on the next panel, is that newly appointed Child Advocate.
    As more and more cases began to appear in the 1990's, New Jersey 
focused on the staffing issue. The State hired an additional 120 
employees, bringing its statewide compliance with workload standards to 
over 80 percent. In addition, New Jersey purchased 2,300 computers, 
finally bringing DYFS into the information age. The hope was that the 
new computers would enhance the ability of caseworkers to do their work 
more efficiently, thus allowing them to spend more time with troubled 
families. But as we know, technology and staffing alone are not enough 
to solve the major problems continually found at DYFS.
    In January 2003, New Jersey found itself in a familiar situation 
with the horrific story of Faheem Williams. Only seven years old, 
Faheem's battered, lifeless body was found in a trunk. His half brother 
was suffering from starvation.
    Like we as legislators do on many tough issues, only the extreme 
cases wake us up to the realities.
    New Jersey went through the process of attempting to hire more 
workers. While successful on its surface, because of turnover, DYFS has 
had a net gain of only 60 workers, and nearly 80 vacancies remain. In 
addition efforts to create a computerized child welfare tracking system 
are in the works which would allow caseworkers to call up a complete 
file on a child or a family to provide a whole picture of the family. 
New Jersey is one of six States not to have such a system.
    Many recent changes were prompted by the court-enforced settlement 
this past summer. The settlement required an immediate safety 
assessment for every child in the foster care system. The assessments 
were completed October 23, 2003 for more than 14,000 children in the 
system. The report found only 87 children where their safety was a 
``concern'' of which 31 were removed from the foster home or facility.
    Which brings us here today. Unfortunately, as we know, the Jackson 
boys were not part of those 87 in danger. In fact, not even after the 
caseworker visited a foster child in the same household 38 times. As 
Mr. Ryan has stated, the caseworker ``reported that those children were 
all safe despite the fact that the utilities had been turned off for 
the last six months, the kitchen doors were locked shut, and the four 
boys were obviously starving.''
    Whatever the reasons are as to why the system failed to identify 
the abuse of these boys, we also need to recognize that the same 
problems keep on surfacing. One issue I believe that can be better 
addressed is transparency. There is no question that a certain degree 
of privacy is important and should certainly be respected. But 
requiring public knowledge of child abuse and neglect investigations--
as I had proposed while serving in the Assembly--is a key to holding 
DYFS accountable. Ensuring transparency should also work hand in hand 
with coordination among agencies and other governmental institutions. 
While DYFS should take the lead, all social and educational services 
can certainly be on the same page.
    Focusing on number of workers alone hasn't proven completely 
effective. Dedication of resources to hire new workers is important, 
but we also must address retention rates of workers. About 80% of 
workers end up leaving DYFS, limiting the experience of many staff 
members. This is certainly an issue to address.
    I am proud that New Jersey has had incredible success in placing 
foster care children into permanent homes. Congress began to address 
the question of adoption in 1997 with the Adoption and Safe Families 
Act, which we just reauthorized in October. As you know, the Act 
provides States an incentive payment of $4,000 per child adopted above 
prior year levels, as well as an additional $2,000 on top of that for 
each child with special needs placed in a caring home.
    New Jersey has used this program very effectively, and made 
permanent improvements in practices. In fact, New Jersey placed over 
5,000 children in permanent homes earning a total of $4.5 million in 
adoption bonuses which is the ninth highest nationwide over the last 
four years. In FY 2002, New Jersey received $1,923,000 after a 13% 
increase rate of adoption.
    We should praise Governor McGreevey and his Administration for 
taking these issues head on the past ten months. Their commitment to 
reform is commendable. I am confident these major system wide 
improvements will be illustrated in the HHS Family and Child Services 
review due early next year. But Mr. Chairman, as you know, this is not 
just a New Jersey problem. We have heard horror stories from Florida 
and other States in the past few years.
    I encourage Congress--and in particular this Committee--to continue 
to look at the whole picture. Presently, States have campaigns to 
recruit foster families, but many foster families don't have support 
systems. After all the training they receive, when a child is finally 
dropped off at the household, foster parents have no one to call if 
something goes wrong. As a result, we find a lack of available foster 
families. Relationships between the caseworker and the families are not 
established. Right now, overworked caseworkers with limited time visit 
homes and miss the whole picture. The Jackson boys are an extreme case 
of that.
    If only the caseworker had more time and a relationship with the 
whole family. While I do believe this was an isolated incident, if only 
they discovered the abuse of these boys while they were foster kids, 
then maybe the Jackson boys and all foster children would not be abused 
or neglected.
    While there is no silver bullet, there are several proposed 
solutions and recommendations I believe that the Committee should 
support.
    I am concerned about penalties issued after secondary IV-E reviews. 
New Jersey is working through a case that is costing our State a much 
needed $6 million. While I understand that HHS wants to make sure that 
States comply with program requirements, I do not believe that imposing 
monetary penalties will help the States improve their system. Rather, 
we should only require that they reinvest that potential disallowance 
back into their system improvements.
    My friend Mr. Cardin has a proposal (H.R. 1534) to help the States 
improve their foster care systems, including funds for training. Many 
of our State's are in severe budgetary situations, New Jersey is no 
exception. As number of children increase, and the State increases its 
commitment 50% over the past five years, we need adequate increased 
funding from the Federal Government.
    Mr. Cardoza of California has a proposal for a Foster Care Reform 
Commission. We can and must find the best models nationwide, and then 
create incentives to encourage States to implement these best practices 
in their foster care systems.
    Mr. Chairman, I urge you to use this hearing as the first in a 
series, to get to the heart of this problem. I urge you to continue 
working on these issues, bringing in interested Members to help 
propose--and enact--solutions. Let us not wait until another horrific 
incident happens.
    I compliment the Committee for its oversight today and encourage 
you to keep moving forward. There are too many children throughout this 
Nation, with too many needs, to allow us to rest.
    We can all do better.
    Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, very much, Representative 
Pascrell. Now Representative Ferguson to testify.

 STATEMENT OF THE HONORABLE MIKE FERGUSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. FERGUSON. Thank you, Mr. Chairman, and thank the 
Ranking Member as well for holding this important fact-finding 
hearing. I also want to thank my colleagues from New Jersey for 
their thoughtful and obviously heartfelt comments.
    No one can absorb the tragedies that have befallen the 
children under the care and supervision of DYFS and be anything 
but horrified. The DYFS is perhaps the most important agency of 
our State government, for its duty is to protect the most 
vulnerable of our citizens. The DYFS has failed unimaginably in 
this duty.
    My wife and I are parents of three young children. Like 
millions of parents across New Jersey, I have been both 
outraged at DYFS's failure to fulfill its duty and heartbroken 
for the children under its care.
    In New Jersey just last month the DYFS program completed a 
review, and I want to read an article, just a very small 
passage from an article from the Newark Star-Ledger of an event 
which prompted this review which was just recently completed. 
This is from January 6th of this year. ``The gruesome story 
began to unfold Saturday when a man who lives in the house 
searched the windowless basement for a pair of misplaced boots. 
When he kicked in a locked door, he discovered what he 
described as a `head with hair on it,' beneath a bed and he 
called police. The police arrived to find the two children 
starved and dehydrated. Police said the children apparently had 
not eaten for 2 weeks. The children were not able to answer 
questions from detectives until yesterday. When they did, one 
of the two, a boy identified as Raheem Williams, 7 years old, 
told them, `I have a brother I haven't seen in a while.' Police 
returned to the house with the Essex County Sheriff 
Department's cadaver dog and made the grizzly discovery in a 
separate room in the basement. They found the boy's brother and 
his mummified body.''
    This event prompted the review, which was recently 
concluded by DYFS. Numerous recommendations were made, policies 
were changed, people lost their jobs, but more, much more, 
needs to be done. While that review focused on the death of one 
boy under DYFS's care in Newark, a second tragedy struck one 
day after this report was issued. The DYFS caseworkers say they 
visited a home in Collingswood 38 times in the last 4 years, 
and one even reported that a ``very supportive environment'' 
was in place. The truth is that that environment was ghastly. 
Four boys, severely malnourished, and one, a 19-year-old, 
weighed, as you said, 45 pounds.
    The DYFS is so dysfunctional, plagued by shocking lapses of 
judgment, poor to nonexistent supervision, and inexperienced 
caseworkers, one can fairly ask can DYFS be fixed? The agency 
has already failed two Federal audits. The HHS regular Child 
and Family Services review is scheduled to begin in March. The 
State already has forwarded data to HHS in preparation for this 
review.
    In the face of what can only be described as incompetence 
on a grand scale, I have significant questions about the 
validity of this data. That is why today I will be sending a 
letter to HHS Secretary Tommy Thompson. I will be requesting a 
meeting with him and our New Jersey congressional delegation to 
discuss the status of the data collection to date and to 
outline the steps HHS will be taking to ensure this Federal 
review is fair but thorough. I don't want a one-time meeting. I 
believe every member of our State's delegation must be briefed 
on an ongoing basis on the status of this review.
    This week I have also requested meetings with the HHS 
Inspector General and with the U.S. General Accounting Office 
to discuss formal Federal investigations of DYFS. At the moment 
I am not calling for these investigations. Instead, I want to 
monitor the data collection from the State and the State's 
cooperation with HHS and HHS's regular review. Many of the 
leaders of my State, both Republicans and Democrats, have been 
working hard and in good faith to fundamentally reform DYFS and 
the manner in which it supervises its workers and oversees the 
children under its care. I want to allow that process to 
continue and I want it to be successful.
    If, however, the State fails in its reforms and fails to 
fully cooperate in the HHS review, I will call on Federal 
authorities to investigate DYFS not only to ensure Federal tax 
dollars are spent wisely but for a far more important goal: 
that the horrors that our State's children live through while 
under this State's care never happen again.
    In summary, I look forward to the testimony of the 
Subcommittee and to the conclusions it reaches and the 
recommendations you may make. No matter what State we 
represent, each of us has a duty to step in when an agency like 
DYFS fails to fulfill its duty. After all, Mr. Chairman, our 
children are our Nation's most precious resource. Can DYFS be 
fixed? It must be fixed, and it must be fixed now.
    [The prepared statement of Mr. Ferguson follows:]

Statement of the Honorable Mike Ferguson, a Representative in Congress 
                      from the State of New Jersey

    I want to thank Chairman Herger for holding this important fact-
finding hearing. I also want to thank my colleagues from New Jersey for 
their thoughtful comments.
    No one can absorb the tragedies that have befallen the children 
under the care and supervision of DYFS and be anything but horrified. 
DYFS is perhaps the most important agency of our state government, for 
its duty is to protect the most vulnerable of our citizens.
    DYFS has failed unimaginably in this duty.
    My wife and I are parents of three young children. Like millions of 
parents across New Jersey, I have been both outraged at DYFS' failure 
to fulfill its duty and heartbroken for the children under its care.
    The state last month completed a review of DYFS. Numerous 
recommendations were made. Policies were changed. People lost their 
jobs.
    But more needs to be done.
    While that review focused on the death of one boy under DYFS care 
in Newark, a second tragedy struck one day after the report was issued.
    DYFS caseworkers say they visited a home in Collingswood, New 
Jersey, 38 times in the last four years, and one even reported that a 
``very supportive environment'' was in place. The truth was that the 
environment was ghastly; four boys were severely malnourished, and one, 
a 19-year-old, weighed 45 pounds.
    DYFS is so dysfunctional, plagued by shocking lapses of judgment, 
poor to non-existent supervision and inexperienced caseworkers, one can 
fairly ask: Can DYFS be fixed?
    The agency already has failed two federal audits. The U.S. 
Department of Health and Human Services' regular Child and Family 
Services Review is scheduled to begin in March. The state already is 
forwarding data to HHS in preparation for this review. In the face of 
what can only be described as incompetence on a grand scale, I have 
significant questions about the validity of that data.
    That is why today I'm writing a letter to HHS Secretary Thompson. I 
am requesting a meeting with him and New Jersey's congressional 
delegation to discuss the status of the data collection to date and 
outline the steps HHS will take to ensure this federal review is fair 
but thorough. I do not want a one-time meeting; I believe every member 
of my state's delegation must be briefed on an ongoing basis on the 
status of that review.
    This week I also have requested meetings with the HHS Inspector 
General and with the General Accounting Office to discuss formal, 
federal investigations of DYFS. At the moment, I am not calling for 
these investigations. Instead, I want to monitor the data collection 
from the state and the state's cooperation with HHS on HHS' regular 
review.
    Many of the leaders in my state, both Republicans and Democrats, 
have been working hard and in good faith to fundamentally reform DYFS 
and the manner in which it supervises its workers and oversees the 
children under its care. I want to allow that process to continue, and 
I want it to be successful.
    If, however, the State fails in its reforms and fails to fully 
cooperate in the HHS review, I will call on federal authorities to 
investigate DYFS not only to ensure Federal tax dollars are spent 
wisely--but for a far more important goal: that the horrors our state's 
children lived through while under the State's care never happen again.
    I look forward to the testimony before this subcommittee and the 
conclusions it reaches and the recommendations it makes. No matter what 
state we represent, each of us has a duty to step in when an agency 
like DYFS fails to fulfill its duty. After all, children are our 
nation's most precious resource. Can DYFS be fixed? It must be fixed, 
and fixed now.

                                 <F-dash>

    Chairman HERGER. Thank you, very much, for your testimony, 
Representative Ferguson. Are there any questions of the 
Members? If not, we ask the next panel----
    Mr. CARDIN. Let me just thank all three of our colleagues 
for their passion on the subject. We need to develop broad 
coalitions within the Congress to work on these issues, and we 
very much thank you for your commitment in these areas.
    Let me just comment, Mr. Andrews, I agree with you 
completely the system is going to have to hold accountable 
those responsible for the specific actions, whether it was the 
family or whether it is the people from the department who 
failed their responsibilities. Ultimately, we have 
responsibilities to work together to improve the system, to 
make it less vulnerable for what happened, and I want to thank 
all three of you for your testimony.
    Chairman HERGER. Thank you, and I join in thanking you for 
taking the time this morning.
    Mr. CARDIN. If I might, Mr. Chairman, if I could yield to 
Mr. Payne for one moment.
    Chairman HERGER. Yes, without objection.
    Mr. PAYNE. Thank you very much. Let me also commend the 
Subcommittee for calling this very important hearing, and you 
can see how important my colleagues from New Jersey feel that 
this is. I think the testimony from Congressman Andrews, 
Congressman Pascrell, and Congressman Ferguson really 
pinpointed some of the very serious problems we have in the 
system.
    I take particular interest, being a former schoolteacher, a 
former social worker, and having dealt with issues of this many 
decades ago when I served in those capacities. I do believe 
that this is going to be an issue that we have to take a look 
at the total parameters. I don't think this is something to 
point fingers at. This is something to find out how we can 
improve the quality of life for the most vulnerable in our 
society, our young.
    I think a nation actually should be judged by how it treats 
its young and its elderly. So, issues of stability, of the 
system turnover rates, salaries, the whole question of 
training, I think these are issues that we really have to come 
to grips with. Home schooling. How do we ensure that home-
schooled children are not in situations like this? There is a 
movement in New Jersey and around the country to take 
registered nurses out of public schools because it is felt it 
is too costly and that we should downgrade the registered nurse 
in public schools. Would that be something that should be done 
at this time?
    I think there are a number of issues that we need to look 
at, and I just wanted to thank you all for calling this very 
important hearing. Thank you.
    Mr. CARDIN. Let me thank my colleague, Mr. Payne. Mr. 
Chairman, I would ask unanimous consent that a statement from 
Mr. George Miller, Congressman from California, the Ranking 
Democrat on the Committee on Education and the Workforce, also 
be made part of our record.
    [The statement of Mr. Miller follows:]

Statement of the Honorable George Miller, a Representative in Congress 
                      from the State of California

    Good morning and thank you for affording me this opportunity to 
testify. I commend the Chairman for examining this horrendous failure 
to protect children.
    Today you will hear about a State welfare system that allowed 
parents to starve their four adopted children--children who were known 
to the welfare system, because they lived in a home that New Jersey 
State welfare workers had visited on 38 occasions over the past 4 
years. We will also hear about another New Jersey tragedy that occurred 
earlier this year. In that case, a 7-year-old boy was found dead and 
his two brothers were found emaciated and locked in a basement filled 
with feces and rodents. Social workers had also paid multiple visits to 
that family investigating allegations of abuse and neglect.
    New Jersey is not alone; these tragedies are symptomatic of a 
chronic failure of our Nation's child welfare systems to properly care 
for children. There are more than 550,000 children in foster care 
nationally, taken by States out of dangerous homes and supposedly 
placed in safe, nurturing environments where they will receive the 
services they desperately require.
    The reality is very different. In recent months, the national scope 
of the failures has become apparent. A recent Health and Human Services 
report assailed California's system of care for abused and neglected 
children. Michigan officials recently admitted that they had lost track 
of 302 abused or neglected children. An audit of Maryland's child 
welfare system revealed that the State had lost track of some foster 
care children for months, failed to ensure proper health care and, in 
at least one case, entrusted a foster child to a sex offender.
    In Milwaukee, 48% of families investigated for abuse had prior 
involvement with the child welfare system; in the District of Columbia, 
32% of such families had been previously reported to protected 
services; and in Florida, at least 37 children died of abuse or neglect 
over the past 5 years despite having been the subject of an abuse or 
maltreatment complaint. Of the estimated 1,500 children annually who 
die of abuse and neglect, more than 40% were already known to the child 
welfare agencies.
    Over 25 years ago, I launched an investigation into the failures of 
the Nation's child welfare system. For tens of thousands of children, 
foster care was a living horror where services were denied, placements 
were unsupervised, and legal rights routinely flaunted. I called it 
``State sponsored child abuse.'' And those hearings and investigations 
led to the enactment of the Child Welfare and Adoption Assistance Act 
in 1980 that required States to improve the services and accountability 
in their foster care programs, and to promote adoptions for children 
unable to return home.
    Yet here we are, 23 years after the 1980 law, and in spite of 
additional legislative action to further the goals of child safety and 
well-being, far too little has changed. Today's headlines are almost 
carbon copies of those written over two decades ago, filled with 
stories of States' failures to provide services and protection to 
foster children.
    In the past 2 years, 32 State child welfare programs have been 
subjected to Federal reviews, and every single one has failed to meet 
national standards.
    Last November, I joined national child welfare experts and my 
colleagues Charles Rangel, Ben Cardin, and Pete Stark in sponsoring a 
Child Welfare Summit to discuss urgent problems facing child welfare 
services and to recommend improvements for Federal and State 
accountability and oversight. Following last year's Summit, I joined 
Representative Cardin in cosponsoring a bill that would strengthen 
Congress' will and commitment to protect children.
    The Child Protective Services Improvement Act will include 
provisions designed to improve outcomes for children in foster care, 
address substance abuse problems, update eligibility standards, 
minimize multiple placements of children in foster care and move 
quickly to either return them to their families or find permanent 
adoptive homes. The bill is designed to enhance caseworker retention by 
providing grants to enhance social worker training, raise salaries and 
reduce caseloads.
    Our legislation is drawn from the frontline experience of those 
around the country most knowledgeable about foster care and about the 
kinds of reforms that are needed to achieve permanency, appropriate 
services, and accountability. Improved services, support for 
caseworkers, flexibility in foster placements, and a renewed commitment 
to permanent homes--these are urgent goals for children and families in 
the child welfare system.
    The Federal Government spends $5 billion annually to protect abused 
children. Today's hearing cannot merely examine the failure of New 
Jersey officials to protect abused children. It must raise serious 
questions about the adequacy of Federal oversight of State child 
welfare programs. There are those who propose changes in the child 
welfare system that would diminish accountability and grant even 
greater latitude to the States in managing their Federally financed 
foster care systems. With 32 State agencies failing to meet basic 
standards for their foster care programs, it would be foolhardy to 
award States a block grant in hopes they would run their programs more 
responsively than they do with the specific mandates in current law.
    Instead, I urge my colleagues to consider the reforms proposed in 
the Child Protective Services Improvement Act. As I have said before, 
many of these children who are abused, and then re-abused, could have 
been saved had there been an adequate social services safety net to 
catch them. Congress only lacks the will, not the ability, to help 
families in crisis.
    Again, I thank you for this opportunity to testify today.

                                 <F-dash>

    Chairman HERGER. Without objection, it will be made part of 
our record. Also without objection, Mr. Payne, who is not a 
Member of our Committee, has requested to sit with us for a 
time, and we will allow that. Again, thank you very much for 
being with us.
    Today, in our second panel, we will be hearing from Colleen 
Maguire, Deputy Commissioner of the New Jersey Department of 
Human Services; Kevin Ryan, Child Advocate for the State of New 
Jersey; Vincent Sarubbi, Prosecutor from the Camden County 
Prosecutor's Office; the Reverend Harry Thomas, Come Alive New 
Testament Church; Carla Katz, President of the Communications 
Workers of America Local 1034; and Marcia Robinson Lowry, 
Executive Director of Children's Rights. Ms. Maguire to 
testify.

 STATEMENT OF COLLEEN MAGUIRE, DEPUTY COMMISSIONER, CHILDREN'S 
SERVICES, NEW JERSEY DEPARTMENT OF HUMAN SERVICES, TRENTON, NEW 
                             JERSEY

    Ms. MAGUIRE. Thank you very much. Good morning, Chairman 
Herger, and Members of the Subcommittee. On behalf of Governor 
McGreevey and Commissioner Harris, we thank you for inviting 
the New Jersey Department of Human Services to be part of this 
hearing today and to share our outrage and concern regarding 
the conditions of the New Jersey child welfare system.
    Sadly, the Jackson family is the latest in a series of 
tragedies that have caused all of us in New Jersey to express 
outrage at the depth of the problems that confront the child 
welfare system and our commitment to rebuilding the system so 
that all children are safe. Governor McGreevey has taken some 
very bold steps in acknowledging the serious need for reform in 
New Jersey and in fixing its child welfare system, a system 
that has experienced decades of neglect.
    In June, Governor McGreevey ordered the settlement of a 
longstanding class action lawsuit against the State filed by 
Children's Rights, Inc. The settlement agreement provides New 
Jersey the assistance and oversight of a panel of national 
child welfare experts underwritten by the Annie E. Casey 
Foundation. He signed an Executive Order creating a Cabinet for 
Children, which includes Cabinet-level officials from sister 
departments. He stabilized an Independent Office of the Child 
Advocate as a watchdog for New Jersey's child welfare system, 
and he committed in excess of $30 million, in these very 
difficult budget times, to hire more staff, buy more equipment, 
upgrade technology, and expand training for workers.
    Governor McGreevey also became the first New Jersey 
Governor to commit State dollars to begin the development and 
implementation of the Federally-mandated Statewide Automated 
Child Welfare Information System. New Jersey just completed an 
unprecedented effort in assessing the safety of 14,000 children 
in out-of-home placement.
    Tragedies like the Jackson family are not unique to New 
Jersey. As you know, many States have experienced similar 
tragedies, and in a few minutes you will hear from Marcia 
Lowry, who has tirelessly championed the welfare of children by 
filing lawsuits. These lawsuits all too often highlight the 
failures in the child welfare system.
    Some of the issues facing New Jersey's child welfare system 
and its failures include a fundamental lack of core principles 
and standards for practice, uneven case practice, excessive 
caseloads, inadequate training and supervision for the 
caseworker and supervisory staff, flawed decision-making, 
inadequate supports for foster and adoptive parents, and an 
overall lack of systemic accountability. Regrettably, the 
Jackson case has reinforced these all-too-familiar issues that 
have been unraveling for the past several months.
    On October 10th, the starving 19-year-old boy named Bruce 
Jackson was discovered rummaging through the garbage in 
Collingswood, New Jersey, looking for food. Bruce is 4 feet 
tall, and at the time weighed less than 50 pounds. He and his 
three adopted brothers, who are 14, 10, and 9, had essentially 
grown up in New Jersey's foster care system. Our State child 
welfare agency has placed these boys in their adoptive home and 
provided financial subsidies to their parents for their care.
    It appears that over the years these four boys had been 
systematically deprived and neglected by the adoptive parents, 
unlike the girls living in the home. Even more tragic, since 
1999, as many of you have said today, DYFS staff had been in 
the home on 38 different occasions, and none of them apparently 
voiced any concern about the boys or took any action to follow 
up. They all believed the parents' explanation that the 
children had eating disorders.
    Together, the boys weighed a total of 135 pounds, their 
teeth are rotted, and five of the seven children had head lice. 
I am happy to report, Mr. Chairman, that today the boys have 
gained a combined total of almost 50 pounds since October 10th. 
Bruce has gained 18.4 pounds, Keith 13.5 pounds, Tyrone 8 
pounds, and Michael 9.5 pounds.
    Because of our commitment to accountability, we are going 
to reassess 6,000 cases, because, quite frankly, the 
alternative would not be acceptable. In an effort to remake the 
child welfare system, Governor McGreevey, and those of us who 
are charged with leading the change, have accepted the fact 
that the system is so broken it cannot be fixed in a few weeks 
or a few months. We are working in concert with the Child 
Welfare Panel to complete a comprehensive public planning 
process which will result in a reform plan due in January 2004. 
We are also currently engaged in a self-assessment phase of the 
Child and Family Services review, and plan to integrate the 
performance improvement plan and our reform plan together.
    Our ability to reform New Jersey's child welfare system 
requires strong and sustained political will over time both at 
the State and Federal levels, and, unfortunately, for long 
after the Jackson story is off the front page. It also requires 
sufficient resources and supports to our children and families, 
to our workforce, and to our community to prevent child abuse, 
protect children, and provide for permanency, all in an effort 
to meet the laudable goals of the Adoption and Safe Families 
Act (P.L. 105-89).
    We invite you to partner with us and States across the 
Nation to provide for better outcomes for all children. We ask 
that you consider expansion of Title IV-E entitlement funding 
for new services, including post-adoption assistance and 
community supports, in updating the 1996 Aid to Families with 
Dependent Children (P.L. 104-193) standards used in determining 
the Title IV-E eligibility, and in allowing States to reinvest 
disallowances for Title IV-E to improve child welfare services. 
We support and applaud Representative Camp's bill, which 
reauthorizes the adoption incentive payments program; 
Representative Cardin's bill, which seeks to improve the 
ability of child welfare systems to prevent and respond to 
child abuse and place children in safe, loving, and permanent 
homes; and Representative Stark's bill, which would provide 
grants to States to improve quality standards by authorizing 
training funds for child welfare workers.
    We ask for your support of our current reform effort and 
your continued support of adoption subsidies, which has been 
essential in helping hard-to-place children become a permanent 
member of a family of their own. Thank you very much.
    [The prepared statement of Ms. Maguire follows:]

Statement of Colleen Maguire, Deputy Commissioner, Children's Services, 
      New Jersey Department of Human Services, Trenton, New Jersey

    Good morning.
    Thank you for inviting me to be a part of this hearing.
    I am here with mixed feelings.
    I am saddened because I understand that this hearing has been 
called in response to one of the most terrible and heartbreaking cases 
of child abuse that has ever come to light in New Jersey.
    Unfortunately, this case is only the latest in a series of 
tragedies that has caused all of us in New Jersey to acknowledge the 
depth of the problems in our child welfare system--problems we are 
working hard to try to solve.
    Unlike previous Governors in New Jersey, Governor McGreevey has 
taken bold steps to try to get New Jersey's child welfare on track.
    Rather than dig in his heels and fight, the Governor chose to 
acknowledge how broken our system is and settle a longstanding class 
action lawsuit against the State filed by Children's Rights Inc.--so 
that reforms could move forward and New Jersey could benefit from the 
expertise of a panel of national experts in child welfare.
    In addition, the Governor has committed in excess of $30 million 
this year to hire more staff, buy more equipment, upgrade technology 
and expand training--to give case workers the tools they need to do 
their jobs and keep children safe.
    He has also established an independent Office of the Child 
Advocate, to fight for the rights of children, and created a Cabinet 
for Children to engage many State departments in the child welfare 
change process.
    Tragedies like these are not unique to New Jersey.
    Many states have experienced similar tragedies.
    Too often, the people who are supposed to love and nurture 
children, instead, hurt and deprive them. That appears to be what 
happened in the Jackson house. In the midst of a supposedly loving 
family, these children were literally starving.
    When police discovered the children--they weighed a combined total 
of 134 pounds.
    Too often, child protection workers are not held accountable for 
how well they supervise children in the child welfare system--
particularly if the children in question--as in this case--are now 
adopted.
    In New Jersey, we are holding staff accountable for the welfare of 
children. The child welfare workers who were in this home should have 
noticed the children's physical condition and they should have done 
something about it.
    They didn't and that is why they have been terminated.
    In New Jersey, we are in the midst of a massive reform effort that 
seeks to address significant flaws in our child welfare system. We are 
focusing not just on hiring more workers and buying more cars, 
computers and equipment but also developing and adhering to a case 
practice model that places the welfare of the child and the family at 
the center of our deliberations.
    Unfortunately, cases like the one that brings us here today, 
obscure the fact that most subsidized adoptions are working and the 
children in those placements are living in loving, supportive homes.
    So it would be tragic if the case we are discussing in 
Collingswood, and other tragic cases around the country, are used to 
condemn or indict adoption altogether.
    But in New Jersey, we must acknowledge that our child welfare 
system, as administered by our Division of Youth and Family Services, 
is broken.
    And as Governor McGreevey stated recently about actions we have 
already taken in response to the Collingswood case, what we are about 
here is not scapegoating, but accountability.
    We must be accountable to those children in New Jersey who are not 
receiving the kind of protection a strong child welfare system should 
be providing.
    Fixing a system like DYFS, which has suffered as the result of a 
long-term erosion of support and resources, cannot happen overnight.
    It will require real political will that continues to exist long 
after the TV cameras have been turned off and the story is off the 
front page of our newspapers.
    Only that kind of political will will ensure that a broken child 
welfare system is repaired from the bottom up, and that it becomes a 
system which will sustain itself over many years, through a series of 
administrators and administrations.
    It is that kind of political will that can guarantee that a child 
welfare system receives the resources and supports it needs over time.
    And that it has a well-trained workforce, accountable for what it 
does and working with its partners in the community.
    In New Jersey, Governor McGreevey is providing that type of 
political will.
    He has been strong, firm and consistent in his pledge to reform the 
DYFS system.
    And so I am also heartened--and encouraged--by the fact that you 
have responded so quickly to the case in New Jersey by calling this 
hearing.
    It provides us with a forum to talk not only about the very serious 
issues affecting children in our own child welfare system, but also 
about the reform efforts already underway in New Jersey.
    It also gives us the opportunity to talk with you about the 
unintended consequences of current federal policy and legislation as it 
affects children who are adopted after passing through the child 
welfare system.
    Briefly, the facts of the case that has brought us here today are 
these:
    On October 10, at about 2:30 a.m. a starving 19-year-old boy was 
discovered rummaging through the garbage in Collingswood, New Jersey, a 
middle-class, suburban town outside Philadelphia.
    The boy was four feet tall and weighed less than 50 pounds.
    He was looking for food.
    He and his three adoptive brothers, who are 14, 10 and 9, and who 
also each weighed less than 50 pounds, had essentially grown up in New 
Jersey's foster care system.
    Again, together, the four boys weighed a total of 134 pounds.
    Our state child welfare agency, the Division of Youth and Family 
Services, had placed these boys in their adoptive home and provided 
financial subsidies for their parents.
    The financial subsidy was no greater than they would have received 
if the boys had remained in foster care.
    And the chance that these boys would have been adopted without the 
subsidy is virtually zero.
    It now appears, however, that the subsidy had become the family's 
primary, if not sole, means of support.
    This family had adopted the four boys, one at a time, between 1996 
and 1997.
    Two girls, ages 5 and 12, also had been adopted and the couple was 
seeking to adopt another foster child, who is a girl.
    There is some indication that the boys may have had medical issues 
prior to adoption.
    However, it appears that over the years, these four boys had been 
systematically starved by their adoptive parents.
    The girls living in the home had not.
    Even more tragic, since 1999, DYFS staff had been in the home on 38 
different occasions.
    Over the past two years, no fewer than five (5) DYFS staff members 
had visited the home for one reason or another, and none of them, 
apparently, voiced any concern about the boys or took any action to 
follow up on them.
    Most recently, in June, a young caseworker visited the home in 
order to determine whether the foster child in the home was safe.
    This caseworker, like all the other DYFS staff who had dealt with 
this family in one context or another before her, missed the fact that 
other children living in the home were starving and malnourished.
    Like others before her, she accepted the parents' explanation that 
all that ailed these boys was that they were suffering from eating 
disorders.
    However, it has been documented that none of these boys had seen a 
doctor in at least five years.
    The children's teeth were rotted. Some had evidence of lice.
    Ironically, this case came to light just one day after we had 
announced the completion of the safety assessments of almost 14,300 
children who currently are living in out-of-home placements.
    These safety assessments were done in a relatively short amount of 
time and they were not perfect.
    We are the first state ever to fashion a safety assessment protocol 
for children in out-of-home placement and it did identify other 
children in unsuitable and unsafe foster care situations.
    The safety assessments, however, are not the issue here.
    The fact that the caseworker and other DYFS staff did not recognize 
or understand the dire condition of these boys, is the issue.
    And it is one fact about the case that helps to set in stark relief 
all of the other issues we are fighting to correct in our child welfare 
system.
    It also underscores how steep a mountain we have to climb.
    In a nutshell, the problem in New Jersey is this: past efforts to 
reform the Division of Youth and Family Services have tackled the job 
in pieces.
    What we are left with, and what a series of tragedies has brought 
to the fore this year, is a tragically fragmented system.
    This case is an example of that.
    The caseworker was focused solely on foster care and assessing the 
home in relation to a single foster child.
    She saw the home and the parents only in the context of that child.
    Several other system flaws that we have identified early on in the 
change process must also be addressed.
    We have been working to address these issues since another tragedy 
came to light at the beginning of the year.
    These include:

    <bullet>  Poor or uneven case practice methods
    <bullet>  Inadequate supervision of caseworkers
    <bullet>  Flawed decisionmaking
    <bullet>  Lack of training for foster and adoptive parents
    <bullet>  Lack of accountability

    In addition, the Collingswood case has raised other issues 
regarding staff hiring and training methods at the Division of Youth 
and Family Services.
    Specifically, we realize we must now look more closely at:

    <bullet>  The educational requirements for the job. Clearly, not 
everyone who simply has a bachelor's degree is necessarily qualified to 
be a caseworker for the Division of Youth and Family Services.
    <bullet>  The quality of the training provided for our workers, and 
how we can be sure that the training we provide is really absorbed by 
our staff. We need to know, perhaps through a program of periodic 
testing, that staff are integrating what they have learned into their 
daily activities.

    In the wake of this case, the Department of Human Services has:

    <bullet>  Taken action to terminate nine (9) employees who were in 
the home or supervised the workers who were in the home and who should 
have taken action.
    <bullet>  Taken action to ensure that no foster care license is 
granted unless all of the members of the family are seen.
    <bullet>  Begun to consider how to address the need for some type 
of annual medical examination for all children receiving adoption 
subsidies.
    <bullet>  Decided to enlist qualified professionals from the law 
enforcement, child welfare, education and health care arenas to redo 
the safety assessments for children managed by the office that handled 
the case in Collingswood.

    We have:

    <bullet>  Decided to redo approximately 5,000 other safety 
assessments that were done prior to August 18.

    And we have:

    <bullet>  Decided to enlist outside experts to research what types 
of caps other States place on the number of foster and adoptive 
children allowed in a given foster or adoptive home. Three years ago we 
reduced that number to eight, but we may now reduce the number further. 
In the Collingswood case, seven children were living in the home. Six 
of these were adopted, and one was a foster child.
    <bullet>  Begun to examine the issue of post-adoption supports and 
supervision including, but not limited to, the issue of home-schooling 
and annual medical reviews of children in out-of-home placement.

    As part of the context for these changes, I would like to again 
refer to the court-approved settlement that New Jersey reached in the 
Children's Rights lawsuit.
    Again, this is the case that our Governor and his administration 
chose to settle, and take swift action to reform the system, rather 
than fight.
    As a result of this settlement, our Division of Youth and Family 
Services is working under the supervision of a Child Welfare Panel with 
underwriting from the Annie E. Casey Foundation.
    The members of this panel are all national experts.
    They are working with us to complete a comprehensive public 
planning process, which under the terms of the settlement must be 
complete by January, 2004.
    This process is involving us in an intensive top-to-bottom 
determination of what a model child welfare system should look like in 
New Jersey, and developing a plan to get us there in a relatively short 
period of time. This plan will be completed by January.
    Currently, more than 150 individuals are participating in three 
workgroups convened by the panel and the Department.
    These panels are addressing the system issues I have already 
mentioned in addition to others, including a lack of community supports 
and resources for children and a scarcity of out-of-home placement 
resources.
    These efforts dovetail with a number of other significant steps 
taken this year by the New Jersey Department of Human Services.
    We are, for example, deeply involved in our federal Child and 
Family Services Review.
    New Jersey is the last state in the country to undergo this review 
and in a number of ways we have been able to benefit from the 
experiences of the states that have gone before us.
    For example, as we embarked on the Child and Family Services Review 
process, one of the first things we did was to form workgroups on 
domestic violence and substance abuse.
    These workgroups have studied these issues and their findings will 
be incorporated into the review process.
    As part of his commitment to reforming the child welfare system, 
Governor McGreevey has created a Children's Cabinet.
    Its members include the Commissioners of almost every state 
department that interacts with children--including the Departments of 
Community Affairs, Law and Public Safety Education, and Health and 
Senior Services, and the Juvenile Justice Commission.
    The State legislature has also lent its support by creating an 
independent Child Advocate with broad powers to investigate and ensure 
that we are, in fact, serving children appropriately.
    We are also looking for a commitment outside the Department of 
Human Services through partnerships with various institutions of higher 
education to develop comprehensive supervisor and management training 
academies.
    Our Department is also deeply aware of the need to engage the 
public in the process of improving New Jersey's child welfare system.
    No single agency, indeed not even all of state government, can do 
all that is necessary to keep children safe.
    As a result, in June our Department instituted a series of ``Save 
the Children'' days, in which the Commissioner of the Department of 
Human Services is visiting with stakeholders in each of New Jersey's 21 
counties.
    The goal of the Save the Children Days is to engage the community 
at all levels in the work we are doing to improve our child welfare 
system, and to elicit their input in ways to make those improvements.
    I would like to make a special mention at this point of how 
gratified we were to see the response of the borough of Collingswood to 
the tragedy that occurred in their community.
    I also want to thank Mayor Jim Maley for his concern and efforts.
    Conversations have taken place, and community members have asked 
themselves whether there should have been a role for them to play in 
this case.
    We also welcome the role that could be played by the federal 
government to provide the state with the kind of resources and 
assistance that will make sure another Collingswood situation never 
arises.
    In that context, I would like to offer you some specific 
recommendations:

FEDERAL RECOMMENDATIONS

    (1)  Congress needs to recognize the growing national problem of 
child abuse and neglect and make a major financial commitment to assist 
the states to address this problem.

    We appreciate that Title IV-E funding is an open-ended entitlement.
    However, there are so many restrictions on its use that states are 
left with a disproportionate share of the child welfare costs.
    As a result, New Jersey spends almost twice what the federal 
government spends to protect children in our state.
    I mentioned earlier, for example, that the Governor provided $31 
million in additional state funds for DYFS this year.
    These funds, however, will only draw down about $12 million in 
federal funds.
    The restriction that imposes the greatest limitation to federal IV-
E funding, however, is the one that states that a child must be 
eligible for AFDC as it existed on July 16, 1996.
    This standard has not been increased to reflect changes in the cost 
of living and it is well below the poverty standard for most states and 
it is the main reason that about half of all the children who are 
adopted in New Jersey are not eligible for federal foster care funding 
or adoption assistance.
    For that reason, the state bears the entire cost of assisting these 
children.
    In addition, many relatives who accept a child for placement are 
not eligible for federal payments, so we must use our very limited TANF 
funds for this purpose.
    We also recommend that IV-E funds be available to support broader 
community-based training that would include both formal and informal 
supports to families under DYFS supervision.
    It is clear in the Collingswood case that the community could have 
been better prepared to identify abuse.
    We also believe that more community supports are needed for 
families with adopted children that have special needs.
    This would allow states to take more of a preventive approach 
towards child abuse and neglect.

    (2)  At a minimum, the federal government should not exacerbate 
child welfare problems in a state by withdrawing funds.

    It is ironic that while we are trying to cope with the increase in 
emergency child welfare needs in our state, we recently received a 
disallowance of $6 million as a result of our secondary IV-E review.
    We strongly believe that we should be allowed to reinvest those 
funds to improve child welfare services.
    We are advocating a reinvestment policy similar to the effective, 
common sense approach allowed under federal law when a state exceeds 
certain error rates in the Food Stamp program.
    For example, New Jersey had experienced an ongoing problem with 
payment accuracy in its Food Stamps program, and we were assessed a 
penalty of approximately $3.5 million in FY 2001.
    Because we had the option to reinvest these funds to improve our 
performance, by FY 2002 we had reduced the error rate to the lowest 
level in the Mid-Atlantic Region.

    (3)  We need to review how other support services can be utilized 
to provide better care of adopted children receiving state and federal 
assistance.

    One of the problems that we have already identified in the 
Collingswood case is that the children were isolated from the 
professional community.
    It appears the children were never taken to a doctor for a medical 
exam and because they were home schooled they were never seen by 
teachers on a daily basis as most children are.
    The Department is therefore considering requiring medical 
documentation on an annual basis.
    There has also been some discussion regarding whether more 
oversight is needed when an adopted child who is receiving adoption 
assistance payments is also being home schooled.

    (4)  Federal policy needs to be evaluated in terms of allowing for 
post-adoption assistance or oversight.

    The federal government does not allow Title IV-E funding for post-
adoption assistance for children with special needs, other than the 
adoption subsidy.
    It assumes that these payments will be made until the child becomes 
an adult, without any oversight or further state involvement.
    This may be appropriate policy in many, but not necessarily all, 
adoptions.
    Caring for certain special needs children is very difficult and may 
require post-adoption supports similar to those that a birth parent 
would require.
    Also, some adoptive parents have no history with the children they 
adopt and therefore may need assistance, such as participation in 
support groups, to cope with the needs of their adopted child.
    I caution that we need to be careful about this type of 
intervention.
    We do not want to discourage legal adoptions or encourage more 
adoptions through private agencies, simply as a way to circumvent any 
new state requirements.
    We believe the right balance could be struck in a variety of ways, 
such as requiring information on an annual basis on the status of the 
family and the welfare of the children, in addition to information that 
is already required each year.
    We may also need to visit some of these homes on a periodic basis, 
or monitor certain data on all families that have adopted children with 
special needs and investigate those where the data indicate there is a 
high risk.
    More follow-up would be required, for instance, if there are more 
than two adopted children in the home, when the special needs are 
particularly severe, or when one or both of the parents loses a job.
    Federal policy should be changed to allow for these post-adoption 
expenditures under Title IV-E or remaining national adoption incentive 
funds.

    (5)  The federal government must continue to support adoptions of 
children with special needs.

    Adoption is still the best means of achieving permanency for 
children, including those with special needs, who otherwise would 
linger in foster care.
    In most cases, a stable family is key to a child's happiness and 
development.
    The Collingswood case must spur us to do more--not less--to support 
adoptions.
    We are particularly concerned that legislation reauthorizing the 
Adoption and Promotion Act has not passed the Senate yet.
    We strongly support this bill, which was introduced by 
Representative Camp.
    We also would like to commend Representative Cardin for introducing 
HR 1534 which addresses many of the issues that I have raised today.
    Lastly, we also support Representative Stark's bill (HR 2437) which 
would help states improve the working conditions of child welfare 
staff.
    Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Ms. Maguire, for your 
testimony. I do want to stress the 5-minute rule. We have been 
a bit generous to this point, but we would like to have you 
adhere to that. Mr. Ryan, for your testimony, please.

 STATEMENT OF KEVIN RYAN, CHILD ADVOCATE, NEW JERSEY OFFICE OF 
            THE CHILD ADVOCATE, TRENTON, NEW JERSEY

    Mr. RYAN. Thank you, Mr. Chairman. Good morning. My name is 
Kevin Ryan. I am the Child Advocate for the State of New 
Jersey. I lead a new, independent agency, statutorily charged 
in our State with monitoring the public systems that serve 
children and youth at risk of abuse and neglect. Our 
jurisdiction includes the child welfare system, the juvenile 
justice system, schools, daycare centers, mental health 
facilities, and the public health system.
    We are a new entity in New Jersey, as you have heard, and 
we have taken office just a month ago. We have two primary 
tasks. The first of these is to probe systemic and individual 
problems throughout State government with regard to the care 
and the support of children and youth at risk of abuse and 
neglect. Our second role involves problem solving. As we 
identify systemic deficiencies, my staff of investigators, 
public interest lawyers, and child welfare specialists must 
develop solutions to those problems and champion their 
implementation across and among government agencies.
    The Office of the Child Advocate was born of tragedy and a 
desire to better serve our most vulnerable children. The deaths 
of children this past year in New Jersey due to abuse and 
neglect, some of them already known to various State and 
municipal agencies, has really captured the public imagination. 
New revelations of maltreatment in the child welfare system, 
which were brought to light by the Federal class action lawsuit 
championed by Children's Rights, Incorporated, led the Governor 
to return to an idea that he and now Congressman Pascrell had 
years ago as Members of the State legislature, the creation of 
this independent ombudsman office for children in State 
government.
    The Office of the Child Advocate is equipped with broad new 
powers, including the power to investigate government agencies, 
the power to subpoena, the power to sue State government, the 
power to demand corrective action, the power to hold public 
hearings, the power to disclose all of our findings publicly, 
and, most vitally, the power of our independence.
    On October 24th, I learned from the State Department of 
Human Services that four children living in the Collingswood 
home of Raymond and Vanessa Jackson had been taken to the 
hospital for treatment of severe malnourishment. I also learned 
that the household included a foster child, visited numerous 
times by the State child protection agency during the past 
several years. The boys were severely underweight and, as all 
of us know by now, none of them weighed more than 45 pounds. 
One child weighed 38 pounds when adopted in October 1996, and 7 
years later weighed just 40 pounds. In 7 years, the child had 
gained just 2 pounds, but has gained more than 15 pounds in the 
last 4 weeks.
    The oldest child weighed 49 pounds in December 1995, around 
the time of his adoption, but weighed only 45 pounds when he 
was removed from the Jackson home last month. So, that is a net 
loss, obviously, of 4 pounds in all those years, and now weighs 
nearly 65 pounds.
    The State child welfare agency had visited the Jackson home 
38 times in the last 4 years. These visits included meetings 
with the foster child and Mrs. Jackson, licensing inspections, 
a child safety assessment, and in a few instances discussions 
with all of the Jackson children, including the malnourished 
boys.
    We have opened an investigation and seek to answer this 
central question: how did the condition of all four boys endure 
for so long, despite the family's involvement with the child 
protection agency, other government agencies, their neighbors, 
family, and friends?
    It did not take this tragedy to teach me or any of my 
fellow citizens in New Jersey that the child welfare system is 
badly broken. The playgrounds of heaven are too crowded with 
children we should have saved, and we are lucky that we count 
the Jackson boys among the saved and not among the lost, but 
that really is a matter of luck and good fortune in the case.
    Our investigation is only 2 weeks old. We are cooperating 
with the Camden County Prosecutor's Office, which is running a 
concurrent investigation with criminal jurisdiction, and I 
anticipate a thorough investigation will take 3 months to 
complete. As we identify systemic deficiencies, we are 
committed to bringing them to light prior to the completion of 
our full investigation.
    All of the malnourished children had been adopted through 
the State child protection agency, and the Jacksons received a 
subsidy from government to help meet the special needs of their 
children following the adoption. The adoption subsidy program 
is a success story in the United States, of which this Congress 
should be very proud. Changes to Federal adoption laws and 
innovative tools like the subsidy have enabled States to 
dramatically increase the number of adoptions in the United 
States over the last several years. New Jersey is near the head 
of that pack, receiving the second highest bonus payment this 
year for increasing adoptions. I want to unequivocally 
acknowledge that as a good thing.
    As time is limited, I want to say that I do believe that as 
a recommendation to this Congress and to the States 
implementing child welfare reform, it would be a very good idea 
for all States to require documentation of an updated physical 
examination by a doctor when the adoption subsidy is annually 
renewed, and States need to be vigorous in continuing to offer 
services to special needs children following an adoption.
    Respectfully, no matter how hard you try, government will 
never love a child the way his or her family must. When those 
families cannot or will not provide that love and attention, 
government has a fundamental moral obligation to protect 
children. We all have a long way to go before we are meeting 
that obligation satisfactorily. Thank you.
    [The prepared statement of Mr. Ryan follows:]

Statement of Kevin Ryan, Child Advocate, New Jersey Office of the Child 
                     Advocate, Trenton, New Jersey

    Good morning. My name is Kevin Ryan. I am the Child Advocate for 
the State of New Jersey. I lead a new, independent agency, statutorily 
charged with monitoring public systems that serve children and youth at 
risk of abuse and neglect. Our jurisdiction includes the state's child 
welfare system; its juvenile justice system; the public health system; 
schools; day care centers and mental health facilities.
    We are a new entity in New Jersey, having taken office less than 
one month ago.
    We have two primary tasks. The first of these is to probe systemic 
and individual problems throughout state government with regard to the 
care and support of children and youth at risk of abuse and neglect. 
Our second role involves problem solving. As we identify systemic 
deficiencies, my staff of investigators, public interest lawyers and 
child welfare specialists must develop solutions to those problems and 
champion their implementation across and among government agencies.
    The Office of the Child Advocate was borne of tragedy and a desire 
to better serve our most vulnerable children. The deaths of children 
this past year due to abuse and neglect, some of them already known to 
various state and municipal agencies, captured the public imagination. 
New revelations of maltreatment in the child welfare system brought to 
light by the federal class action lawsuit championed by Children's 
Rights, Inc. led the Governor and the State legislature to create this 
office by statute two months ago.
    The Office of the Child Advocate is equipped with broad new powers, 
including the power to investigate government agencies; the power to 
subpoena; the power to sue state government; the power to demand 
corrective action; the power to hold public hearings; the power to 
disclose all of our findings publicly; and, most vitally, the power of 
independence.
    On October 24, 2003, I learned from the State Department of Human 
Services that four children living in the Collingswood home of Raymond 
and Vanessa Jackson had been taken to the hospital for treatment of 
severe malnourishment. I also learned that the household included a 
foster child who was visited numerous times by the state child 
protection agency during the past several years. The boys were severely 
underweight, none weighing more than 45 pounds.
    One child weighed 38 pounds when adopted in October 1996, and 7 
years later weighed just 40 pounds. In 7 years, the child had gained 
just 2 pounds, but has gained more than 15 pounds in the last four 
weeks. The oldest child weighed 49 pounds in December 1995, but weighed 
only 45 pounds when he was removed from the Jackson home last month, 
and now weighs nearly 65 pounds.
    The state child welfare agency had visited the Jackson home 38 
times in the last four years. These visits included meetings with the 
foster child and Mrs. Jackson; a home licensing inspection; a child 
safety assessment; and in a few instances, discussions with all of the 
Jackson children including the malnourished boys.
    The Office of the Child Advocate opened an investigation on October 
25, 2003. My staff and I are poring through more than 20,000 pages of 
documents from public agencies, and expect to speak with at least 20 
witnesses as part of our investigation. The central question we seek to 
answer is this: how did the condition of all four boys endure for so 
long despite the family's involvement with the child protection agency, 
other government agencies, their neighbors, family and friends?
    It did not take this tragedy to prove that our child protection 
systems in the United States are badly broken. The playgrounds of 
heaven are filled with the children we should have saved. And we are 
lucky the Jackson boys can be counted among the saved, not the lost.
    Our investigation is only two weeks old. We are cooperating with 
the Camden County prosecutor's office, which is running a concurrent 
investigation with criminal jurisdiction, and I anticipate that a 
thorough investigation will take 3 months to complete.
    As we identify systemic deficiencies, we are committed to bringing 
them to light prior to the completion of our full investigation. For 
example, the licensing protocols for foster homes in New Jersey have 
historically required proof of a pet's vaccination, but no requirement 
that all the children in the home be interviewed or their medical 
records be reviewed. A new group of leaders hired at the Department of 
Human Services as part of the reform movement has now changed this 
policy to ensure that every child in a household, no matter their 
status, is seen by the licensing team. But real reform can't happen 
protocol by protocol, policy by policy. It requires an organizational 
renaissance. In New Jersey, that renaissance has to overcome 25 years 
of malaise, poor resources and wavering political will.
    All of the malnourished children had been adopted through the state 
child protection agency, and the Jacksons received a subsidy from 
government to help them meet the special needs of their children 
following the adoption. Federal subsidies were created by Congress 
through Public Law 96-272--(the Adoption Assistance and Child Welfare 
Act of 1980) to encourage the adoption of special needs children and 
strip the financial disincentives to adoption for families. Children 
may receive a Federally funded subsidy under Title IV-E or a state-
funded subsidy as per state guidelines. Depending on the age and needs 
of the child, and the date of their adoption, the typical subsidy 
ranges between $315 and $678 per month. Adoptive parents of the most 
medically fragile children can receive an ``exceptional rate'' of as 
much as $1,407 per month.
    The adoption subsidy program is a success story of which this 
Congress should be proud. Changes to federal adoption laws and 
innovative tools like the subsidy have enabled states to dramatically 
increase the number of adoptions in the United States over the last 
several years. New Jersey is near the head of that pack, receiving the 
second highest bonus payment this year for increasing adoptions in 
2002. I want to unequivocally acknowledge that as a good thing. 
Permanence and stability are essential for children.
    It would be a very good idea for all states to require 
documentation of an updated physical examination by a doctor when the 
adoption subsidy is annually renewed. And states need to be vigorous in 
continuing to offer services to special needs children following an 
adoption. Neither occurred in the case of the Jackson boys, and both 
steps could have prevented the tragic outcome of four boys found 
starving, their parents charged with criminal wrongdoing and a family 
torn apart.
    This Subcommittee has a critical role to play to improve our 
nation's child welfare systems, many of which do not evidence a robust 
national or state commitment to children. Too many include caseloads 
for workers that are too high; inadequate training for caseworkers and 
supervisors; scarce access to resources, such as prevention and 
placement services; and a complete failure to track outcomes for 
children longitudinally. In New Jersey, these failures, and many 
others, will be addressed when a panel of child welfare experts 
approved by the Federal court pursuant to the state's settlement 
agreement with Children's Rights, approves a federally enforceable 
series of benchmarks and outcomes for children in January.
    But it remains very troubling throughout the nation that real 
progress in lowering caseloads, instilling accountability and improving 
services to our most vulnerable children are more likely to result from 
public interest litigation and advocacy than anything else. This 
Subcommittee is uniquely positioned to ensure that these systems have 
the resources and operational accountability necessary to save 
children.
    Respectfully, no matter how hard you try, government will never 
love a child the way his or her family must. But when those families 
cannot or will not provide that love and attention, government has a 
fundamental moral obligation to protect children. We have all got to do 
a much better job of filling the void.

                                 <F-dash>

    Chairman HERGER. Thank you, Mr. Ryan. Mr. Sarubbi to 
testify.

  STATEMENT OF VINCENT P. SARUBBI, PROSECUTOR, CAMDEN COUNTY 
          OFFICE OF THE PROSECUTOR, CAMDEN, NEW JERSEY

    Mr. SARUBBI. Mr. Chairman and Members of the Subcommittee 
on Human Resources, I am pleased to have the privilege of 
appearing before this distinguished Subcommittee today to 
address serious and substantial issues relating to the health 
and welfare of our greatest and most important human resource: 
our children.
    By way of background, I have been a practicing attorney in 
New Jersey since 1988. As you may know, in my home State, 
county prosecutors are not elected, rather they are appointed 
by the Governor for 5-year terms. I was nominated by Governor 
James E. McGreevey to be the prosecutor of Camden County for a 
5-year term, and following my confirmation by the senate, I was 
sworn in and commenced my term in July 2002.
    My office consists of more than 250 staff members. Included 
in this number are some 65 assistant prosecutors, more than 100 
investigators, who have full police powers, as well as clerical 
and support staff members. The community we serve includes 
approximately 550,000 residents. The city of Camden, our county 
seat, lies directly across the Delaware River from 
Philadelphia. Many of our residents work in the Philadelphia 
area. The Borough of Collingswood is a residential community of 
about 14,000 people, and it borders Camden City and is located 
about 5 miles from Philadelphia. Collingswood is a quiet and 
peaceful, proud municipality, which has recently experienced a 
renaissance of its downtown area.
    In the early morning hours of October 10, 2003, a 
Collingswood resident heard and observed someone rooting 
through the trash outside their home. The resident approached 
and observed the boy he believed to be about 10 years old. The 
boy was emaciated in appearance. The Collingswood Police were 
summoned and responded to the scene. The boy was subsequently 
identified as Bruce Jackson, an adopted son of a local family. 
He stood just 4 feet tall and weighed just 45 pounds. The 
responding officers were shocked to learn that Bruce was 19 
years old.
    When the police entered Bruce's home, they observed three 
other adopted boys, aged 14, 10, and 9, small in stature and 
emaciated in appearance. Also living in the home were other 
adopted and biological children of parents Raymond and Vanessa 
Jackson. These other children of Mr. and Mrs. Jackson appeared 
to be in good health. The 14-year-old boy Keith weighed 40 
pounds. Tyrone, aged 10, weighed 28, and 9-year-old Michael 
weighed just 23 pounds.
    The New Jersey DYFS removed the four boys from the Jackson 
residence that day, and they were admitted to area hospitals. 
We learned that the four boys had been adopted through DYFS, 
and Mr. and Mrs. Jackson had been paid monthly stipends.
    Members of this Committee, the investigation that I am 
engaged in currently is likely to be ongoing for several more 
months to come. Between October 10, 2003 when the boys were 
discovered and October 24, 2003, we enlisted medical experts to 
evaluate the boys' condition. We made an effort to take a 
responsible and objective view of the conditions of these 
children by looking into their medical history and their 
background. Our focus was to determine what caused them to be 
so dramatically underdeveloped. These medical experts 
determined that the boys had been deprived of adequate 
nutrition and medical care.
    Based upon these medical assessments and other 
investigative information developed, I was satisfied that 
probable cause existed to support criminal charges of 
aggravated assault and child endangerment against Raymond and 
Vanessa Jackson, the adoptive parents. I therefore authorized 
officers to pursue these charges. On October 24, 2003, 
following review of the charges by a judicial officer, arrest 
warrants were executed and served upon the defendants. They 
were lodged in the Camden County Correctional Facility until 
November 1, 2003, when each posted bail of $100,000.
    The medical review that we did in this case included a 
genetic review and also additional experts to rule out the 
possibility of any type of a Deoxyribose Nucleic Acid (DNA) 
defect or other type of genetic defect. We also ruled out 
thyroid problems and any other type of medical conditions that 
could have contributed to these boys' resulting weight and 
their health problems. Admittedly, our investigation revealed 
through the parents that these children had not seen medical 
attention for a period of 4 years. To this day Bruce remains in 
the hospital and has undergone two separate blood transfusions 
because of an iron deficiency that exists in his system.
    It should be noted in this case that the Jacksons were in 
the process of attempting to adopt another foster child, a 10-
year-old female. The DYFS workers visited the home on numerous 
occasions to evaluate the suitability for the adoptive girl. My 
office is investigating also DYFS's involvement with the 
family.
    It is my understanding that in addition to this 
information, the Subcommittee wants to know the present 
condition of the children. In this regard I am pleased to tell 
you that they are doing well. As of November 3rd, Bruce had 
gained 18 pounds, weighed approximately 63 pounds; Keith gained 
16.5 pounds, weighed 56.5 pounds; Tyrone had gained 11.6 
pounds, weighing 39.6 pounds; and Michael had gained 9 pounds 
and weighed 32 pounds. It should be noted that the progress was 
achieved simply through a proper diet and vitamins with no 
growth medications administered or steroids of any type.
    I want to emphasize that our investigation is in its 
preliminary stages. We have numerous documents to go over, many 
statements from witnesses to take. Our focus has moved from the 
Jacksons primarily to the DYFS aspect of this case. We also, as 
Mr. Ryan does, anticipate that our investigation should take 
somewhere in the area of 3 months. I will be happy to return to 
supplement this record should the Chairman or this Subcommittee 
determine that my testimony is relevant.
    I also want to state that we have rules in the State of New 
Jersey which restrict my ability to indicate all investigative 
aspects and evidence with respect to this case. I want this 
Committee to know that we will give the Jacksons every legal 
right that they are entitled to. We firmly believe that they, 
like any defendants in the New Jersey criminal system, are 
entitled to a full and fair trial and the outcome to be 
determined by a jury.
    I want to thank again the Committee for the opportunity to 
appear here today, and I commend you for your care and concern 
of these children. I welcome your questions.
    [The prepared statement of Mr. Sarubbi follows:]

 Statement of Vincent P. Sarubbi, Prosecutor, Camden County Office of 
                   the Prosecutor, Camden, New Jersey

    Mr. Chairman and Members of the Subcommittee on Human Resources,
    I am pleased to have the privilege of appearing before this 
distinguished Subcommittee today to address serious and substantial 
issues relating to the health and welfare of our greatest and most 
important human resource, our children.
    By way of background, I have been a practicing New Jersey attorney 
since 1988. As you may know, in my home State, county prosecutors are 
not elected; rather, they are appointed by the Governor for five-year 
terms. I was nominated by Gov. James E. McGreevey to be Prosecutor of 
Camden County and, following my confirmation by the New Jersey Senate, 
I was sworn in and commenced my term in July 2002.
    My office consists of more than 250 staff members. Included in this 
number are some 65 assistant prosecutors, more than 100 investigators, 
who have full police powers, as well as clerical and support staff 
members. The community we serve includes approximately 550,000 
residents. The City of Camden, our county seat, lies directly across 
the Delaware River from Philadelphia, Pennsylvania. Many of our 
residents work in the Philadelphia area.
    The Borough of Collingswood is a residential community of about 
14,000 people. It borders Camden City and is located about five miles 
from Philadelphia. Collingswood is a quiet, peaceful and proud 
municipality which has recently experienced a renaissance of its 
downtown area.
    In the early morning hours of Oct. 10, 2003, a Collingswood 
resident heard and observed someone rooting through the trash outside 
his home. The resident approached and observed a boy he believed to be 
about 10 years old. The boy was emaciated in appearance. Collingswood 
Police were summoned and responded to the scene. The boy was 
subsequently identified as Bruce Jackson, adopted son of a local 
family. He stood just 4 feet tall and weighed just 45 pounds. The 
responding officers were shocked to learn that Bruce was 19 years of 
age.
    When the police entered Bruce's home, they observed three other 
adopted boys, ages 14, 10 and 9, all small in stature and emaciated in 
appearance. Also living in the home were other adopted and biological 
children of parents Raymond and Vanessa Jackson. These other children 
and Mr. and Mrs. Jackson appeared to be in good health.
    The 14-year-old boy, K.J., weighed 40 pounds. T.J., age 10, weighed 
28 pounds, and 9-year-old M.J. weighed just 23 pounds. The New Jersey 
Division of Youth and Family Services (known as DYFS), removed the four 
boys from the Jackson residence that day, and they were admitted to 
area hospitals. We learned that the four boys had been adopted through 
DYFS and that Mr. and Mrs. Jackson were paid monthly stipends for each 
of the boys.
    My office, together with the Collingswood Police Department, under 
the leadership of Chief Thomas J. Garrity Jr., commenced a criminal 
investigation.
    Members of the Committee, that investigation is ongoing and will 
likely continue for many weeks to come.
    Between Oct. 10, 2003, when the boys were discovered, and Oct. 24, 
2003, we enlisted medical experts to evaluate the boys' conditions. Our 
focus was to determine what caused them to be so dramatically 
underdeveloped. These medical experts determined that the boys had been 
deprived of adequate nutrition and medical care. Based upon these 
medical assessments and other investigative information developed, I 
was satisfied that probable cause existed to support criminal charges 
of Aggravated Assault and Child Endangerment against Raymond and 
Vanessa Jackson, the adoptive parents. I therefore authorized officers 
to pursue these charges. On Oct. 24, 2003, following a review of the 
charges by a judicial officer, arrest warrants were executed and served 
upon the defendants. They were lodged in the Camden County Correctional 
Facility until Nov. 1, 2003, when each posted a $100,000 bond.
    The arrest warrants charge the Jacksons with ``recklessly, under 
circumstances manifesting extreme indifference to the value of human 
life, causing serious bodily injury'' to the four boys. In addition, 
warrants allege the couple endangered the boys by failing to provide 
adequate medical care. The investigation indicates the children have 
not seen a doctor for approximately five years despite the fact that, 
as children adopted through DYFS, they were eligible to receive health 
care services through Medicaid benefits.
    An additional six endangering counts allege the Jacksons failed to 
provide a proper home for six children under 18 living there. The 
investigation indicates the home had no electricity from June 18, 2003, 
through Oct. 6, 2003, and no gas service from Sept. 8, 2003, through 
Oct. 6, 2003.
    I want to make clear to the Subcommittee that I understand and 
respect the fact that these defendants are innocent of any and all 
charges until and unless proved guilty in a court of law. My office and 
I are committed to recognizing and honoring all of their legal rights 
and ensuring that they will get a fair trial.
    Towards this end, I trust you will understand that I am unable at 
the present time to share with you in public session specific and 
detailed investigative information. As I see it, my role here today is 
not to make a case against these defendants, rather it is to provide 
the subcommittee with facts so that you may more knowledgably perform 
your critically important legislative functions.
    The investigation further revealed that social workers employed by 
DYFS were not required to and did not monitor the physical, emotional 
or psychological condition of these children once their adoptions were 
finalized. Simply put, there was no ``safety net'' in place.
    It should be noted that the Jacksons were in the process of 
attempting to adopt another foster child, a 10-year-old female. DYFS 
workers visited the home on numerous occasions to evaluate its 
suitability for adopting the girl. My office is investigating DYFS's 
involvement with the family.
    It is my understanding that, in addition to information regarding 
the condition of these boys on Oct. 10, 2003, this subcommittee wants 
to know of their present condition. In this regard, I am pleased to 
share with you the following update, which was provided to me on Nov. 
3. As of that date:

    <bullet>  Bruce had gained 18 pounds and weighed 63 pounds;
    <bullet>  K.J. had gained 16\1/2\ pounds and weighed 56\1/2\ 
pounds;
    <bullet>  T.J. had gained 11.6 pounds and weighed 39.6 pounds;
    <bullet>  And M.J. had gained 9 pounds and weighed 32 pounds.

    It should be noted that this progress was achieved simply through a 
proper diet and vitamins, with no growth medications administered.
    I thank you again for the opportunity to appear here today. I 
commend you for your care and concern for these children and I welcome 
your questions.

                                 <F-dash>

    Chairman HERGER. Thank you very much, Mr. Sarubbi, for your 
testimony. Now the Reverend Harry Thomas to testify.

STATEMENT OF REVEREND HARRY L. THOMAS, JR., SENIOR PASTOR, COME 
        ALIVE NEW TESTAMENT CHURCH, MEDFORD, NEW JERSEY

    Reverend THOMAS. Good morning. My name is Harry L. Thomas, 
Jr. I am Senior Pastor of the Come Alive New Testament Church 
located in Medford, New Jersey. Ray and Vanessa Jackson are 
long-time members of my congregation, and I want to thank this 
Committee for the invitation to appear here today.
    In America a person is supposed to be innocent until proven 
guilty. That is not what has happened to Ray and Vanessa 
Jackson. They have been charged, tried, and convicted in the 
media. It has been less than 2 weeks since their arrests, yet 
even in the language used by this Committee, there is an 
assumption of their guilt. Let me quote from the Committee's 
advisory: ``This hearing seeks to expose how these children's 
abuse went unnoticed so that we can work to prevent other 
children from enduring such horrible abuse.''
    I respectfully would like to suggest the reason that no 
abuse was noticed was that there was no abuse going on. This 
Committee instead might want to consider the following 
questions: why would anyone want to be a social worker if they 
have been summarily dismissed? Why would anyone want to adopt 
fetal alcohol syndrome, crack, or sexually abused children and 
take significant legal risk of being accused of neglect?
    My own experience with this family is much different than 
what has been portrayed. Ray and Vanessa Jackson have a real 
love for children. Their children were always clean, happy, and 
well dressed. Whenever I saw them, it was clear that Ray and 
Vanessa had made every attempt--have made education a real 
priority to all the kids to read well.
    Unlike what has been reported, Ray and Vanessa treated 
their adopted and foster children the same as their own 
children. For example, when they went to Disney World, they 
took along their foster kids. This trip included Bruce, the 
troubled 19-year-old, who has been--who has made numerous false 
accusations.
    The DYFS had a knack, in my opinion, of taking advantage of 
this family. The DYFS would contact the Jacksons and ask them 
to provide emergency housing for just a weekend. Invariably the 
children would have to stay much longer, and some of these 
children were eventually adopted by the Jacksons.
    These children were also some of the most difficult kids in 
the system. It is my understanding that the three younger boys 
had fetal alcohol syndrome. The oldest, Bruce, had developed an 
eating disorder by the time he was 3 years old. He also had 
been hospitalized because of abuse at the hands of his birth 
father. On the first day he arrived in the Jackson's home, he 
proceeded to urinate on the floor. Apparently he had been 
living in the street, and this is what he was used to.
    Bruce has a very unusual psychological eating disorder in 
that he voluntarily brings up his food back from his stomach to 
his mouth very much like a cow chewing its cud. Yesterday, as 
we were preparing for this hearing, we stumbled on a very 
interesting medical article about a disorder called rumination. 
This article was written by Dr. Cynthia R. Ellis, M.D., and was 
posted on the Internet at http://www.emedicine.com/ped/
topic2652.htm. It certainly sounds like the condition that 
Bruce has.
    Here are a few quotes from this paper. This article states 
that rumination is the voluntary or involuntary regurgitation 
and rechewing of partially digested food that is either 
reswallowed or expelled. This regurgitation appears effortless, 
may be preceded by a belching sensation, and typically does not 
involve retching or nausea. Rumination may cause the following: 
halitosis, malnutrition, weight loss, growth failure, 
electrolyte imbalance, dehydration, gastric disorders, upper 
respiratory distress, dental problems, aspiration, choking, 
pneumonia, or death. Rumination is more common in individuals 
with severe and profound mental retardation than in those with 
mild or moderate mental retardation. Prevalence rates of 6 to 
10 percent have been reported among the institutionalized 
population of individuals with mental retardation. Rumination 
is estimated to be the primary cause of death in 5 to 10 
percent of individuals who ruminate. Mortality rates of 12 to 
50 percent have been reported for institutionalized infants and 
older individuals.
    I am not a doctor, but I would like to suggest that perhaps 
Bruce is suffering from this condition. One question that I 
think needs to be answered is this: did DYFS know about this 
condition before placing the child in the Jackson home? If so, 
did it explain the serious nature of this illness and provide 
the necessary support structures and resources to cope with it? 
Should Bruce perhaps be institutionalized?
    The family has numerous stories about Bruce's bizarre 
eating habits. For example, Bruce used to eat his lunch on the 
way to school and then tell his teachers that his home had not 
packed the lunch. The teacher and Vanessa came up with a system 
involving a notebook that had to be signed and returned home to 
ensure that he was, in fact, eating the lunch at the right 
time. Before Bruce even arrived at the Jackson's home, it was 
discovered he had gotten into a litter box and eaten cat feces.
    Bruce, to say the very least, was a very difficult child 
for the Jacksons to handle. The Jackson family tried their very 
best to keep him from eating drywall. There was a spot near to 
the couch that he used to peel off and eat the drywall. The 
family had to repeatedly spackle that area. Bruce also got into 
the dog food in the basement and even hid a stash for later 
use.
    Bruce apparently was kicked out of several schools. The 
Pennsauken school system could not cope with his behavior, so 
they kicked him out. At the Central School, he was caught 
stealing lunches, eating them and then throwing up in the kid's 
lunch bag. At Roosevelt School, he was there only 1 day when 
they asked him to leave because teachers could not handle it. 
At Carson School, there was more eating and throwing up. The 
final straw was when he stole food and then threw up upon the 
teacher.
    This is the reason that the Jacksons started home schooling 
Bruce. The police theory is that they are using home schooling 
as a way to avoid detection of the abuse of their children. 
This is silly. All the boys have been taught to read and can 
even do addition and multiplication.
    Ray Jackson was asked one time why in the world did he 
choose to adopt someone like Bruce after having him as a foster 
child for a number of years. Ray said that he and Vanessa had 
discussed it and decided that if they didn't adopt him, no one 
else would. How many of us in this room would have taken a 
project like Bruce? I don't know the exact number, but I think 
if you were to get $7,000 annually to feed, clothe, house, and 
educate him, the police theory is that this was a money-making 
scam. Ridiculous. In fact, when you convert from fostering a 
child to adopting a child, there is no guarantee that your 
benefits will continue. That is what happened to one of the 
Jackson kids. After adoption, they lost their income for this 
child.
    As I was sitting down to write this statement, my office 
received a phone call from a person who is heavily involved 
with DYFS and does not want their identity known for fear of 
being fired. Here are some of her quotes: ``DYFS is out of 
control. They think they are God. Every day I am faced with 
foster parents asking me how can I get rid of my kid when faced 
with difficult problems on health issues. Crack addict moms who 
put their babies in trash cans to rot will not be punished, but 
a very real effort will be made to reunite the baby with its 
mother. Then they will wrap support around the mother in order 
to keep the family together. Adopted foster parents just get 
thrown to the wind.''
    That is what we have with the Jackson family. Even though 
they have provided a loving, supportive family for some very 
difficult children, their only thanks is to be thrown in jail. 
In my judgment, this is a case of jumping to conclusions, a 
very rush to judgment. Thank you for hearing me.
    [The prepared statement of Reverend Thomas follows:]

 Statement of Reverend Harry L. Thomas, Jr., Senior Pastor, Come Alive 
               New Testament Church, Medford, New Jersey

    Good morning. My name is Reverend Harry L. Thomas, Jr. I am the 
senior pastor for the Come Alive New Testament Church located in 
Medford, NJ. Ray and Vanessa Jackson are long time members of my 
congregation.
    I want to thank this committee for the invitation to appear here 
today. In America a person is supposed to be innocent until proven 
guilty. That is not what has happened to Ray and Vanessa Jackson. They 
have been charged, tried and convicted in the media.
    It has been less than two weeks since their arrest yet even the 
language used by this committee assumes they are guilty. Let me quote 
from the Committee's advisory, ``This hearing seeks to expose how these 
children's abuse went unnoticed so that we can work to prevent other 
children from enduring such horrible abuse.''
    I respectfully would like to suggest the reason that no abuse was 
noticed was because there was no abuse going on. This committee instead 
might want to consider the following questions.

    1.)  Why would anybody want to be a social worker if they can be 
summarily dismissed?
    2.)  Why would anybody want to adopt fetal alcohol syndrome, crack 
and/or sexually abused children and take the significant legal risk of 
being accused of neglect?

    My own experience with this family is much different then what has 
been portrayed. Ray and Vanessa Jackson have a real love for children. 
Their children were always clean, happy and well dressed whenever I saw 
them. It is clear that Ray and Vanessa have made education a real 
priority and all the kids read well. Unlike what has been reported, Ray 
and Vanessa treated their adopted and foster children the same as their 
own children. For example, even when they went to Disney World they 
took along their foster kids. This trip included Bruce, the troubled 
nineteen-year-old who has made numerous false statements.
    DYFS had a knack in my opinion of taking advantage of this family. 
DYFS would contact the Jacksons and ask them to provide emergency 
housing for just the weekend. Invariably the children would have to 
stay much longer and some of these children were eventually adopted by 
the Jacksons. These children were also some of the most difficult kids 
in the system. It is my understanding that the three younger boys have 
Fetal Alcohol Syndrome. The oldest, Bruce, had developed an eating 
disorder at the age of three. He also had been hospitalized because of 
abuse at the hands of his birth father.
    On the first day he arrived in the Jackson home he proceeded to 
urinate on the floor. Apparently he had been living in the street and 
this was what he was used to. Bruce has a very unusual psychological 
eating disorder in that he voluntarily brings his food back up from his 
stomach to his mouth very much like a cow chewing its cud.
    Yesterday as we were preparing for this hearing we stumbled on a 
very interesting medical article about a disorder called rumination. 
This article was written by Dr. Cynthia R. Ellis, MD and was posted on 
the Internet at http://www.emedicine.com/ped/topic2652.htm. It 
certainly sounds like the condition that Bruce has.
    Here are a few quotes from this paper. This article states that 
rumination is the voluntary or involuntary regurgitation and rechewing 
of partially digested food that is either reswallowed or expelled. This 
regurgitation appears effortless, may be preceded by a belching 
sensation, and typically does not involve retching or nausea.
    Rumination may cause the following:

    <bullet>  Halitosis
    <bullet>  Malnutrition
    <bullet>  Weight loss
    <bullet>  Growth failure
    <bullet>  Electrolyte imbalance
    <bullet>  Dehydration
    <bullet>  Gastric disorders
    <bullet>  Upper respiratory distress
    <bullet>  Dental problems
    <bullet>  Aspiration
    <bullet>  Choking
    <bullet>  Pneumonia
    <bullet>  Death

    Rumination is more common in individuals with severe and profound 
mental retardation than in those with mild or moderate mental 
retardation. Prevalence rates of 6-10% have been reported among the 
institutionalized population of individuals with mental retardation.
    Rumination is estimated to be the primary cause of death in 5-10% 
of individuals who ruminate. Mortality rates of 12-50% have been 
reported for institutionalized infants and older individuals.
    I am not a doctor but I would like to suggest that perhaps Bruce is 
suffering from this condition. One question that I think needs to be 
answered is this. Did DYFS know about this condition before placing the 
child in the Jackson home? If so, did it explain the serious nature of 
this illness and provide the necessary support structures and resources 
to cope with it? Should Bruce perhaps be institutionalized?
    The family has numerous stories about Bruce's bizarre eating 
habits. For example Bruce used to eat his lunch on the way to school 
and then tell his teachers that his mom had not packed a lunch. The 
teacher and Vanessa came up with a system involving a notebook that had 
to be signed and returned home to insure that he in fact was eating 
lunch at the right time.
    Before Bruce even arrived at the Jackson home it was discovered 
that he had gotten into a litter box and eaten the cat feces. Bruce to 
say the least was a very difficult child for the Jacksons to handle. 
The Jackson family tried their very best to keep him from eating 
drywall. There was a spot near their couch where he used to peel away 
at the drywall to eat. The family had to repeatedly spackle this area. 
Bruce also got into the dog food in the basement and even hid a stash 
in a secret place for later use.
    Bruce apparently was kicked out of several schools. The Pennsauken 
School System could not cope with his behavior and so they kicked him 
out.
    At Central School he was stealing lunches, eating them and then 
throwing up in the kid's lunch bag.
    At the Roosevelt School he was there only one day and then was 
asked to leave because the teachers could not handle him.
    At Carson School there was more eating and throwing up. The final 
straw was when he stole food and then threw up on a teacher.
    This is the reason that the Jacksons started home schooling Bruce. 
The police theory though is that they are using home schooling as a way 
to avoid detection of their abuse of these children. This is silly. All 
the boys have been taught to read and can even do addition and 
multiplication.
    Ray Jackson was asked one time why in the world did he choose to 
adopt somebody like Bruce after having him as a foster child for a 
number of years. Ray said that he and Vanessa had discussed it and 
decided that if they didn't adopt him that nobody else would.
    How many of us in this room would have taken on a project like 
Bruce? I don't have the exact number but I think that you would get 
$7,000 annually to feed, clothe, house and educate him. The police 
theory is that this was a money-making scam. Ridiculous! In fact, when 
you convert from fostering a child to adopting a child, there is no 
guarantee that your benefits will continue. In fact, this is what 
happened to one of the Jackson kids. After the adoption they lost their 
income for this child.
    As I was sitting down to write this statement my office received a 
call from a person who is heavily involved with DYFS and does not want 
their identity known for fear of being fired. Here are some of her 
quotes:

       ``DYFS is out of control! They think they are God. Every day I 
am faced with foster parents asking me, `How can I get rid of my kid,' 
when faced with difficult problems or health issues. Crack addict moms 
who put their babies in trash cans to rot will not be punished but a 
very real effort will be made to reunite the baby with mother. They 
then will wrap support around the mother in order to keep the family 
together. Adopted and foster parents just get thrown to the wind!''

    That is what we have with the Jackson family. Even though they have 
provided a loving supportive family for some very difficult children, 
their only thanks has been to be thrown in jail.
    In my opinion, this is a case of jumping to conclusions. A very 
real rush to judgment.
    Thanks for listening.

                               __________

    Please find below a random list of quotes and comments that tend to 
support the Jackson family.
     1.  A man called to say that the Jackson family watched his two 
children six days a week for over five years from 1997 to 2001. They 
even potty-trained his son. All the kids sat together to eat. He and 
his wife would often show up at unexpected hours and never saw anything 
weird. This information has been verified as correct.
     2.  A key employee of a prominent mental health and retardation 
facility says that the family would regularly perform as the entire 
family for the benefit of the patients and medical personnel. The 
person though did not want me to mention the name of this facility for 
obvious reasons.
     3.  Bruce, the 19-year-old, was clearly the most afflicted. He has 
made statements that are clearly not true.
       a.
           He says he has never eaten in a restaurant but there are 
many photos that show Bruce eating in restaurants beside his family.
       b.
           He said he was not allowed to attend church yet the church 
attendance records show that he attended church 67 times in 2 years.
       c.
           He claims that he was not allowed to watch TV but was forced 
to sit in front of a black screen as punishment. Another newspaper 
article though quotes Bruce as saying that he wanted to go to ``Chili's 
Restaurant because he saw their ad on TV.'' The article also stated 
that apparently Bruce did watch a lot of TV in the Jackson household. 
Another reasonable explanation is that the TV was off because the 
electric had been off for a period of months.
       d.
           Bruce apparently says that he ate nothing but uncooked 
pancake batter, peanut butter and jelly sandwiches and drywall. People 
have come forward and are willing to testify that this is totally false 
and have had meals with the family and saw Bruce eat what everybody 
else did. Also, please take a rational look at the allegation. People 
actually get good nutrition from peanut butter and jelly sandwiches. 
This allegation looks like one of those IQ questions that ask you to 
find the word that does not belong.
     4.  We received a phone call from a specialist in pre-natal 
addictions and fetal alcohol syndrome from a NJ hospital. She said 
nothing she has read about the children was inconsistent with these 
conditions. She was upset that the prosecutor apparently had not 
consulted a specialist in this field before rendering a judgment.
     5.  A Jewish holocaust survivor has come forward. She was on board 
the famous ``Kinder'' train from Germany to Britain. In Britain she 
suffered from low food rations and knows what hunger is all about. She 
is willing to testify that the entire Jackson Family including Bruce 
came to a picnic that she was sponsoring. The whole family, Bruce 
included. It is my understanding that she has known the family for 11 
years.
     6.  Ray's boss called. He was enraged and said something to the 
effect that the Ray he has read about is not the Ray that he has known 
and worked with for many years. This certainly runs counter to the low-
life welfare hustler image that many have tried to paint.
     7.  When I was interviewed by the prosecutor's office, one of the 
interviewers whispered to me when they were alone that he had 
interviewed the children after they were taken from the home. He said 
that they were the best mannered and pleasant children he had ever 
interviewed.
     8.  There were no locks on the refrigerator, cabinets or even the 
door. There was though an alarm that was only turned on at night. 
According to the family this was done to prevent Bruce from sneaking 
down at night and raiding the food and vomiting it up. This is much 
different than what has been portrayed by leaks.
     9.  Three Jackson family siblings were individually interviewed by 
the investigators. The children claim that they were held for three 
hours under very intimidating conditions. They say they were yelled at 
and called liars. They say they remained calm and told the 
investigators, ``What do you want us to say, we are telling you the 
truth already. Anything else would be a lie!'' The siblings also stated 
that one line of the questioning seemed to suggest the investigators 
thought that the Come Alive New Testament Church might be a cult that 
had something against doctors.
    10.  Does it make any sense that the family would starve their 
children but also teach them to read at a high level? Even the new 
foster families have reportedly commented on the fact that the boys 
apparently read well and are quite happy. The three younger boys 
apparently are getting along fabulously if news reports are to be 
believed. If the boys were starved to within an inch of their lives how 
could they have recovered so quickly? It certainly flies against common 
sense. Why has Bruce done so poorly? Is it possible the hospital is 
experiencing the same chronic problems that the parents claim have been 
misdiagnosed as starvation?
    11.  All the family photos and videos that were at the Jackson 
house have been confiscated by the prosecutor's office. These photos 
and videos are needed immediately by the family to show that the 
prosecutor's theory is not correct.
    12.  There was no lock on the refrigerator, the cabinets or even 
the door leading into the kitchen. There was though an alarm that was 
turned on at night that would be triggered if somebody went into the 
kitchen. Bruce had a history of gorging on huge amounts of food and 
needed to be deterred.
    13.  All the boys can read, write, multiply and spell. The police 
claim that the home school was a sham and that there were no books. The 
books are there but were overlooked by the police in their search. 
There are also photos and videos to back this up.

                                 <F-dash>

    Chairman HERGER. Thank you, Reverend Thomas. Now Ms. Carla 
Katz, President of the Communications Workers of America (CWA) 
Local 1034, to testify.

 STATEMENT OF CARLA KATZ, PRESIDENT, COMMUNICATIONS WORKERS OF 
AMERICA LOCAL 1034, WEST TRENTON, NEW JERSEY, ON BEHALF OF THE 
               COMMUNICATIONS WORKERS OF AMERICA

    Ms. KATZ. Thank you, Mr. Chairman and Members of the 
Subcommittee. My name is Carla Katz. I am President of CWA 
Local 1034. Our local represents 16,000 public workers in New 
Jersey, including more than 700 Child Protective Service 
workers in South Jersey, and represents six of the nine workers 
who have been fired in connection with this case in 
Collingswood. I am speaking today on behalf of the CWA and 
specifically on behalf of the three locals, 1034, 1037, and 
1039, that represent DYFS workers.
    Before I begin to discuss the systemic problems that we 
believe contributed to this case, I want to say unequivocally 
that I do not believe that New Jersey is the only child 
protective system in crisis. From what we understand, child 
protective service is in trouble all over the country. There 
are many examples of the systems breaking down in Connecticut, 
Florida, Indiana, Ohio, New York, and around the country. The 
agency that sued New Jersey has sued many other systems. In 
preparing this testimony, I did an Internet search for the last 
30 days of news. I submitted the words ``foster care'' and 
``death'' to find only those cases where a foster care 
situation could have resulted in a child death, and there were 
321 hits. These tragedies are occurring in Utah, Missouri, 
Michigan, North Carolina, California, and Florida.
    We believe that the problems that result in children being 
in foster care and sometimes in custody are complex, and we 
know that the solutions are expensive and difficult. As a 
society, we need to address and move to solve the horrific 
problems that lead to child death and child abuse because 
children are our most vulnerable citizens and our most 
precious. Having said that, I want to address some of the 
problems specific to New Jersey DYFS if we are to solve them.
    It has taken nearly two decades for things to get this bad 
at DYFS in New Jersey. The agency has been consistently and 
grossly underfunded. It has suffered budget and staffing cuts 
despite the fact that caseloads were and are growing, and more 
children need our protection. Caseloads have increased by one-
third over the past decade at the same time that the turnover 
rate for workers harbors around 9 percent. This is 
unacceptable, and it will only mean more tragedies.
    Despite the reality that children suffer in every State in 
our great Nation, other States have made reforms that did not 
happen in New Jersey, and as a result, caseworkers are doing 
without the basic resources they need to do their jobs well.
    What are some of the conditions in New Jersey? We have a 
computer system from the Stone Age, and millions of dollars 
that were allocated for a new system to serve the 50,000 DYFS 
families was turned over to purchase one for 1,200 families 
involved with the Children's Initiative, which was a special 
initiative by former Governor Christie Whitman designed for 
families with needs that have children with mental health 
problems.
    New Jersey didn't give DYFS workers the safety tools and 
structured decisionmaking that they need. These tools were in 
place in other States for years. Some of them have been put in 
place in New Jersey over the last few months, but there was no 
vetting by the workforce, no significant input by the workers 
or the union. Many workers continue to criticize the tools they 
are being asked to use as not being appropriate or tested.
    New Jersey didn't give workers the latest training, and 
they need it. The DYFS training involves 21 days of new worker 
training and very little else. There is very little in-service 
training. There are no incentives for workers to pursue 
graduate training on their own. Additionally the union believes 
that all workers should have some time in a district office 
learning protective services work before moving exclusively 
into foster care or adoption units.
    New Jersey didn't recruit any significant number of 
additional new foster parents. Recruitment of foster families 
had been turned over to faith-based and private nonprofit 
groups during Governor Whitman's era of privatization. This 
program, considered a panacea, has failed to recruit any 
increase in foster homes, and our foster home experts say it 
has resulted in the recruitment of many inappropriate foster 
homes.
    New Jersey didn't also cap caseloads. The Child Welfare 
League of America (CWLA) says that caseworkers handling intake 
cases should have no more than 12 families on their caseloads. 
We have intake workers with as many as 100. The CWLA says that 
caseworkers handling adoption cases and that of home placement 
supervision should have no more than 15 children on their 
caseloads. The caseworker in the Collingswood case had more 
than double that.
    The CWLA says that caseworkers supervising children in 
their homes should have no more than 25 children on their 
caseloads. The worker who repeatedly went out to see Faheem 
Williams, the little boy whose tragic death this past January 
made national news, but failed to do so, at one point had 106 
children on her caseload.
    In the Collingswood case and in the case of adoption, 
generally there are severe systemic issues that contributed to 
this tragedy. Let me be clear, the firing of nine workers will 
not solve any of those problems.
    What keeps going wrong? Caseloads are too high. In this 
case, the inexperienced caseworker had more than double the 
number of cases she should have had.
    There is not enough staff, and the turnover is too high. In 
1999, the Child Death and Critical Incident Panel and the 
Governor's Review Panel both said, lack of staff is a major 
problem, end quote. If we think that it is hard to find and 
keep good DYFS workers now, just imagine what the impact of 
criminal prosecution on any DYFS worker will have on the 
ability of that agency to hire good, qualified staff.
    Supervision is compromised. In this case in Collingswood, 
the caseworker's immediate supervisor was overseeing two units 
of workers who all had excessive caseloads.
    There is a fractured system of communication. It is not 
clear that there was appropriate communication between all of 
the parties, and the basic DYFS policy on foster parents is 
that they are, quote, colleagues, end quote, and DYFS is not 
investigating them.
    There is a lack of sufficient quality foster care homes. As 
a result, children are placed in homes like this one with many 
other children or homes that are compromised in some way. The 
DYFS is currently proposing limiting the number of foster 
children in the home to three, which we believe will make the 
problem of available placement much worse, not better. Our 
union made a proposal more than 3 months ago to recruit quality 
foster parents out of the ranks of organized labor, and instead 
of widespread interest throughout the New Jersey labor 
movement, the State of New Jersey has not even met with us on 
this proposal.
    There is inadequate follow-up after adoption. There is no 
requirement for any DYFS contact with children of subsidized 
adoption once that adoption is final. There is no mandated 
schedule of medical care for children post-adoption.
    Much has been said about what the workers saw or didn't see 
in the Jackson home in Collingswood, and we do not know the 
answer to that question because we, the union, have not seen a 
single document in this case. We do know that there was not one 
person that was sent into the home to see those boys. The DYFS 
caseworker was in that home to see the foster child named 
Breanna. She was the only child in that home under DYFS 
supervision. She was the only child with an open case, and it 
seems clear to us that DYFS should be following up on 
adoptions.
    Since I am way over time, let me just conclude by saying 
reacting to a crisis such as this by firing people 
indiscriminately encourages the workforce to believe that there 
is no real accountability, there is merely retribution. I ask 
that you respect and honor the people who do the most difficult 
job. Our members knock on unknown doors in the most dangerous 
neighborhoods in New Jersey in places the police do not go 
without backup. They do it alone, and they ask the people 
behind those doors to ``let me see your children.'' They spend 
their work lives with babies and children with bruises, burns, 
welts, broken bones, unimaginable sexual abuse, and some of the 
worst cases of neglect that can be imagined. These workers have 
been held hostage, choked, beaten, and threatened in the 
carrying out of their work.
    There are real systemic solutions. Our union wants to 
participate in implementing them as quickly as possible and our 
members who engage in child protective services are by and 
large unsung heroes, and we at least in CWA honor them.
    [The prepared statement of Ms. Katz follows:]

 Statement of Carla Katz, President, Communications Workers of America 
 Local 1034, West Trenton, New Jersey, on behalf of the Communications 
                           Workers of America

    Good morning. Thank you Mr. Chairman and Members of the Committee, 
for allowing testimony from the Communications Workers of America.
    My name is Carla Katz. I am the President of CWA Local 1034. Local 
1034 represents 16,000 public workers in New Jersey, including more 
than 700 Child Protective Services workers in South Jersey. We 
represent 6 of the 9 workers who have been fired in connection with the 
case in Collingswood.
    I am speaking today on behalf of the Communications Workers of 
America and specifically on behalf of the three Locals 1034, 1037 and 
1039 in New Jersey that represent DYFS workers.
    Before I begin to discuss the systemic problems that we believe 
contributed to this case, I want to say unequivocally that I do not 
believe that New Jersey is the only child protective system in crisis. 
From what we understand, child protective services is in crisis all 
over the country. There are many examples of this system breaking down, 
in Connecticut, in Florida, in Indiana, in Ohio, in New York and all 
over the country.
    The agency that sued New Jersey has sued many other systems. In 
preparing this testimony, I did an Internet search of the last 30 days 
of news. I submitted the words ``foster care'' and ``death'' to find 
only those cases where a foster care situation could have resulted in a 
child death and horribly there were 321 hits. These tragedies are 
occurring in Utah, in Missouri, In Michigan, in North Carolina, in 
California, in Florida, and across our country.
    We in CWA believe that the problems that result in children being 
in foster care and sometimes in custody are complex and we know that 
the solutions are expensive and difficult. But as a society, we need to 
address and move to solve the horrific problems that lead to child 
deaths and child abuses, because children are our most vulnerable 
citizens and our most precious.
    Having said that, I want to address some of the problems specific 
to New Jersey's Division of Youth and Family Services (DYFS) if we are 
to solve them. It has taken nearly two decades for things to get this 
bad at DYFS. This agency has been consistently and grossly underfunded. 
This agency has suffered budget and staffing cuts despite the reality 
that caseloads were and are growing and more children need our 
protection. Caseloads have increased by one third over the past decade 
at the same time that the turnover rate for workers hovers at 9%. This 
is unacceptable and can only mean more tragedies.
    Despite the reality that children suffer in every State of our 
great Nation, other States have made reforms that did NOT happen in New 
Jersey. And as a result, caseworkers are working without the basic 
resources they NEED to do their jobs well.
What are the Conditions in New Jersey?
    We have a computer system from the stone ages. And the millions of 
dollars that were allocated for a new system to serve 50,000 DYFS 
families was turned over to purchase one for the 1,200 families 
involved with the Children's Initiative, a special initiative by former 
NJ Governor Whitman designed for families with means that have children 
with mental health problems.
    New Jersey didn't give DYFS workers the safety tools and structured 
decisionmaking they need. These tools were in place in other States for 
years. Some of them have been put in place in New Jersey over the last 
few months, but there was no vetting by the workforce and no 
significant input from the workers or the union. Many workers continue 
to criticize the tools they are being asked to use as not appropriate 
or tested.
    New Jersey didn't give workers the latest training. They need it. 
DYFS training involves 21 days of ``new worker training'' and then very 
little else. There is very little continuing in-service training and 
there are no incentives for workers to pursue graduate education on 
their own. Additionally, the union believes that all workers should 
have some time in a District Office learning protective services work 
before moving exclusively into foster care or adoption units.
    New Jersey didn't recruit any significant number of additional 
foster parents successfully. Recruitment of foster families was 
essentially turned over to faith-based and private non-profit groups 
during Governor Whitman's era of privatization. This program, 
considered a panacea, has failed to recruit any increase in foster 
homes and our foster home experts say that it has resulted in the 
recruitment of many inappropriate foster homes.
    New Jersey didn't cap caseloads. The Child Welfare League of 
America says that caseworkers handling intake cases should have no more 
than 12 families on their caseloads. We have intake workers with as 
many as 100. The CWLA says that caseworkers handling adoption cases and 
out of home placement supervision, should have no more than 15 children 
on their caseloads. The caseworker in the Collingswood case had more 
than double that.
    CWLA says that caseworkers supervising children in their homes 
should have no more than 25 children on their caseloads. The worker, 
who repeatedly went out to try to see Faheem Williams, the little boy 
whose tragic death this past January made national news, but failed to 
do so, at one point had 106 children on her caseload.
    In the Collingswood case and in the case of adoption generally, 
there are severe systemic issues that contributed to this tragedy that 
must be solved. Let me be clear--the firing of 9 workers will not solve 
ANY of these problems. Not a single one.
What Keeps Going Wrong?
    Caseloads are too high. In this case, the inexperienced caseworker 
had more than double the number of cases she should have had.
    Not enough staff and turnover is too high. In 1999, the Child Death 
and Critical Incident Panel and the Governor's Review Panel both said, 
``lack of staff is a major problem.'' And, if we think that it's hard 
to find and keep good staff at DYFS now, just imagine the impact that 
criminal prosecution of any DYFS worker will have on the ability of the 
agency to hire.
    Supervision is compromised. In this case, the caseworker's 
immediate supervisor was overseeing TWO units of workers who all had 
excessive caseloads.
    There is a fractured system of communication. It is not clear that 
there was appropriate communication between all of the parties. And the 
basic DYFS policy on foster parents is that they are ``colleagues'' and 
that DYFS is NOT ``investigating'' them.
    Lack of sufficient, quality foster care homes. As a result, 
children are placed in homes like this one with many other children or 
homes that are compromised in some way. DYFS is currently proposing 
limiting the number of foster children in a home to three, which will 
make the problem of available placement worse, not better. CWA made a 
proposal more than three months ago to recruit quality foster parents 
out of the ranks of organized labor. In spite of wide spread interest 
through the New Jersey Labor Movement, the State of New Jersey has yet 
to even meet with us on this proposal.
    Inadequate follow up after adoption. There is no requirement for 
any DYFS contact with children of subsidized adoption once that 
adoption is final. And there is no mandated schedule of medical care 
for children post adoption.
    Much has been made and said about what workers saw or did not see 
in the Jackson home in Collingswood. And we do not know the answer to 
that question because we have not seen a single document in the case, 
not one. But we do know that there was not one person sent into that 
home to see those boys. DYFS was in that home to see the little girl 
named Breanna, who was a foster child to the Jacksons. She was the only 
child in that home who was under DYFS supervision. She was the only 
child with an open case. It seems clear--DYFS should be following up on 
adoptions.
    Home schooling creates gaps. Nearly 20% of all abuse cases are 
reported by schools. When children are outside the school system, extra 
protections are critical.
    There are no home schooling regulations that would require home-
schooled children to see anyone from the public education system.
    There is no cross-referencing with the Department of Education to 
look for children who are in the ``system'' but have not been seen by 
anyone.
    And finally, there is no requirement that shut off notices of 
electricity, gas or water be sent to DYFS for State supervised homes or 
homes with subsidized children. In this case, the electricity in the 
home was off for months. This is unacceptable.
    These are systemic failures and we need systemic reforms. 
Caseworkers do not kill children. Caseworkers do not abuse children. We 
will keep having tragedy after tragedy if we don't fix the system.
    We offer these solutions, which we call the CWA Five Point Plan.
    Point 1: We must hire considerably more staff. We need caps on 
caseloads that meet Child Welfare League of America standards. We 
believe that Congress should adopt those standards, so that vulnerable 
children in every State have a fighting chance. There is no way of 
knowing how caseloads directly impacted the Collingswood case, but we 
do believe that the size of caseload had a direct impact on the Faheem 
Williams case, the little boy found dead this past January.
    Point 2: We need many more substance abuse services and treatment 
programs. A huge percentage of abuse and neglect cases involve 
substance abuse in the home. There are not enough placements available 
in treatment facilities and too often treatment involves a couple of 
days of detox--not nearly enough to help someone recover from 
addiction. More substance abuse treatment would mean more reunited 
families, less foster care and fewer needed adoptions.
    Point 3: We need many, many more quality foster homes. New Jersey 
should take CWA up on its Labor Foster Care proposal and it would be 
wonderful if Congress could find ways to provide more incentives and 
recognition to those families that step up to the plate and help by 
becoming foster parents.
    Point 4: We need more training and better technology. We are glad 
that New Jersey is finally implementing the standard child welfare 
information system--SACWIS. We need more training for our staff and it 
should be ongoing training and continuing education.
    Point 5: We need both accountability and respect. Much has been 
said about ``holding people accountable'' for their actions or failure 
to act. We believe in accountability. But accountability must mean that 
the appropriate individuals are held appropriately accountable for 
those actions that they individually had control of.
    Firing workers who had little to do with a case, or who 
realistically could not have known what was going on, is not 
accountability. If the system is designed to discourage curiosity or 
further investigation--because it encourages a ``collegial'' 
relationship between workers and foster parents and not one that would 
promote investigation OR because the sheer volume of the workload makes 
further investigation or supervision improbable--then the system itself 
must be changed. It is unfair to workers and ultimately harmful to 
children to require or demand such ``accountability'' retroactively.
    Reacting to a crisis by firing people indiscriminately encourages 
the workforce to believe that there is no real accountability--there is 
merely retribution.
    Finally, I ask that you respect and honor the people who do the 
most difficult job. Our members knock on unknown doors, in the most 
dangerous neighborhoods in New Jersey, in places the police do not 
venture without backup. They do it alone and they ask the people behind 
those doors to ``Let me see your children.'' They spend their worklives 
looking at babies and children with bruises, burns, welts, bro-

ken bones, unimaginable sexual abuse and some of the worst cases of 
neglect that can be imagined. These workers have been held hostage, 
choked, beaten and threatened in the carrying out of their work.
    Even when there are individual and/or systemic failures, New Jersey 
does these professionals a terrible disservice when we publicly attack 
them. The workers at NJ DYFS have dedicated their lives to protecting 
and serving children and families and when they are characterized as 
``incompetent, uncaring or indifferent'' as the Commissioner of Human 
Services in New Jersey has done, the credibility of the entire 
workforce is damaged, their morale is devastated and the work of 
protecting children is compromised.
    There are real systemic solutions. Our union wants to participate 
in implementing them as quickly as possible. Our members, who engage in 
Child Protective Services, are by and large, unsung heroes and we, in 
CWA, honor them.
    I thank you for the opportunity to testify before this Committee 
today. My colleague, Paul Alexander, and I are happy to answer any 
questions you may have. Thank you.

                                 <F-dash>

    Chairman HERGER. Thank you, Ms. Katz. Now Ms. Marcia 
Robinson Lowry, Executive Director of Children's Rights, to 
testify.

    STATEMENT OF MARCIA ROBINSON LOWRY, EXECUTIVE DIRECTOR, 
             CHILDREN'S RIGHTS, NEW YORK, NEW YORK

    Ms. LOWRY. Thank you, Mr. Chairman, and thank you, Members 
of this Subcommittee, for holding this hearing, and 
particularly thank you for inviting me to testify. We really 
appreciate the opportunity to talk to you about what is going 
on in New Jersey and also what is being reflected around the 
country.
    My organization, Children's Rights, is a nonprofit 
organization based in New York that advocates on behalf of 
abused and neglected children around the country, both by 
bringing lawsuits and by having a very active policy department 
that issues reports on critical issues. We currently have seven 
States' child welfare systems under some form of court 
supervision and are actively litigating in one other.
    We do not have for you the facts about this particular 
family. We do have the facts about this particular system. What 
the panel should be aware of is that the problems in New Jersey 
did not, as other speakers have said, begin overnight. In 1997, 
the system was bad enough that former Governor Whitman convened 
a blue ribbon task force which found basically that everything 
that could go wrong in the child welfare system was going 
wrong. In 1998, the Governor did not, in fact, respond to the 
findings in this report. In 1999, my organization brought a 
lawsuit against the State because we were convinced that the 
State was not going to take action to remedy these problems. In 
fact, Governor McGreevey, in settling the lawsuit, said that 
the reason the money was now going to become available and the 
reforms that we think will take place in New Jersey are going 
to take place is only because the lawsuit was filed. That is, 
in fact, how children are getting protected all too often in 
this country.
    What we learned about the child welfare system as we were 
proceeding toward trial, which the public didn't know because 
the State wasn't maintaining the data, was that 1 in 10 foster 
children in that State was abused or neglected while in foster 
care, while in government custody. Twenty percent of the 
children who left foster care either to be returned to their 
own families or to be adopted reentered foster care because 
they were not in safe situations. Caseloads were over 80, and 
as you heard from Ms. Katz just a minute ago, there was no 
functional computer information system. That is why we brought 
the lawsuit.
    The State defended this lawsuit vigorously until the death 
of Faheem Williams, the 7-year-old boy, in January of this 
year, maintaining that they had a good system, wasn't really 
that bad. They would have continued to do so had there not been 
an incredible media blitz based on the young boy's death and on 
the fact that we were providing to the media our expert reports 
about the failings of this system.
    The lawsuit was settled and has both short-term and long-
term provisions. In the short term, Governor McGreevey agreed 
to immediately make available $30 million additionally for 
additional workers and for supplies such as cell phones, access 
to cars, things like that, and $1.5 million in additional 
foster home recruitment funds. The reason that the additional 
foster home money was because the State was also required to do 
immediate safety assessments on all children in custody. We 
knew from the abuse rates in care that it was likely that there 
were other children in addition to Faheem Williams who were in 
serious danger. So, we wanted the State to immediately do 
safety assessments on all children. Unfortunately, the State 
did that, and the Jackson family actually passed the safety 
assessment, which is why you heard from Ms. Maguire that a 
large number of them are going to be redone, and redone with 
independent people. That is why we also required the State to 
come up with additional foster home recruitment because we 
anticipate that many more children are going to be taken out of 
their homes.
    Over the long term, there is a 6-month planning process 
with a group of experts that a plan that emerges from that will 
be court-ordered and will be under the supervision of a Federal 
court, and there will be monitoring with enforcement powers in 
the Federal court.
    Now, why is this necessary? Congress has passed a number of 
statutes, most recently in 1997, the Adoption and Safe Families 
Act, which was intended to address two really important 
situations: one, the fact that children lingered far too long 
in foster care without getting adopted; and two, it was unclear 
whether children's safety was really supposed to be paramount. 
That legislation made clear that that is what Congress 
intended. However, what has happened with regard to that 
statute, it is being honored in an extremely uneven way, and 
that is why what I am going to recommend to you today that you 
do something about it.
    We were glad to have the opportunity to address this 
Subcommittee on what Congress could do about these awful 
situations. They are not unique to New Jersey, as I am sure you 
realize. Many of us remember the name of Rilya Wilson, the 
little girl who has disappeared from the Florida foster care 
system. We are actively litigating in another jurisdiction 
where only today the State has announced the takeover of four 
county offices because children are in danger in that system.
    Now Congress, did, in fact, require that there be Federal 
reviews of these systems. Every State that has had a Federal 
review, and thus far there are 38 reported on, has not passed 
the Federal review. Now what difference does that make to the 
State? Almost nothing. We are taking depositions now in one of 
our cases which failed its Federal review, failed it badly, and 
has also its own State reports on how dangerous that particular 
system is, and it has a program improvement plan which is 
required by HHS. Nobody is paying any attention in that State 
to the program improvement plan, and the accountability 
measures and outcome measures in that State are declining, and 
nothing is happening.
    One of the key people responsible for implementing that 
program improvement plan in that State testified in a 
deposition a week and a half ago that the State didn't have to 
pay any attention to the fact that they were failing on the 
program improvement plan and not meeting their own guidelines 
because nobody was going to do anything until a 2-year period 
had ended. In fact, nobody is doing anything to them, except 
that there is now a lawsuit against them, and we are going to 
document these problems and bring them to court.
    What would I ask this important group to do? What can you 
do? There is something very real that you can do. You pass good 
legislation, presumably you want it enforced. Do you want it 
enforced the same way New Jersey is enforcing it? It is a good 
thing to increase the number of adoptions. Are we happy with 
what we know about the adoptive family that these four little 
boys and this fifth little girl were going to go into? I would 
guess not. If you want to do something about protecting 
children, instead of having States tote up higher numbers and 
get Federal incentive payments, I would suggest you haven't 
gone far enough.
    I understand the importance of allowing States to make 
their own decisions and allow for local variations about ways 
to do things. It is obviously a very important good government 
principle.
    Chairman HERGER. If the witness could conclude her 
testimony.
    Ms. LOWRY. I would ask you to consider legislation that 
mandates minimum standards in the States with regards to 
applying the Federal law; minimum standards with regard to such 
things as caseloads, worker qualifications, training, the 
frequency of visitation of workers with children, and a system 
of accountability or some quality assurance system so that you 
can have some sense of security that, in fact, the States are 
applying your statutes in the way that I am sure you intended. 
Thank you very much for the opportunity to address this group.
    [The prepared statement of Ms. Lowry follows:]

  Statement of Marcia Robinson Lowry, Executive Director, Children's 
                       Rights, New York, New York

    My name is Marcia Robinson Lowry and I am the Executive Director of 
Children's Rights. Children's Rights is a national non-profit advocacy 
organization dedicated to promoting and protecting the legal rights of 
abused and neglected children. I want to thank Chairman Herger and 
other Members of the Subcommittee of Human Resources of the Committee 
on Ways and Means for providing me with the opportunity to testify 
today.
    As Executive Director of Children's Rights, I have overseen class 
action litigation in over 12 jurisdictions across the country, 
including New Jersey, seeking to vindicate the constitutional and 
Federal statutory rights of children under the care of public child 
welfare agencies. These are, more often than not, poorly managed and 
inadequately funded agencies that are rarely held accountable for their 
chronic failures. As you know, of the dozens of states that have been 
audited for their child welfare performance by the Administration for 
Children and Families (ACF) in the recently implemented Child and 
Family Services Reviews (CFSRs), not one has passed.
    I appreciate the opportunity to address this Committee and detail 
the current situation in New Jersey and across the country that will 
continue to produce child welfare tragedies such as witnessed recently 
in Collingswood, New Jersey, as long as Federal child welfare statutes 
are not strengthened and enforced.
    As you are probably already aware, Children's Rights filed a 
lawsuit against the New Jersey Division of Youth and Family Services 
(DYFS) in 1999. That lawsuit was filed after years of attempted reforms 
of the child welfare system in New Jersey had failed--blue ribbon 
reports and concerted efforts by local advocates had effected little--
if any--change in a child welfare system uniformly seen as 
dysfunctional and failing. Our lawsuit detailed a host of serious 
problems that required immediate attention to ensure the safety and 
well-being of children in the New Jersey foster care system. The class 
action on behalf of the over 12,000 children in foster care in the 
State of New Jersey was certified by the Federal court last year.
    The lawsuit was met by stiff opposition and resistance by DYFS--
that is, until the discovery of the death of Faheem Williams and the 
deplorable condition of two half-starved brothers in January of this 
year. DYFS faced, under intense media pressure, the horrific 
consequences of having essentially ``lost'' these children in its 
system, failing to protect them despite being placed on clear notice 
that the children were at considerable risk of harm. At the same time, 
independent experts retained by Children's Rights to examine the safety 
practices of DYFS, delivered the devastating results of their review of 
state data and hundreds of randomly selected foster children's case 
records maintained by DYFS. Concluding that children in foster care in 
New Jersey were simply not safe, they found that:

    <bullet>  Over one in ten foster children in New Jersey are abused 
and neglected in foster care;
    <bullet>  Foster children supervised by the Adoption Resource 
Centers were over three times more likely to be abused and neglected in 
their foster homes than other foster children;
    <bullet>  20% of foster children had ping-ponged back into foster 
care at least once from a failed reunification or adoption; and
    <bullet>  Many caseworkers carry caseloads well over 80 children, 
when the national standard calls for a caseload of 15 to 17 children 
(12 children for adoption workers).

    Under increasing public pressure to address the undeniable dangers 
that children in the New Jersey foster care system faced, DYFS entered 
into settlement negotiations with Children's Rights. An agreement was 
signed by all parties on June 23, 2003, and on September 2, 2003, Judge 
Stanley R. Chesler of the United States District Court in Trenton, New 
Jersey, approved the settlement agreement that for the first time 
mandated sweeping reforms of the New Jersey foster care system.
    In the settlement, the State agreed to both emergency and long-term 
reforms aimed at protecting children, all under the oversight of an 
outside panel of experts and the Federal court. Under the Settlement 
Agreement, $30M in emergency State funds have already been appropriated 
for additional casework staff and needed supplies such as computers, 
cell phones and cars, and every child in foster care--including some 
4,000 children placed with families supervised by DYFS's Adoption 
Resource Centers--is being individually assessed to be safe or removed 
from an unsafe foster home. Additional reforms will include the re-
training of all casework staff and the elimination of barriers to 
hiring experienced staff, the belated implementation of a Statewide-
Automated Child Welfare Information System (SACWIS) allowing the proper 
tracking of children, foster homes, and case progress, and the 
resurrection of a defunct Quality Assurance function for continuous 
internal review and assessment of the State's child welfare case 
practice.
    Meanwhile, though, the number of reports of child abuse and neglect 
in the State has risen dramatically this year and caseloads have 
actually increased. The State was also just penalized $6.2M in Federal 
funds after failing a second audit of its Title IV-E claiming for 
Federal foster care matching funds, due to placing foster children in 
unlicensed homes or facilities, and failing to document the children's 
legal status. Clearly, reform is a long-term proposition, and 
Children's Rights will be actively monitoring the progress of the 
court-ordered reforms.
    This is the context in which the latest scandalous oversight of the 
New Jersey child welfare system needs to be understood. While aberrant 
mistakes can occasionally be made in any child welfare system, 
egregious oversights are highly predictable in an underfunded and 
mismanaged agency such as DYFS in New Jersey. Caseworkers are 
overwhelmed with too many children to monitor and an insufficient 
number of foster homes and few supportive services for foster children. 
They are poorly trained and supervised. Staff has not been given 
adequate tools to track children, their needs, and whether they are in 
safe placements. Without such accountability, the State cannot assure 
the safety of the children in its care.
    In the Collingswood case, over the course of the last two years, 
caseworkers visited the Jackson home dozens of times--a home in which 
four already adopted children were apparently being starved, so badly 
malnourished that their tiny sizes masked their true ages. The 
caseworker reportedly did not question the children's condition or 
refer any concerns for further investigation. Nor did an emergency 
safety assessment of this foster home by DYFS in July, mandated by the 
Children's Rights settlement because the family was caring for a DYFS-
supervised foster child who was also slated to be adopted by the 
family, identify any safety concerns.
    In the case of the children adopted and then apparently mistreated 
by the Jacksons, the agency failures fall squarely into two categories:

    1.  An inadequate assessment of the Jacksons when they applied to 
adopt--that is, a failure to carefully consider their psychological 
status and parenting abilities, which, even if not evident at the time 
of the boys earlier adoptions, were certainly apparent when the child 
in foster care was most recently placed with them pre-adoptively.
    2.  A failure to adequately conduct a safety assessment on behalf 
of the child in foster care who was placed with them--an assessment 
which should have included an evaluation of the home environment and 
any and all health and safety issues affecting all children in the 
home. Had such a complete assessment been conducted, the terrible 
circumstances under which the four adopted boys were living would have 
become obvious.

    None of this happened, however--why not?
    First, it is clear that DYFS currently lacks the capacity on its 
own to conduct valid and credible safety assessments. Its caseworkers, 
as a group, lack the skills and the time to appropriately assess the 
risk of harm to children and the threat of imminent danger, and they do 
not have the skills, the time or the supervision needed to take 
appropriate protective action to ensure the safety and well-being of 
children for whom DYFS is legally responsible. For this reason, the 
state is seeking independent professionals to make in-person visits to 
thousands of children for whom emergency safety assessments under the 
Children's Rights settlement must be redone. This issue, obviously, 
raises the larger question of capacity-building within DYFS itself to 
ensure that in the future, DYFS staff do indeed have the skills to 
assess the safety of children and to ensure that the results of their 
safety assessments can be relied upon with confidence.
    Second, supervisory and administrative accountability within DYFS 
is critically lacking. The failure to detect and respond to the alleged 
abuse and neglect of the children in the Jackson home cannot solely be 
attributed to the caseworker's inadequate assessment and response. That 
individual had a supervisor and that supervisor was accountable to 
higher-level administrative staff who also have responsibility for the 
quality of safety assessments and for ensuring that action is promptly 
taken to protect children in foster care. Clearly, substantial work is 
needed within DYFS to develop and implement strong supervisory and 
administrative processes that monitor and ensure the quality of 
casework practice.
    It is these two areas of unacceptable practice on which we must 
focus. Nationally, there are 600,000 abused and neglected children in 
foster care custody. As you know, the Federal Adoption and Safe 
Families Act of 1997 was enacted with two laudable goals: to speed the 
placement of these foster children into permanent homes and to 
prioritize child safety at all times for children under the care and 
supervision of state child welfare agencies. For FY 2002, New Jersey in 
fact qualified for the second largest financial incentive award in the 
country under the Act ($1.9M), due to its significant increase in the 
number of adoptions it completed. This is a positive development if the 
homes are being screened and chosen appropriately in each child's 
interests, rather than solely in the state's interest in showing 
compliance with a Federal statute.
    We must demand that DYFS, and every child welfare system in the 
country meet the highest safety standards for children in foster care. 
It has been suggested that the Collingswood case demonstrates the need 
for some focus on post-adoption monitoring. The truth is that too many 
states, certainly including New Jersey, cannot even do an adequate job 
of monitoring children while they are in foster care. It would indeed 
be a mistake if instead of focusing our energy and efforts on critical 
safety issues, we instead began to question the viability of adoption 
as a permanency option for children in foster care; to question the 
vital role of adoption subsidies in making possible the adoptions of 
thousands of children in foster care each year (a role that adoption 
subsidies have played since 1980); or to question the commitment and 
love with which tens of thousands of adoptive families have embraced 
children in foster care, giving them the nurturing, stability and hope 
that they otherwise would not have had.
    We know that adoption ``works'' for children in foster care. We 
know that adoption subsidies are a critical adoption resource. It is 
important to recognize that subsidies typically do not even cover the 
basic expenses of raising a child--a fact that undercuts the argument 
that families adopt ``for the money.'' Nonetheless, subsidies provide 
an important support for families who adopt children with special needs 
because they defray some expenses and because health insurance coverage 
accompanies subsidies. Finally, we know that with the exception of a 
few disturbed adoptive families like the Jacksons (who should have been 
screened out of the process in the first place), families who adopt 
children with special needs from foster care are strong, healthy 
families who contribute to their children's lives and to their 
communities. Upon adoption, they socially and legally become ``just 
like'' other families. To treat these families as ``second class'' 
citizens who need continuous monitoring and oversight would not only 
deprive them of their constitutional rights--a matter of not 
insignificant importance--but would create a system of government 
intrusion very likely to discourage families from stepping forward to 
adopt the now 126,000 children in foster care in this country for whom 
adoption is planned.
    The agency failure in Collingswood was not a failure to supervise 
adopted children as has been suggested. It was a failure to properly 
screen and match the Jackson family with foster children they could 
handle, and then a complete failure to adequately re-evaluate the 
family--including the children in it--before repeatedly approving them 
to adopt those foster children. Since adoptions are meant to be 
permanent, before the child welfare agency signs off on an adoption the 
child's safety and well-being in the home need to be evaluated and 
assured. Standard social work practice (and, in New Jersey, state law) 
requires that every member of the household be part of that evaluation. 
Any concerns must be fully explored and resolved. Only upon such a 
complete evaluation, if positive, should an adoption be finalized. Once 
finalized, however, the family is and should be considered legally 
indistinguishable from any other family. Children are entitled to be 
considered equal members of the family, and not subject to the 
conditions of further agency review.
    As children's advocates, we deeply appreciate the interest of this 
Committee in the situation in New Jersey, and its concern about abused 
and neglected children. I would like to suggest positive actions that 
Congress can take to protect the well-being of these children. Congress 
has already passed legislation several times, beginning in 1980 with 
the Adoption Assistance and Child Welfare Act, and most recently in 
1997 with the Adoption and Safe Families Act. This legislation is 
directed at ensuring that children are safe, that they do not remain in 
state foster care systems indefinitely, that they are treated 
appropriately while they are in state foster systems and that they grow 
up in permanent families, either their own or new adoptive families.
    However, in this legislation Congress has given the states only the 
broad outlines of its desirable public policy goals and then left the 
states on their own to comply with those broad outlines. But by now 
Congress should realize that far too many states are either not meeting 
even those broad outlines or, when they do, for example, raise their 
adoption numbers, are doing so by including many clearly inadequate 
families, as the Jacksons appeared to be, along with the genuinely 
committed loving families who want to make a home for these children, 
just to ``succeed'' by boosting their numbers.
    If Congress wishes to really protect these children, to make the 
broad outlines of its child welfare statutes meaningful instead of a 
cruel hoax, and to ensure the best possible utilization of billions of 
Federal dollars, it will also impose minimum standards in such areas as 
job qualifications, worker training, caseloads, and systems of 
accountability on these child welfare systems. With Federal money the 
states can either save or destroy young lives. We are destroying far 
too many. If you are appalled at the stunted bodies of the boys in 
Collingswood, and if you remember the mummified body of 7-year-old 
Faheem Williams and his starving brothers discovered in a New Jersey 
basement in January, you will consider mandating minimum standards for 
the operation of any child welfare system that has the lives of these 
young children in its hands.
    Thank you for this opportunity to present these thoughts to your 
Committee.

                                 <F-dash>

    Chairman HERGER. I thank you, Ms. Lowry, for your 
testimony. I want to thank each of you for your testimony. I 
have been very generous on the time, and we have gone 
considerably over on each of our witnesses. That is due to the 
incredible seriousness of this hearing. Our purpose here today 
and the reason we have invited those who we feel are closest to 
the issue in New Jersey is to try to get the facts out so that 
we as a Congress representing the concerns of innocent children 
that are within your jurisdiction, and not only in New Jersey, 
but all 50 States, that we do everything we can to ensure that 
these innocent children are taken care of in the best way that 
we can--and that we eliminate as much as possible all abuse.
    Before I get into my question, I do want to recognize 
another Member of the Committee on Ways and Means who is 
sitting with us on the panel, Mr. Mark Foley. Without 
objection, he will sit with us.
    If I could just open up the questions just with a yes or no 
answer as much as you are able to, again those of you who are 
closest to this issue, if I could ask based on your 
professional or personal opinion, were the Jackson boys abused? 
Ms. Maguire?
    Ms. MAGUIRE. Yes.
    Mr. RYAN. Yes.
    Mr. SARUBBI. Yes.
    Reverend THOMAS. No.
    Ms. KATZ. We have not been given enough information to make 
that determination.
    Ms. LOWRY. It seems likely, but I agree we don't have all 
the facts.
    Chairman HERGER. Thank you. With that, we open up for 
questions. Mrs. Johnson.
    Mrs. JOHNSON. Thank you. I was first elected to the 
legislature in the seventies as a State senator. The first 
national hearings on foster care were held. I was on this 
Committee when we passed the first round of foster care reform 
legislation. I have been deeply involved in reforming the 
independent living program. My State has been subject to a 
suit, and I see how court monitoring does and does not make a 
difference, and all the resources it puts in place that are 
helpful, and those that it squanders. So, I have one short 
question to ask of Reverend Thomas, and then I would like to 
ask Ms. Maguire a question. Reverend Thomas, did the four boys 
cited in this suit attend church regularly?
    Reverend THOMAS. They attended church regularly.
    Mrs. JOHNSON. Were, all but the one, the oldest, well 
behaved?
    Reverend THOMAS. Extremely well behaved.
    Mrs. JOHNSON. You had no reason to suspect, even though 
they were very small and very skinny, that there was any other 
problem other than an eating disorder?
    Reverend THOMAS. No. They were always well dressed.
    Mrs. JOHNSON. They did come with the rest of the family?
    Reverend THOMAS. Absolutely. We keep church records, and I 
looked it up, and it was approximately 67 times in the past 2 
years, about 60 percent.
    Mrs. JOHNSON. Ms. Maguire, I am interested in the long run 
and how you select foster homes and how you oversee them and 
how you keep track. Clearly what your testimony lays out in 
spades is the same testimony that has been laid out for two 
decades. This is the hardest job there is is to be a protective 
services worker. It is very hard to be a teacher in our urban 
areas, but to be a protective services worker where you are 
dealing with very difficult children and families, it is the 
hardest job there is. It is true that the cases when they go 
bad are the most spectacular, and heads roll because that is 
all we know how to do.
    I agree with many of the comments that were made that this 
is the quickest way to discourage the quality of people we need 
in the foster care and child protective services from wanting 
to serve.
    I am impressed, Mr. Sarubbi, with the number of people you 
have, but you see, it really didn't make any difference. It is 
after the crime that you matter. It is irrelevant. We want to 
prevent the crime. So, I want to know, and I hope this 
Committee will look at best practices, I want to know what are 
we doing to support foster families. Do you have any mandatory 
meetings for children in foster care? Do we have any compulsory 
requirement that they be brought to certain child support 
situations so that if there is a problem, they can talk about 
it, because they have different problems than ordinary 
children. They have two families.
    I want to know a little bit more, and I know you don't have 
much time, but in the long run I am interested how you recruit 
foster families, how you support foster parents, how you 
support foster children, and how you prevent out-placement of 
children into foster care.
    So, it is the whole systemic issue we have to face here, 
and certainly lower caseloads is absolutely crucial. We can 
make--the idea that we would lay another level of bureaucracy 
on you or even another office without looking at the obvious 
blatant problem of caseload is really just too ludicrous to 
entertain. Your lack of training, ongoing training, the lack of 
integration of protective services training and foster care 
training and any other kind of training, we need to hear from 
you new views, new thinking. I don't want to hear the same old 
stuff. I have heard the same old stuff, the same old 
accusations and problems.
    How are we going to use what we have learned in medicine, 
for example, support groups, family resource centers, to bring 
families together? Are we using them at all? Is there any 
mandatory requirement that foster children attend the local 
resource center play sessions? What are the resources in the 
community that are already there that we can require people 
with foster care children to participate in?
    The same is true of kinship care. I would like--I know we 
have thrown out a lot, and we only have 5 minutes to question, 
but we need new thinking. You think we are going to legislate 
the same way the State is responding to this? We can't afford 
to do that.
    Ms. MAGUIRE. Your points are very legitimate, and the truth 
of the matter is the New Jersey system does not do those things 
that you suggest. One of the work groups that we have currently 
engaged that involves foster parents, other community members 
as well as staff is a resource family group to do precisely 
what you are doing, to plan a set of standards, a set of values 
about how we do value foster parents. We don't do that well at 
this point. It is to develop strategies to include them in a 
far different way that includes them not only in participating 
as a team member for the planning for the children under their 
care, but also in support of them.
    I have never understood, quite frankly, why we don't treat 
foster parents like we do natural parents who have accepted 
children into their homes.
    Mrs. JOHNSON. Be thinking about it, because maybe we will 
have a hearing on those kinds of progressive ideas.
    Chairman HERGER. The gentlelady's time has expired. The 
gentleman from Maryland Mr. Cardin to inquire.
    Mr. CARDIN. Let me thank all of you for your testimony. The 
first way to correct the situation is acknowledge you have a 
problem, a serious problem, and, Ms. Maguire, I compliment your 
acknowledgment of the problems in New Jersey, which, again, is 
not unique to New Jersey. As the testimony has indicated here, 
particularly from Ms. Lowry, this is a problem that is being 
confronted in many parts of the country, if not in every 
system.
    I am concerned, though, as you pointed out, New Jersey 
conducted safety assessments in foster homes before the Jackson 
children were discovered, and 14,000 plus homes had been 
inspected, including the Jackson home, which got a clean bill 
of health. Now you are going to re-evaluate 6,000. I am curious 
as to how you selected the 6,000, and if you have the resources 
to do a safety assessment, because when you put a stamp of 
approval on a safety assessment, I think the public has a right 
to expect that, in fact, these homes have met your standards. 
Do you have the resources, and how did you select these 6,000?
    Ms. MAGUIRE. Again, a very legitimate question. The safety 
assessments began in New Jersey for all out-of-home placements 
prior to the settlement of the lawsuit. At that time--and 
nowhere in the United States is there a safety tool that exists 
for out-of-home placements. There is a structured decision-
making tool for children in their own homes, but none for out-
of-home placement. We took a modified version of an in-home, 
tried to enhance it for purposes of out-of-home, and we began 
those reviews on June 2nd.
    Mr. CARDIN. My question is how did you get to the 6,000 
that are now being selected?
    Ms. MAGUIRE. I am trying to get there, sir. Prior to the 
lawsuit, we had accomplished a number of safety assessments. 
When the lawsuit was settled, we changed that form yet one more 
time that drove the decision-making and the process of safety 
assessing. Six thousand children had already been assessed. We 
are going back over the ones we have done prior to the 
enhancement of the safety tool.
    Mr. CARDIN. I appreciate that. Just for my own curiosity, 
was the Jackson family in that 6,000?
    Ms. MAGUIRE. The Jackson family was assessed on June 6th. 
It is important to note that safety and assessing safety is a 
point in time, and that child welfare system needs to expand 
that.
    Mr. CARDIN. I agree with you there, and I just point out 
that the public believes that when you do a safety assessment, 
that the children are safe, and that is not the case, I am 
afraid.
    Let me move on if I might. Mr. Ryan, I would like your 
suggestion in regards to those families that have adoption 
subsidies, there is at least an obligation for us to make sure 
that the children are being treated properly, and having some 
type of a review on their health is a good suggestion. You 
might want to try to find out whether or not it would be too 
burdensome on the families and refine your recommendation. I 
think our Committee would be interested in following up on 
that.
    Mr. RYAN. I would be happy to do that and submit something 
to the Committee.
    [The information follows:]

    The recommendation regarding adoption subsidy can be found in the 
Executive Summary of the ``Jackson Investigation: An Examination of New 
Jersey's Child Protection System and Recommendations for Reform,'' 
which was released by the Office of the Child Advocate on February 12, 
2004. The recommendation is to provide an array of post-adoption 
supports, including the requirement that families, who elect to apply 
for and are approved to receive an adoption subsidy, ensure that a 
physical examination is completed for each child annually by a State-
licensed physician.
    The report can be viewed in its entirety at 
www.childadvocate.state.nj.us.

                               __________

    Mr. CARDIN. Reverend Thomas, I think we would be more 
sympathetic to your point if there was some evidence that in 
the last 4 years, the children had some medical attention. If 
you have a problem you can't deal with, you would think that 
you would have sought some medical advice. From at least what 
has been presented so far, there is no evidence that the 
children in the last 4 years have had medical attention, and 
this is very concerning, at least to me and, I think, to the 
public.
    Let me move forward, I guess and try to figure out where we 
go from here. Nationwide tenure for caseworkers is under 2 
years. Salary is $33,000 on average. Is that adequate in order 
to get the type of people and the type of expectations for 
caseworkers that are taking care of America's most vulnerable 
children, and what do we do about it?
    Ms. LOWRY. What we find in the systems that we have become 
involved in is it is not simply a matter of money, but the 
worse the system operates, the least likely it is to retain 
good workers. You have to make these systems work better. It is 
very often the case that there are private agencies providing 
services, and the private agencies pay less than the public 
agencies. The good workers go to the private agencies because 
most people want job satisfaction, particularly people in this 
field. When the agency insists on high caseloads, has no 
placements to put the children into, and doesn't provide any 
training, good workers leave. So, you have to fix the system if 
you want to have good workers.
    Mr. CARDIN. I agree with you. Money is not the whole issue, 
but it is very difficult to understand how you can do the 
training and keep people with the types of budget supports that 
are out there today. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you. The gentleman from Kentucky Mr. 
Lewis to inquire.
    Mr. LEWIS OF KENTUCKY. Thank you, Mr. Chairman. Mr. Ryan, 
can you give us more specifics about the medical condition of 
the boys today? How they are doing? I think you mentioned they 
are gaining weight, but can you give us an update?
    Mr. RYAN. Thank you, Mr. Lewis. I am especially thankful 
that you referred to them as the boys and not as a project. I 
don't begrudge advocacy on behalf of Mr. and Mrs. Jackson. I 
think that in some ways, Reverend Thomas' advocacy on behalf of 
them is a friend standing by them in a dark time. The public 
vilification of these boys, characterizing any one of them as a 
liar and describing them as a project, is despicable, and I 
think it needs to stop.
    In terms of their medical condition, I think the boys are 
all making a very steady recovery. They are gaining weight. As 
the prosecutor indicated to you, that is simply because they 
are being fed. There is no magic medicine occurring here. These 
boys are eating and growing.
    Mr. LEWIS OF KENTUCKY. Was there any evidence for any type 
of medical condition that caused an eating disorder at all as 
the Reverend made mention?
    Mr. RYAN. My investigators have not concluded that that is 
a cause of their condition. As I indicated, there is 20,000 
pages of documentary evidence to be reviewed. There are 
witnesses that my team is still talking to, and I think Mr. 
Sarubbi has a better sense of that than I do at this point 
because he is more invested in the medical component of the 
investigation than my team.
    Mr. SARUBBI. It is true that some of the boys--one of the 
boys did have acid reflux, but my discussions with the 
physicians are it was easily treatable. It is a common illness 
that many of us suffer from, and with the right kind of 
medication and medical attention over a period of time, it is 
not something to cause you to be 19 years old and appear to be 
10 years old in your stature.
    In terms of the children's mental outlook, I can tell you 
that they have been meeting with the social worker at the 
hospital and the other facilities that they are at right now, 
and upcoming in the next month or next week, we expect that 
they are going to be going into some formal therapy sessions to 
help deal with their situations. Their outlook is good. They 
are positive. They enjoy their placement where they are at. My 
investigators have been interactive with Bruce on a regular 
basis, and he is pleasant and charming and has kept a positive 
attitude about this whole situation.
    Mr. LEWIS OF KENTUCKY. I read somewhere that there was a 
lock on the kitchen door.
    Mr. SARUBBI. That is correct. We actually found two locks. 
There are two entranceways to the kitchen, one that goes from 
the dining room, and the other that goes from the hallway. Both 
were locked. There is an alarm on the kitchen door as well and 
a sign that said, ``Stop and think and pray before entering,'' 
which was a reference to the children going into the kitchen 
and getting food unsolicited or without approval.
    Mr. LEWIS OF KENTUCKY. Mr. Ryan, let me go back to you. The 
income--the benefits that the Jackson family were receiving, 
were there other sources of income, do you know? Is there any 
reason why they couldn't have used other opportunities to get 
food for these children? There are food stamps, cash welfare 
benefits, disability benefits, unemployment benefits, and 
hopefully a food pantry at the church. Any reason why those 
kids were not fed?
    Mr. RYAN. None that I can understand. I think one of the 
most frustrating aspects of the investigation is that it is 
very difficult to know what is in the heart of a person, and it 
is difficult to know what was in the heart of Mr. and Mrs. 
Jackson.
    To answer your question directly, all of those public 
supports were available and more. New Jersey has the most 
comprehensive child health insurance program in the country 
that covers children up to 350 percent of poverty. Every one of 
those children was eligible for free public health insurance, 
and the public health insurance system indicates no hits 
against those boys in the last several years.
    Mr. LEWIS OF KENTUCKY. Let me just say this: there is a lot 
of finger-pointing, but, listen, good parents, parents have to 
be responsible for their children, whether adopted children--I 
am an adopted--parent of an adopted child. The responsibility 
is with us to make sure our children are fed, they get good 
medical care, they get clothing. It is our responsibility. If 
we don't live up to those responsibilities, then we should be 
prosecuted to the full extent of the law. I know there is 
evidence out there that has to be looked at, but the bottom 
line, the responsibility is on the parents. I yield back.
    Chairman HERGER. Thank you, Mr. Lewis. Now the gentleman 
from Washington to inquire.
    Mr. MCDERMOTT. Thank you, Mr. Chairman. Ms. Lowry, we have 
a family that sounds like who got $30,000 under the adoption 
subsidy program. Fetal alcohol syndrome is well recognized. 
There was a recent article, I guess, on Monday in the New York 
Times about further research that has been done in that whole 
area. These kids were clearly eligible for $30,000. What seems 
to me that was missing was anybody looking at how that $30,000 
was spent in terms of dealing with these. Mr. Lewis is correct 
and the State is correct in that there is a health care system. 
There was nobody--they just handed the $30,000 to these people 
and said, go on your merry way.
    I would like you to take the rest of my 5 minutes to tell 
me what kind of a law you think we ought to pass with what kind 
of enforcement mechanisms to be able to stop this, because we 
are putting out the money. They got a good idea--the idea of 
adoption subsidy is a good idea. I instituted it in 1971 in the 
State of Washington. I would like to hear what you think needs 
to be done nationally, because sometimes the Congress has to 
act when States clearly----
    Ms. LOWRY. I really appreciate you asking me that question 
because I think this case is so awful that it has raised a lot 
of somewhat confusing issues. What is really important is that 
we provide families for children, and when children in foster 
care get adopted, they should be members of that family just as 
Mr. Lewis' child is, I am sure, a full member of his family. We 
want people to realize that--we want the people to realize that 
they have the responsibility that the Congressman was talking 
about. We want the child to realize that this is really their 
family, not a pretend kind of family.
    The problem in this case, and what I would ask Congress to 
think about, is not whether there was post-adoption monitoring, 
because if post-adoption monitoring had taken place in New 
Jersey, it would have been just as bad as the pre-adoption 
monitoring. Four children--almost five children were placed by 
DYFS in that family, children with problems, and the family had 
other children as well. Who is making the decision to place 
those children there in the first instance? When it came to the 
point that these children were going to be finalized, how is 
the decision made to turn these children permanently over to 
this family, at least after the first boy was there? There were 
children starving, malnourished, stunted growth. These were 
kids with problems. There were a lot of kids in the home, maybe 
too many under the circumstances.
    The problem is before the adoption is finalized. I would 
urge you not to think that the answer is to undermine the 
permanence of an adoptive placement, but to insist the 
laudable, enormously important goal of giving children 
permanent families is made with careful decision-making. We are 
turning these kids loose. We should, but we should know what we 
are doing before we allow the State to leave.
    Once again, it gets back to the quality of decision-making, 
to caseloads, to training, to accountability. Those are all 
critical issues. Congress says, please get more kids adopted. 
Right thing to do, but we don't want them to get adopted with a 
tick on a piece of paper. We want them to get adopted----
    Mr. MCDERMOTT. Give me the minimum standards that ought to 
be in the Federal law.
    Ms. LOWRY. Yes, Congressman. I think there really have to 
be, because we know by now that the States are running these 
systems with high caseloads, untrained workers. We know these 
conditions exist. It was fair enough to say to the States, 
here, we are giving you the money. Here are the general 
outlines of our public policy. You all implement this public 
group policy if you want to do it here, here and here.
    What we know today, whatever happened in this case is not 
an aberration. We know this is happening in other States. So, 
we have already given the States the opportunity to set their 
own standards. They are not protecting these kids. So, I think 
it is time for Congress to take another look at the goals in 
the Adoption and Safe Families Act of 1997 to see whether you 
need to impose more strictures, loose strictures but more 
strictures, on the States and tell the States that your 
caseloads may not go below X. Eighty is not acceptable. I think 
everybody would agree with that.
    Mr. MCDERMOTT. This woman had 38, but that is after. What 
about before? What should an adoption preparation worker have?
    Ms. LOWRY. An adoption worker ought to have reasonable 
caseloads, ought to have training. The pressure in New Jersey 
is to get kids out of the system and count another adoption. 
Some of these kids really luck out, and they are incredibly 
wonderful families, but that is not being decided by the State. 
It is a matter of luck. Whether or not children are safe and 
are getting good families should not be a matter of luck. The 
State ought to have the capacity to make those decisions. If 
you don't have the basic tools, if you don't have workers which 
have training, which have supervision, if the system doesn't 
have accountability that workers are going to have their 
decisions reviewed higher up within the agency, if you don't 
have a quality assurance system, you have a whole atmosphere in 
which nothing matters.
    We have case records from the State of New Jersey in which 
there are notations children are abused in foster homes. The 
abuse is not substantiated because there is no place to put the 
kids if they have to remove the kids, and the notation on the 
record says, well, this is another case of business as usual. 
The States should not be allowed to do business as usual that 
allows kids to get abused, and I think the only answer to it 
from a Federal level is to say you can't run the system if you 
are below certain minimal standards. I don't mean the best 
standards. I mean certain minimal standards. I don't know what 
they are today, but smart people can figure them out.
    Chairman HERGER. I thank the gentleman from Washington Mr. 
McDermott. Now the gentleman from Pennsylvania Mr. English to 
inquire.
    Mr. ENGLISH. I thank you, Mr. Chairman. I must say as I 
have listened to this testimony, this has been as extraordinary 
a hearing as I have attended in my service in Congress, and it 
is stunning to think that these things are happening in the 
United States in some of our relatively affluent communities 
and apparently that this is not an isolated incident.
    Ms. Katz, during your testimony, you cite various reasons 
why caseworkers in New Jersey are unable to perform their jobs. 
You also state that the State didn't give caseworkers the 
latest training. The thing I am grappling with is we have heard 
testimony to the effect that there were 38 visits to this home 
over the previous 4 years. Is it a function of the fact that 
the workers were poorly trained that they failed to note that a 
19-year-old only weighed 49 pounds.
    Ms. KATZ. One of the things that I tried to talk about is 
two different types of systems that DYFS has. Protective 
services and adoption in foster care are essentially separate 
systems. The caseworker that visited the home, the most amount 
of those 38 times, the 38 represents a number of different 
visits over 4 years. This worker was on the job 2 years, 26 
years old, her first job with the agency.
    There is no training in protective services mandated for 
workers that are going into the Adoption Resource Centers. That 
caseworker had no training about what to look for. It is the 
union's belief that all workers that, before they go into 
foster care or adoption units, spend a year in a district 
office doing protective services work, learning what to look 
for and what to see. We haven't seen the records. We haven't 
been given any documents, which is unusual, but I believe that 
this particular caseworker was seeing what the members of the 
church were seeing, what the neighbors were seeing, and 
believing that this foster home was an appropriate home.
    It had been approved for adoption over and over and over 
and over; had been approved as a foster care home over and 
over, and the family was lauded in the community.
    Mr. ENGLISH. Ms. Katz, you also noted in your testimony 
that because home schooling was involved in this home, that the 
children were not subjected to the kind of oversight that they 
might have had in a public school setting. I guess my question 
for you, or for Ms. Lowry: is there any empirical evidence to 
suggest that the risk of this sort of incident is greater in a 
home-schooling setting? There seems to be a lot of empirical 
evidence to suggest that home-schooling families 
disproportionately are strong in certain other areas. Is there 
some reason to believe that home schooling is part of the 
problem here?
    Ms. KATZ. Well, let me comment, and then--what I was 
testifying to is that home schooling creates gaps. In New 
Jersey, nearly 20 percent of the abuse cases are reported by 
schools. I come from a family of all teachers, elementary 
schoolteachers, and because they see children every day, they 
get to know them well, especially young children, and that is a 
very large source of information going into the system that 
there may be abuse, that there may be neglect. When kids are 
outside the school system, it seems you need extra protections.
    It is not that home schooling causes the problem, but it 
creates a gap. Other States, New Jersey is not one of them, 
have regulations about children needing to be seen and tested 
by their public education system.
    Mr. ENGLISH. Ms. Lowry, if you want to comment on that, I 
would welcome it, and while you are at it, you had cited a 
class action lawsuit and that around 4,000 children placed in 
New Jersey foster homes are being individually assessed. What 
are the results of those assessments, and how many children 
have been removed from unsafe homes to date?
    Ms. LOWRY. When the first round of assessments was 
concluded, which was about 3 weeks ago, prior to this Jackson 
case, only 31 children had been removed. Frankly, we had some 
serious question about that, but no basis on which to question 
it. Given our data that the rate of abuse was so high, it 
seemed unlikely that only 31 children needed to be removed.
    The new assessments have just started, so we don't know how 
many children are going to be removed this round. We expect 
these assessments will be better. In fact, we are going to ask 
the State, if the removal rate turns out to be very high, if 
the assessments turn out to be very faulty, as this one may 
have been, we are going to ask to have all of the homes 
reassessed, not just these that were done, because that 31 
number seemed awfully low to us.
    On the home-schooling issue, I think that the very 
important point was made, which is that New Jersey has very, 
very few requirements with regard to home schooling. So, 
frankly, I wonder, given what else we know about this family, 
whether the kids who were home schooled got any education at 
all. I suspect they didn't get very much.
    Mr. ENGLISH. Thank you. Thank you, Mr. Chairman.
    Chairman HERGER. Thank you very much. The gentleman from 
California Mr. Stark to inquire.
    Mr. STARK. Thank you, Mr. Chairman. I apologize to the 
witnesses for not being here at the beginning of your 
testimony. I have tried to glance through it to get up to 
speed. Mr. Sarubbi, am I pronouncing that correctly?
    Mr. SARUBBI. That is pronounced correctly. Thank you.
    Mr. STARK. In New Jersey, as I think we do in California 
and many other States, the law would require, say, a teacher in 
a public school to report a case of child abuse or serious 
mistreatment or illness. What is the law generally in New 
Jersey? Is there an obligation to report this kind of thing?
    Mr. SARUBBI. If they believe that there is a problem there, 
yes. I think with our schools there really is a requirement on 
an annual basis that children be examined by a physician.
    Mr. STARK. If a teacher saw, say, in third grade, saw a kid 
coming in with a black eye or a bruise frequently, does the law 
require that teacher to report to somebody that they suspect 
something?
    Mr. SARUBBI. Yes.
    Mr. STARK. Now, other than teachers, in some States, I 
believe the State of Maryland, anybody can----
    Mr. SARUBBI. It is everybody in New Jersey. It is not just 
limited to a teacher.
    Mr. STARK. Okay. I am not a lawyer, so help me through if I 
am not getting the right words here. Have you prosecuted a lot 
of child abuse cases; is that part of your department?
    Mr. SARUBBI. Yes. In fact, my child abuse unit is handling 
this investigation in conjunction with the Collingswood Police 
Department.
    Mr. STARK. I have a daughter-in-law that does that in 
Berkeley, I might add. Very proud of her. Although she was just 
appointed to the bench by Davis before Schwarzenegger got in.
    Let me go back a minute. Would you, if you can give your 
opinion here, and I do not know whether that is--would you 
consider these children, their treatment, constituted abuse 
under the terms of New Jersey law? Maybe that is not a----
    Mr. SARUBBI. What I can tell you is what I had stated in my 
testimony, that based on our investigation that we have done so 
far, I believe that there was probable cause to sign a 
complaint for endangering the welfare of children and 
aggravated assault. In addition to that, a judicial officer was 
required to pass on the evidence to make a determination as to 
whether they felt the charges were appropriate. They were 
signed, a warrant was issued, and the Jacksons were arrested. 
So, I hope I have answered your question.
    Mr. STARK. Yes. I am trying to use colloquial terms, and I 
don't suppose that you can. Maybe you can--and, again, this is 
an opinion. I notice that in this picture that was in the 
paper, that the girls in the family all appear to have been 
well fed and not mistreated, or whatever the legal term is. 
Does that mean anything to you, say anything to you? Do you 
have an opinion as to how----
    Mr. SARUBBI. That is an excellent observation, Mr. Stark, 
and one that we have compared to the physical condition of the 
boys. We do not have the answer, unfortunately, as to why the 
girls were treated one way and the boys were treated another. 
Now, our investigation is continuing.
    Mr. STARK. Was that question raised by people investigating 
it? Did they point it out that this seemed----
    Mr. SARUBBI. Absolutely. We have mulled over that question 
on numerous occasions in my office amongst the legal staff and 
the investigators, and we are really still at this point trying 
to pin down the true motive in this case. That is one of the 
questions we have asked ourselves, and we may get an answer to 
it, we may never get an answer to it.
    As I mentioned earlier, part of our investigation is going 
to include psychiatric evaluations of the children, and perhaps 
those questions may be answered during that process.
    Mr. STARK. Reverend Thomas, did you ever talk with--was it 
Keith--no. Or Michael. Who is the 19-year-old?
    Reverend THOMAS. Bruce.
    Mr. STARK. Bruce.
    Reverend THOMAS. Bruce was more in the shadows than the 
other children.
    Mr. STARK. Did you ever chat with him?
    Reverend THOMAS. Oh, sure. He would come out of church.
    Mr. STARK. These kids go to Sunday school?
    Reverend THOMAS. They went to Sunday school. Their Sunday 
school teachers have expressed to me how----
    Mr. STARK. What grade in Sunday school was Bruce?
    Reverend THOMAS. Bruce was in one of the lower grades 
because he kind of stuck with his other siblings.
    Mr. STARK. Were they all like in second, third grade? Where 
were they? I do not know how you rank that.
    Reverend THOMAS. I am not actually sure, but I do have 
some--I am probably the only one--can I say something? I am 
probably the only one that knows the family, or really knows 
the family, for 15 years. I am probably the only one who has 
consistently been around this family. I have video here of what 
this family looks like where they are in a talent show in the 
church. Actually, it was a missions banquet. I have pictures 
here of this family.
    Some of these allegations that I am hearing are absolutely 
startling to me. I know the family, I have talked to them about 
the kitchen being locked and things of that nature, and those 
things are simply not the way they appear. Bruce would go down 
to the kitchen at night and eat most of the food. The family 
had to put an alarm, no locks, just an alarm, so that they 
would know. The family dog would often alert them if he was 
trying to go and do a disturbing thing in the neighborhood.
    These allegations are simply not true. The family had 
plenty of food. They ate three meals a day. They didn't need 
assistance. They never even came to the church for financial 
assistance until a landlord called me and said, I think they 
are in trouble financially.
    Mr. STARK. Things, I guess--you and I, Reverend, probably 
aren't the judge and the jury in this case, and things aren't 
always, I guess, as they appear. We find serial killers and 
bank robbers and people that happen to live next door to us, 
and you are just shocked to find out that people who we see 
every day are----
    Reverend THOMAS. Yes, sir. I have been around a while.
    Mr. STARK. So, that is something that Mr. Sarubbi and the 
criminal justice system will decide.
    Reverend THOMAS. May I just--do I have a chance to say 
anything more?
    Chairman HERGER. The gentleman's time has expired, but 
maybe a short statement.
    Mr. STARK. Sure, Reverend, go ahead.
    Reverend THOMAS. I have no political interest. I do not 
know all the things in the system. I am just a pastor. What 
just was said about the boys being treated differently, well, 
here is all the boys together, including the father, and this 
was taken just 2 and a half weeks ago. The picture that you are 
very familiar with, the picture of the girls. Believe me, 
folks, these are not monsters. They are----
    Mr. STARK. All that is missing are the four loaves and the 
seven fishes, hey, Reverend?
    Reverend THOMAS. Pardon me? Yes.
    Chairman HERGER. The gentleman's time has expired.
    Reverend THOMAS. Thank you.
    Chairman HERGER. With that, I yield 5 minutes to a Member 
of the full Committee, the gentleman from Florida, Mr. Foley, 
to inquire.
    Mr. FOLEY. Thank you, Mr. Chairman, for holding this 
hearing, and as Co-Chair of the Congressional Missing and 
Exploited Children's Caucus, I sit here trembling, listening to 
what I have heard today.
    Reverend Thomas, with all due respect, this lack of even 
empathy for the kids. I almost feel or hear you saying, let's 
just call off the hearing and have an exorcism on these 
heathens. It is troubling that in a church--and other points, 
home schooling is being attacked today; money in the system, we 
don't have enough money, training. What type of training does 
somebody need, additional training, to find these problems in 
these kids? Isn't there a doctor in your church that recognized 
the frailty of these young boys?
    I am astonished. I am astonished. People treat their pets 
better than New Jersey has treated their children in this 
instance. If they treated a dog like this, people would be in 
jail already in the Humane Society. Gopher tortoises have a 
better safety net in this country than these kids.
    I do not know where to start. I do not know where to start, 
but I see these four children wasting away, going to Sunday 
school and church every week, and nobody in the congregation 
thought to call someone. Thirty-eight visits on this home, 
$30,000 a year, not a dollar going to a doctor, nobody going to 
seek intervention.
    So, it is not all about money--and maybe it is about money. 
Maybe we have turned kids into money machines. Here, you take 
these kids. No one else wants them.
    With all due respect to this family, if they are so 
demonic, then let somebody else deal with them. I heard you 
say, Reverend, he didn't want to turn them in because nobody 
else would take them. When you ignore the obvious, your 
statement that somehow the kid ate his lunch on the way to 
school and then lied to the teacher, well, at least he would be 
a normal-weight liar.
    Reverend THOMAS. May I respond?
    Mr. FOLEY. Please.
    Reverend THOMAS. Yes. First of all, these children came in 
looking pretty much the way they look to you, very startling to 
you. I have a cousin who has cerebral palsy, and my cousin 
looks differently than other people and very underweight. I do 
not go up to my cousin every week and say, what is wrong with 
you, or turn to her mother and say, show me some papers or say 
what are you doing.
    Mr. FOLEY. Reverend, these are boys.
    Reverend THOMAS. These boys were energetic, you will see in 
the video, energetic, coming up and hugging me, the first to 
come out after church, the little girls and the little boys. 
Believe me, our focus is on these children. Ray and Vanessa 
have been accused as being animals and everything else, but let 
me tell you what, these children are happy children, and they 
have been a great blessing to our church. There is not only me, 
there is 300 some other people who have observed them and loved 
them, and their condition was always taken into account because 
that is the way they came. I saw them when they first came.
    Mr. FOLEY. Then how do you account for the gain of weight 
under State supervision?
    Reverend THOMAS. I seriously question it. If I was placed 
in the hospital with 24-hour, around-the-clock care for the 
purpose of gaining weight, I would gain weight. You would gain 
weight. We would all gain weight. I want to know if it is 
water. I want to know if it is convoluted in any way. Did they 
have shoes on when they came in? What is the story? Did they 
have shoes only when they were weighed?
    Mr. FOLEY. Do you discount the rummaging through the 
garbage next door looking for food?
    Reverend THOMAS. Bruce? That was not the first occasion 
this child has done this kind of thing, and this is part of his 
sickness, and there is a need for his psychological well-being. 
He escaped one other time, went to a neighbor's house, just 
like we have the problem now; went to a neighbor's house, said, 
my parents are in Florida, they have left me here home alone. 
When the police came, checked it out, parents were there. This 
time he said, I don't have any parents, I am from Camden, I am 
homeless. Of course, that was obviously not true. They were 
right there in Collingswood frantically wondering where he was.
    Mr. FOLEY. Well, I just know Florida has had its share of 
problems, a lot of States have, so I am not casting aspersions 
only on New Jersey.
    The Governor ordered a blue ribbon panel on May 6, 2002, 
reported May 28th. We have had two progress reports. There is 
some good information the State can glean from this, but I have 
to tell you, we have to get moving. We have to get on this 
program.
    It is only when a politician's job is on the line do we 
start waking up and shaking up these agencies. Typically what 
happens is we just change the name of the agencies so people 
can forget what the problems were in the past, and we don't 
change the fundamentals.
    Our colleagues have asked some very important questions, 
and I think all of us share a responsibility. This isn't just 
pointing to a State and saying, how did you let this happen? 
Too many kids are falling through the system, we are asking too 
much of those very same people to go in homes that most people 
armed at the waist with guns wouldn't go into.
    It still troubles me that 38 visits occurred, and I do not 
know whether they took place at Starbucks, but they do not seem 
to have been focused at the house. Obviously, someone missed--
even if they were looking at 1 child in a house of 12, they 
still missed some telling stories of that home.
    So, at the end of this, hopefully, it is not about 
federalizing child protection, but it is all of us taking 
individual State responsibilities to see that these agencies 
are monitored; that the people sent out there tasked with the 
jobs were listened to. I have looked at some of these in 
Florida where caseworkers come back and tell their bosses, and 
the boss says, don't bother me with that, I can't fix it, or, I 
can't do anything about it.
    Whether we are in our churches, in our Boy Scout troops, or 
in our hospitals, we all have to band together, because this is 
an epidemic problem for our kids, and it is just startling. 
Thank you, Mr. Chairman, for the indulgence.
    Chairman HERGER. I thank the gentleman from Florida. I 
recognize the Ranking Member from Maryland Mr. Cardin.
    Mr. CARDIN. Thank you, Mr. Chairman. I would ask unanimous 
consent if I could yield my time to the gentleman from New 
Jersey, Mr. Payne, who is not a Member of our Committee, but he 
is a person who has a great deal of interest in this subject, 
and a distinguished Member of Congress.
    Mr. PAYNE. Thank you very much. I appreciate your yielding 
the time, and thank the Chairman for allowing me to ask a few 
questions.
    I would just like to once again ask Reverend Thomas how he 
feels that the weight gain could happen? What was the amount of 
weight totally gained by the--how much--about 50 pounds, when 
together they weighed--it is probably about half of the amount 
of weight that they were when they were discovered? You said 
you think that they are doing abnormal things, when we have 
heard the prosecutor and Mr. Ryan say they are simply being 
fed.
    Reverend THOMAS. Mr. Payne, I didn't mean abnormal things. 
I am saying these children have fluctuated in their weight 
before. These children have never received 24-hour, around-the-
clock care to put on weight. Anyone would put on weight. I 
would really like, with the indulgence of the Committee, to 
have a little snippet of that video shown.
    Mr. PAYNE. I only have 5 minutes, and I know we don't have 
time, Mr. Chairman. Let me just ask you another question. It 
seems like it is normal that people have three meals a day, and 
so you are saying now that because they are concentrating on 
gaining weight, that something different is being done. It 
seems to me they are getting three meals a day, which every 
child is supposed to get. That doesn't seem abnormal.
    I am also kind of shocked, too. We look to the church for 
leadership, and I know that evidently you have a nice place in 
your heart for the parents, but you make the children, the 
victims, seem like the perpetrators. The way you describe 
Bruce, you make him like he is a criminal. He would do these 
horrible things, and all the focus is on the victim. It is 
unbelievable.
    I have triplet grandchildren, and they are 5 years old, and 
I just cannot believe that somebody's children weighed less 
than them. It is almost impossible. I don't see how a person of 
the church--and I really respect the church, but I remember it 
sounds like some of the missionaries back in the Belgium Congo 
in 1890 when they went and treated in a paternalistic way 
people--it incenses me that a person of the cloth could sit 
there and defend people who are wrong. They are wrong. There is 
no question about the fact. These parents are wrong. These 
children are victims. You turned the children around, as a man 
of the Bible, to say that there is something wrong with these 
abnormal children. It is absolutely wrong. When we have people 
making excuses for wrong people, we are going nowhere in this 
society.
    In our town of Newark, where this young boy, 7-year-old 
Faheem Williams, was found dead in the basement, not one single 
person in the church, not one single public official, came out 
in defense of this horrible parent who allowed a child to die 
and to leave them in a box in the basement of a place.
    When you are wrong, you are wrong. For us to continually 
make excuses for wrongdoing is wrong. We are as wrong as the 
parents when we make excuses for people that there is no 
question that something was done wrong here; that these 
children were not fed. Why would a kid be out at 2 a.m. anyway?
    How can you defend a child being out at 2 a.m., being heard 
by a neighbor, being picked up by the police, if this is such a 
great church-going good family? It is absolutely ludicrous.
    Reverend THOMAS. May I respond?
    Mr. PAYNE. No, I don't want a response. I yield back the 
balance of my time.
    Reverend THOMAS. That is very unfair, sir.
    Chairman HERGER. I will allow Reverend Thomas a short 
response.
    Reverend THOMAS. Yes. In all due respect to Mr. Payne, we 
are dealing with allegations that are extremely serious against 
this family, and the truth must come out, allegations such as 
they never went to eat in a restaurant. I have pictures here of 
them. The prosecutor has many more pictures of them at Disney 
and other places.
    We are not out to make any of the children look bad, but 
there are untruths that have been told that has made this 
entire family look bad, has split this family up. I am with the 
birth children, and I would like to see the children. I have a 
pastoral responsibility to see the children, and I have not 
been able to get to see the children. I have been told that I 
am not allowed at this point to pursue it any further, 
basically to just--we will call you back when we want to call 
you back.
    These children, there is no truth to these allegations. I 
can be called a liar. I have nothing personal to gain. I am 
simply their pastor. I am not elected to any office. I have 
nothing else. I am just telling you these people are innocent, 
and I am telling you they had three meals a day, they ate like 
everyone else, and there are some serious difficulties with 
these children that have absolutely--they have had to deal 
with, and they have had very little support in that whole 
thing. So, I really believe that you at least should see the 
children on that video.
    Mr. CARDIN. Mr. Chairman, before we adjourn, if I could 
have 30 seconds?
    Chairman HERGER. The gentleman from Maryland is recognized.
    Mr. CARDIN. Just to reflect, and thank you for holding this 
hearing. It is somewhat painful, but I think it is important 
that we have a record of what happened in New Jersey. New 
Jersey is not alone. In Miami a young girl was missing for 15 
months before anyone knew that she was missing. In Pennsylvania 
a young girl 3 years old died after allegedly being beaten and 
starved to death by a woman and a boyfriend just a day after a 
social worker visited. So, this is not a unique circumstance.
    Ms. Lowry, keep up your good work. Mr. Ryan, I am glad to 
see you are independent and giving a voice in New Jersey. Keep 
up your work. People are listening. We have to change the 
system.
    Chairman HERGER. I thank the gentleman from Maryland. I 
would like to just conclude, and I want to thank each of our 
witnesses. I want to conclude by rephrasing just a bit the 
question that I started with, and I have to say that in my 17 
years in Congress, this is the most alarming issue, the most 
alarming hearing that I have sat in as a father of nine.
    When we look at the fact that Bruce had gained 18 pounds 
and now weighs 63 pounds, and this is over a period of 24 days, 
Keith had gained 16.5 pounds and now weighs 56.5 pounds, Tyrone 
had gained 11.6 pounds, now weighs 39.6 pounds, and Michael had 
gained 9 pounds and now weighs 32 pounds, my original question 
to each of you was based on what you know--and the purpose of 
this Committee was to get those who are closest to this issue 
in New Jersey to come before this Committee so we would be able 
to get the facts out so that we could move forward, and it 
appears that we will be moving forward with further hearings on 
what we can do to help prevent something like this from ever 
happening again. My original question was your personal 
opinion, as an answer yes or no, were the Jackson boys abused.
    I think I would like to rephrase that. Now, in this, what 
is it, less than a month period of time that the boys have been 
out of this home, are these boys better off now than they were 
before--and if I could just ask in your opinions, and that is 
all they are, whether they are or not better off after this 
hearing?
    Ms. MAGUIRE. Well, they are certainly in a safe environment 
now, and they are gaining weight. I think that is indicative of 
the answer, Representative.
    Mr. RYAN. Representative, they are healthier, and they are 
on the road to recovery, but this is not a happily ever-after 
story. These boys and their sisters have seen their family 
implode, and these boys and their sisters are separated now. 
One boy is in one facility, two others in another, the fourth 
boy is in another facility, the sisters are somewhere else. One 
can only characterize that as tragic.
    We would all do well, I think, to think about how these 
systems can work to strengthen families and support them so 
that at the end of the day families don't implode, parents 
aren't charged with these sorts of crimes, and children aren't 
left languishing and starving. This is really a failure that 
these children will have to live with for a very long time.
    Chairman HERGER. Mr. Sarubbi.
    Mr. SARUBBI. I think clearly they are, from a physical as 
well as a psychological standpoint, but I have to echo Mr. 
Ryan's statements in that these boys have so many hurdles to 
overcome over the next several years. They are entering a very 
critical period in their rehabilitation in terms of their 
ability to grow to be somewhat normal height. Tests will 
continue to be run. If their growth plates are closed, there is 
not a good chance that they will grow to within normal ranges 
for children their age.
    So, they are coming to a very difficult time, and I think 
that is complicated by the fact that they have been separated 
from what they have known for so many years, however horrible 
it may have been.
    Chairman HERGER. Reverend Thomas.
    Reverend THOMAS. Just to preface my remark, the night--or 
the day that the children were taken from the home, and I went 
to the home as a pastoral visit and was there to give support 
to the family, they were devastated. They were crying. They 
were in terrible shape. Raymond turned to me and he said, 
perhaps what will come out of this is that Bruce will get the 
kind of help that he needs. That is where we are. Any help that 
can be given to these children, anything that can make their 
health and strength better, of course we are in favor of that.
    Chairman HERGER. Good. Ms. Katz.
    Ms. KATZ. I have two kids, and as much as they fight, I 
think that one of the most horrible things that we could do to 
them would be to separate them. I would have to echo what Kevin 
said. I think that as healthy as these boys may be becoming, it 
is tragic, and we need to find the ways to stop these things 
from happening before we get here, because there is no good 
outcome here.
    Chairman HERGER. Thank you. Ms. Lowry.
    Ms. LOWRY. I think there is very little question that these 
children have been permanently and irrevocably damaged. 
Although they may physically get better, they have been 
deprived of a chance for a real family that they can grow up 
with, and I think it is very hard to put them back together 
again.
    Chairman HERGER. Well, I want to thank you. Again, I want 
to thank each of you for your testimony. It has provided useful 
information for us to consider as we assess this case and its 
implications in subsequent hearings and discussions. Our goal 
is to ensure the safety of all children, and we appreciate your 
help to that end.
    Mr. FOLEY. Mr. Chairman?
    Chairman HERGER. The gentleman from Florida.
    Mr. FOLEY. May I ask unanimous consent to include in the 
record the blue ribbon panel report of Florida?
    Chairman HERGER. Without objection, so ordered.
    [The information is being retained in the Committee files.]
    Chairman HERGER. With that, this hearing stands adjourned.
    [Whereupon, at 12:27 p.m., the hearing was adjourned.]
    [Questions submitted from Chairman Herger to Mr. Ryan and 
Ms. Maguire, and their answers follow:]

           Questions from Chairman Wally Herger to Kevin Ryan

Question: I understand doctors have seen the boys since they were 
removed from this home.

    a.  Can you share with us their professional medical evaluations of 
the boys' condition and any ailments or physical disorders they might 
have? (For example, it has been alleged the boys suffer from everything 
from fetal alcohol syndrome, to being crack babies, to--in Rev. Thomas' 
testimony--``rumination.'' Is that true?)
    b.  Have the doctors offered any type of prognosis for their 
recovery?
    c.  What should all this tell us about claims that the boys 
suffered from eating disorders that resulted in their being so severely 
malnourished?

    Answer: (a) With respect to the boys' medical conditions and any 
ailments or physical disorders that they might have, my office has done 
three things: (i) we have subpoenaed medical records from the three 
medical providers that were referenced in their case files, including: 
CAMCare Health Corp., Our Lady of Lourdes Medical Center and Voorhees 
Pediatric Rehabilitation Hospital; (ii) we have requested an 
independent medical review of this information from two pediatricians, 
in order to glean a fuller understanding of their medical conditions 
and treatment since October of this year when they were removed from 
the Jackson home; and (iii) we are awaiting the reports on each of the 
boys from Dr. Marita Lind, the treating pediatrician under contract 
with the Division of Youth and Family Services (DYFS) who has had the 
most regular and comprehensive contact with them.

    (b) We know that a variety of medical professionals, including but 
not limited to, pediatricians, endocrinologists and dentists have 
examined the boys since October. In light of their varying medical 
conditions, growth stages and ages, we anticipate a fuller 
understanding of the prognosis for recovery for each boy, once we 
review the individual medical reports. We expect to receive this 
information in the next week or so.

    (c) Dr. Lind's comprehensive report on each boy should help 
explain, at least in part, whether claims that the boys had suffered 
from eating disorders that led to their severe malnourished states, 
were in fact true. What is indisputable, however, is that, to date, the 
boys have gained both height and weight and, to my knowledge, have been 
administered nothing other than a normal diet and vitamins.

Question: What specifically in this case has led you to begin your own 
investigation? I understand that you are working with the prosecutor's 
office as you move forward. What do you intend to do as part of your 
own investigation? Do you anticipate making recommendations for how New 
Jersey could improve its child welfare system based on the findings of 
your case? (In addition to answering these questions, I encourage you 
to share such findings or recommendations with the Subcommittee when 
they are available.)

    Answer: Approximately 9 pm on October 24, 2003, I received a call 
from a high-ranking official at the Department of Human Services (DHS), 
which first alerted me to the facts surrounding the Jackson's home, 
that four boys had been removed from that home in severely malnourished 
states, and that the Camden County prosecutor was planning the next day 
to conduct a press conference announcing criminal charges against the 
parents for aggravated assault and endangering the welfare of a child 
(in this case, the four Jackson boys). That call prompted my office to 
begin an investigation into the Jackson matter which includes, but is 
not limited to, an in depth inquiry into the systems that serve 
children in the care and custody of the State, and the factors that 
permitted the Jackson boys' deteriorated medical conditions to persist 
virtually unchecked.
    As you are aware, my office was created by statute in September 
2003 and, among other things, is charged with identifying systemic 
problems with the various entities, public or private in New Jersey, 
that serve children. Having taken office just one week prior to the 
call from DHS on the evening of October 24th, the Jackson case served 
as a catalyst for my office to begin its inquiry into the child welfare 
system that apparently failed these boys.
    As I mentioned earlier, we do anticipate making recommendations for 
how New Jersey could improve its child welfare system, based upon our 
findings, and will gladly share that report with you. We recognize, 
however, that the Jackson case provided just a small snapshot of the 
entirety of the problems facing New Jersey's system, and are cognizant 
of the enormity of the task of creating real and lasting reform. To 
that end, you should know that New Jersey is facing a January 18th 
deadline with which it must comply as part of a lawsuit settlement with 
Children's Rights, Inc. The very simplified significance of that date 
is that DHS must present an independent panel of five experts its plan 
for comprehensive reform of the child welfare system, which the panel 
will evaluate and ultimately accept or reject.

Question: Do you have any data about other children in foster care or 
who have been adopted from foster care in New Jersey who have fetal 
alcohol syndrome? For example, do we know if any of them suffer from 
the sort of malnutrition evident in this case? What does that suggest 
about this case?

    Answer: We have not made a specific inquiry about data concerning 
other children either in foster care or who have been adopted from 
foster care, who have fetal alcohol syndrome (FAS), and have therefore 
not necessarily linked malnutrition to this factor. Examining FAS as an 
independent and early identifier of future complications for foster 
children may be an idea worth considering, however, in the Jackson 
case, I have not yet seen evidence that necessarily draws this 
conclusion. Indeed, it appears at this juncture that proper nutrition 
and consistent medical attention might have averted many of the boys' 
problematic health issues. Again, the medical reports should be helpful 
in this regard.

Question: How much Federal and State money did the family receive in 
the form of maintenance payments to support the children? Is there any 
evidence suggesting what those funds were spent on?

    Answer: On average, the Jackson family received approximately 
$4,800 annually in the form of subsidy payments for each child. Half of 
that money is provided by the Federal Government; the other half by the 
state. Other than a per diem clothing allowance calculated as part of 
each child's subsidy, there is no requirement, reporting or otherwise, 
that the funds be spent in any particular manner for the children's 
care.

                               __________

        Questions from Chairman Wally Herger to Colleen Maguire

Question: You state in your testimony (page 4) ``it has been documented 
that none of these boys had seen a doctor in at least five years.''

    a.  First, how is this documented?
    b.  Second, even if we accept the parents' claims that the boys 
suffered from eating disorders, and that is the explanation behind 
their size and weight, doesn't the absence of medical attention for 
that long in and of itself amount to neglect?

Answer:
    a.  Documentation: The four boys were all enrolled in New Jersey 
Medicaid, which is a component of the adoption subsidy program. 
According to initial Medicaid claim history, there is no documentation 
of any claims for any of the boys for almost 5 years. Further, there is 
no evidence that the boys received medical care from any provider not 
affiliated with the Medicaid subsystem. No provider has come forward; 
nor have the parents provided anyone with the name of any provider. 
Information provided by the Camden County Prosecutor indicates that 
Mrs. Jackson admitted that she has not taken these boys to a doctor for 
the past five years. However, the Department of Human Services (DHS) is 
continuing to review all of this information.
    b.  Does this constitute neglect? The failure to provide children 
who have medical problems with appropriate medical treatment does 
constitute child neglect under New Jersey law. New Jersey law requires 
any person who has reason to suspect that a child is being abused or 
neglected to make a report to the Division of Youth and Family Services 
(DYFS). The report would then be investigated. In this situation, no 
report was made until the night that Bruce was observed eating from a 
neighbor's trash.

Question: What is the boys' long-term medical prognosis? Are they going 
to be regularly seen by doctors? Will they receive specialized medical 
care? How will you ensure that occurs?

    Answer: The prognosis of the two younger boys is that we expect 
them to make a full recovery, whereas the two older boys have more 
significant obstacles to overcome and therefore have a more guarded 
prognosis. All of the boys are still undergoing testing to assist in 
fully understanding the medical implications of their health issues.
    Each of the boys will be receiving specialized medical/dental care 
as determined by their individual needs. All four boys are receiving 
weekly in home/hospital visits by a nutritionist who is working in 
coordination with them, their primary care physicians and their foster 
parents.
    The children remain under the care of the NJ Division of Youth and 
Family Services (DYFS) which will continue to monitor their medical 
care. A senior level administrator in the DYFS' Southern Regional 
Office is coordinating all of the issues related to this situation. A 
physician and medical consultant are reviewing their medical needs and 
care, and assisting in coordination. Also, plans for the boys are being 
reviewed by the Family Court.

Question: Ms. Lowry's testimony states that her review of this case 
finds:

    ``A failure to adequately conduct a safety assessment on behalf of 
the child in foster care who was placed with (the Jacksons)--an 
assessment which should have included an evaluation of the home 
environment and any and all health and safety issues affecting all 
children in the home. Had such a complete assessment been conducted, 
the terrible circumstances under which the four adopted boys were 
living would have become obvious. None of this happened, however--why 
not.''
    What does the safety assessment require? What aspects of the house 
and the family are examined? Why did this safety assessment not happen? 
Do you have any doubt that if a proper assessment had occurred, that 
not only would the female foster child not have been placed in this 
household, but the State would have taken action to protect the boys as 
well?

    Answer: Effective June 2, 2003, the NJ Division of Youth and Family 
Services initiated a safety assessment of all children in out of home 
placement. The process was subsequently modified effective August 18, 
2003, to provide casework staff with additional information about the 
foster home. This initiative concluded on October 23, 2003. For 
children placed in adoptive homes, a Placement Assessment format was 
utilized which was originally developed to guide adoption decision-
making concerning permanent placement with an appropriate family. This 
process, guided by a series of questions, solicits information about 
the care the child is receiving, how the family understands and is able 
to meet the youngster's needs, his/her safety in the home, and the 
family's ability and commitment to raise the child to majority.
    The Placement Assessment (which was conducted on the foster child 
in the Jackson home) is divided into six sections. These include:

    <bullet>  An initial face sheet containing identifying information, 
any allegations of abuse/neglect, or criminal record of all adults 
residing in the home, and any waivers previously granted.
    <bullet>  Child Issues--information obtained about an individual 
child. This information includes an assessment of any special needs; 
observations of the child, their clothing, their living space and 
incorporation into the family unit; the child's perceptions of family 
members, discipline methods and other family member relationships; 
status of birth siblings; child's placement history; dates and findings 
of last medical and dental exams and the status of the child's life 
book.
    <bullet>  Family issues--information to be obtained about the 
foster/pre-adoptive family. This asks for a list of each individual 
residing in the home and a description of their role within the family. 
Any special care needs of the child in question are to be recorded, as 
well as how those needs are being met and by whom. Other information 
requested is the age and health status of the parents; an assessment of 
the stability of their relationship and their individual feelings about 
the child; family member interaction; integration of the child into the 
family unit; parent perceptions of the child's current and future 
needs; disciplinary methods; support systems; and prior parenting 
experiences.
    <bullet>  Physical space issues--an assessment of the living and 
sleeping space and housekeeping, health and life safety standards.
    <bullet>  Collateral contacts--documentation of contacts with 
doctors, schools, therapists or other service providers, and an 
exploration of any difficulty that the foster family had in handling 
other children and how they resolved those difficulties.
    <bullet>  Final assessment--This section is completed by the 
caseworker and supervisor about the child's needs and the family's 
ability to meet them, the child's safety and adoption status. The date 
of the final supervisory conference is documented and the approval/
disapproval of the foster parent adoption plan.

    As you will note, this is a very comprehensive review, and it was 
this protocol that was completed on the foster child in June 2003. The 
conclusion reached was that the foster child was safe and receiving 
adequate care in the home. The questions related to other family 
members focused on the other children in the home only as they related 
to the prospective foster home adoption plan.
    The completion of a thorough assessment at that time should have 
initiated an immediate investigation concerning the care of all of the 
children in the home, leading to protective actions on their behalf. 
Although the foster child was placed in the Jackson home in August 
1999, which predates the implementation of New Jersey's safety 
assessment process and the adoption office's placement assessment 
process, ongoing assessment activities should have uncovered these 
problems, leading staff to take appropriate actions.

Question: What concerns me about this case is what might have happened 
to the children in this house if the neighbor had not called the police 
last night. It was the police and the neighbor who immediately realized 
that something about this boy was not right, not the numerous 
caseworkers who had visited this house. Add to that the point Ms. Lowry 
makes in her testimony about how over one in ten foster care children 
in New Jersey are abused and neglected in foster care. That's a 
startling statistic. What is your department doing to ensure that there 
are no additional children who are currently being neglected while in 
foster care and whose neglect is unnoticed by caseworkers?
    Some of the facts about the house and the family that are being 
uncovered raise some concerns. The electricity had been off for 6 
months. The family was behind in their rent and had recently received 
assistance from their church to help pay some bills. The father was 
unemployed.

    a.  Why would this information not raise concerns with a 
caseworker?
    b.  Are the State's protocols for assessing a child's current 
living arrangement designed to find out this type of information?
    c.  Are you considering changes to capture this information?

    Answer: As noted in the information in question #3, caseworkers are 
required to routinely gather and assess information about a wide range 
of child/family issues. In this case, clearly the lack of electricity 
is a concern that should have been identified and addressed.
    Since the state is concerned about this issue, DYFS has taken a 
number of steps to strengthen our processes. First, licensing for 
foster parents has already been revised to require that every family 
member be seen before a foster home license is granted or renewed.
    Second, following the state-wide initiative to ensure that each 
child in substitute care was safe, on October 23, 2003, DYFS 
implemented procedures to assure that the safety of each child placed 
into substitute care by the agency is assessed on a continuous, ongoing 
basis. New protocols were developed to facilitate the policy. This 
activity is unique to New Jersey. We believe that no other state child 
protective service agency in the nation has developed a tool and 
implemented procedures to assess the safety of children placed in 
substitute care, including home-like settings and congregate care 
facilities.
    NJ policy specifies that a child's safety in foster care will be 
assessed, and thus assured, at the following set intervals:

    <bullet>  Within five (5) work days of the agency first placing a 
child into substitute care. The child safety assessment is conducted 
during the agency's first visit to the foster home after placing the 
child.
    <bullet>  Within five (5) work days of moving/re-placing a child 
into a new foster home. The child safety assessment is conducted during 
the agency's first visit to the foster home after placing the child 
there.
    <bullet>  When investigating a child protective services allegation 
regarding a foster home.
    <bullet>  Every 6 months, when the agency prepares case recording 
documents.
    <bullet>  Child safety may be reassessed at any other time, when 
appropriate and as necessary, to assess the safety of one or more 
children residing in the substitute care home.

    Agency Caseworkers, Supervisors, Managers and Administrators make 
the decision whether additional child safety assessments need to be 
conducted on a case-by-case basis, based on the circumstances of the 
child.
    Procedures followed by agency field staff for assessing child 
safety in a foster home include:

    <bullet>  Interview the child in private.
    <bullet>  Observe other children in the home, including birth 
children and other foster children.
    <bullet>  Observe the physical condition of the home to determine 
whether there are any apparent safety hazards or life-safety concerns 
present.
    <bullet>  See the child's room and assure the child has a bed.
    <bullet>  Determine whether the child's physical needs are being 
met. (Is the home clean? Is there an adequate supply of food for the 
children? Are the utilities operational--heat, running water, 
electricity?)
    <bullet>  If the household has a pet(s), ask to see the animal and 
assure that it does not pose a danger to children.
    <bullet>  Interview the foster parents. Ascertain how the child is 
adjusting to the home and substitute care family.
    <bullet>  Observe interactions between the various members of the 
household.
    <bullet>  Confirm the names and relationships of all adults and all 
children currently residing in the home; obtain identifying information 
about any other persons residing in the home. If other adults reside in 
the home, find out who they are, and whether they have a role in caring 
for the foster child.
    <bullet>  Return to the home/conduct a follow-up field contact if 
an adult or a child household member is not at home during the agency's 
field visit.
    <bullet>  Take prompt action if a child is found to be in danger in 
the foster home. Develop and implement a plan to assure the child's 
immediate safety; remove the child, if necessary.
    <bullet>  Notify the State's Office of Licensing and the DYFS 
regional foster home unit if there is a concern about the physical 
structure of the foster home, or a violation of standards. Life/safety 
concerns are addressed immediately.

    Third, there will be another safety assessment review of 
approximately 5,000 children placed in substitute care settings. We 
anticipate utilizing community providers, who will receive specialized 
training for this process. This will commence in January 2004.
    Beyond the above efforts to assess safety in foster homes, DYFS is 
requiring staff to identify and assess safety concerns including such 
basic factors as working utilities, appliances and adequate food. These 
include a continued roll-out of our Structured Decision Making program 
which will include new tools and training for all casework staff. To 
support an overall improvement in case practice, the state is hiring 
additional supervisors and case practice specialists, which will 
provide casework staff with greater support with their decisionmaking.

Question: Is it unusual for families to survive solely on foster care 
and adoption payments, as apparently was the case in the Jackson 
family? Do you know what share of all cases does so? Does that raise 
any red flags with your office? How about when a parent is laid off? 
Does that affect anything with the case?

    Answer: As part of the assessment process, foster and adoptive 
parent applicants are required to document that they have financial 
resources to support themselves, separate from any board payments 
provided by the state to assist them in the care of the child(ren). 
Further, they are required to notify DYFS if their financial 
circumstances have changed. Currently, once the home receives its 
initial foster home license, income monitoring does not occur. However, 
once an issue is identified that may affect the safety or welfare of a 
foster child, there is an expectation that it be appropriately 
addressed, up to and including the removal of the child(ren) and 
closure of the home.
    Adoption subsidy is more complicated. Documentation of adequate 
financial resources is required during the assessment process. Families 
are currently required to sign Subsidized Adoption Annual Renewal 
Agreements that indicate they continue to provide financial support for 
the child. We do not have information on the number of adoptive 
families where subsidy has been the only source of income. However, 
just as with birth parents, the state's current authority in adoption 
matters is very limited as it relates to on-going monitoring of issues 
such as income. We are looking into ways to strengthen our ability to 
monitor adoption subsidy payments.
    As a result of this matter, there will be a complete review of the 
state's licensing process for foster parents and the adoption subsidy 
policy. As previously noted, in areas where system weaknesses have been 
identified, these will be strengthened.

Question: Your testimony (page 4) states ``there is some indication 
that the boys may have had medical issues prior to adoption.''

    a.  What does this mean?
    b.  What specifically did your department know about the medical 
condition of the boys when they were originally placed in foster care 
with the Jacksons?
    c.  I can only assume that if the boys suffered from fetal alcohol 
syndrome, which has been alleged and which is known at birth, that that 
condition was known to caseworkers. Is that true?
    d.  What were the Jacksons told?
    e.  Were the Jacksons instructed to provide regular medical care, 
including doctor visits for the boys?
    f.  Obviously, no one followed up to check on their medical 
conditions. Should that have happened in this case, under your 
protocols? How about other cases?

    Answer: The closed DYFS records for the four boys indicate that 
each of these youngsters had significant medical issues before coming 
to live with the Jackson family. It also appears that there were 
indications before the boys were adopted, that their medical conditions 
were not resolving.
    While the children were followed at a local pediatric clinic, it 
does not appear that any alarms were raised about their condition, 
although two of the boys had at best, minimal weight gain, and for two 
of the children there was a loss of weight. In the fall of 1996, three 
of the children were seen by a specialist. The physician indicated that 
the children had medical conditions but no instructions were given to 
the parents that anything should be done differently.
    The Jacksons were given extensive medical and social histories for 
all of the children. The parents were present for a medical evaluation 
for two of the boys in 1996 and discussed the medical conditions of the 
children with the pediatrician. Both boys were adopted on March 14, 
1997.
    We expect that adoptive parents understand and are prepared to meet 
all of the needs of the children they are adopting, including medical 
and dental care. When a child is being adopted, the adoptive parents 
are told that they are now responsible for meeting all of the child's 
needs just as they would be for a child born to them. Because the 
family had been very cooperative and involved in the children's medical 
appointments prior to adoption, there was no suspicion that they would 
not continue to do so after adopting the boys. It is unfortunate that 
no referrals were made to the division by the hospital clinic where 
they were treated for a number of years when these children stopped 
coming for medical care after the adoption finalizations.
    Once the adoption is finalized, there is no protocol to monitor 
that children receiving adoption subsidy are receiving appropriate 
medical treatment. However, this issue is under review as we look to 
strengthen our adoption subsidy program.

Question: The purpose of this hearing was to review in detail what went 
wrong in this case, and what that means. Let me turn this around. Based 
on what we know now, what should have happened?

    a.  When should your department have acted?
    b.  Should these boys have been placed with this foster family in 
the first place?
    c.  Should they have been allowed to adopt them?
    d.  I want to know at what point the system broke down and started 
doing things that in retrospect shouldn't have happened. And based on 
that, what changes have you made or plan to make so that similar 
breakdowns don't happen in the future?

    Answer: From all collateral reports, the Jackson family appeared to 
be doing very well with their first foster child, and the case record 
documents his progress. This is most likely why other children, 
seemingly having somewhat similar problems, were placed with them. The 
extensive court reports completed at the time of adoption for each of 
these boys are extremely positive. The family is portrayed in very 
glowing terms, and the medical issues are noted as being successfully 
addressed. Because it probably didn't happen all at once, it is 
difficult to say from a safety perspective just when DYFS should have 
acted.
    This case illustrates that, in our efforts to effect a permanent 
plan for a child, we often turn to the same individuals and families 
who previously answered our call to accept a child who needed a home 
and family. While these families are to be applauded, we all must 
recognize that the more they extend themselves, the more that they need 
the on-going support of family, community, and government.
    This case also illustrated weaknesses in our systems and practices. 
We have already made a number of changes, such as requiring that 
licensing see every member of the household, instituting safety 
assessments for children in out-of-home care, and implementing new 
Structured Decision Making training in February 2004. We will make 
other adjustments as further investigation and review of ``best case 
practices'' are conducted.
    [Submissions for the record follow:]

    Statement of Douglas H. Reiniger, American Academy of Adoption 
                     Attorneys, New York, New York

    The American Academy of Adoption Attorneys is a non-profit 
association of attorneys, judges, and law professors from around the 
country and Canada. It is dedicated to the study and improvement of 
adoption laws and practice standards. The members of the Academy 
represent adoptive parents, birth parents, adoption agencies and others 
involved in adoptions. The Academy supports policies that help make 
adoptions more available, less bureaucratic, and more clearly in the 
best interests of all concerned, particularly the children. One of the 
Academy's primary missions is to support the rights of children to live 
in safe, permanent homes with loving families.
    My purpose in submitting this statement today is to assure the 
Members of this Committee and of Congress that they need not have 
second thoughts about the wisdom or the good effects of the Adoption 
and Safe Families Act of 1997 (ASFA) or other Federal legislation which 
encourages the movement of children from foster care into permanent 
homes just because of the occurrence of isolated cases like the tragic 
one reported in New Jersey recently.
    The members of the Academy have seen the paradigm shift that the 
Adoption and Safe Families Act has spurred in child welfare departments 
and courts across the country. Our members can attest that ASFA has 
been a great success. By including adoption as a permanency goal in 
child dependency cases and by providing a financial incentive for 
increases in the number of adoptions, Congress has successfully focused 
state attention on the important role adoption can play in finding 
children safe, happy, and permanent homes.
    Members of the Academy are directly involved in adoption related 
cases every day, in every state, and I can assure you that situations 
like the one in New Jersey are aberrations. The facts of the New Jersey 
case are still coming out, but it appears clear that it had no 
relationship to the incentives or procedures created by ASFA, since the 
adoption of the boys involved appears to have occurred before ASFA was 
implemented. The overriding requirement of all the Federal government's 
statutes and programs which encourage the states not to let children 
languish in foster care is that the health and safety of the children 
should be the paramount concern.
    Federal incentives to adopt are not the cause of tragedies like the 
one in New Jersey. We should not ignore the fact that there are poor 
prospects for parenthood and child abusers out there, but AFSA has not 
failed to address those concerns. The Adoption and Safe Families Act 
has requirements for criminal record checks of prospective foster or 
adoptive parents, provisions for risk assessment tools, and an 
insistence that the best interests of the children must be forefront in 
all decisions affecting them. The array of safeguards built into this 
effort to help children find permanent, loving homes is formidable. 
However, even the best designed programs are implemented by people who 
can be fallible and every government program has benefited from 
applying the lessons learned from implementing it.
    Based on the experience of our members in the child welfare 
trenches, the Academy has previously given Congress recommendations for 
improving the implementation of various aspects of ASFA, including the 
Adoption Incentive Program. But, in response to Chairman Herger's 
question about how to prevent another case like the one in New Jersey 
from occurring, what I would add to those recommendations is improved 
recruitment, training, and supervision of child welfare staff and 
oversight, oversight, and more oversight. This hearing is a good 
example of letting everyone in the child welfare process know that 
Congress cares about how this program works and is watching to insure 
compliance with its directives.

                                 <F-dash>

             Statement of Jeanne M. Beebe, Pueblo, Colorado

    I have read about the case in New Jersey where a family adopted 
multiple times, receiving subsidies for their adopted children, yet 
provided awful living conditions. This is a very sad case, but it is 
also an unusual one, in my experience.
    I have 3 children, all special needs adoptions with subsidies of 
varying amounts. I am involved in local adoption support groups in my 
area of Colorado and am well informed regarding adoption issues. I also 
meet many other adoptive families. It has been my experience that 
adoptive families, some of which are receiving subsidies and some of 
which are not, are as a rule providing superior care to their children. 
Adoptive families are families by choice, whereas often biological 
families are not. Adoptive families are usually more aware of special 
needs issues and resources, whereas biological families often are 
unable to identify or effectively obtain help when trying to cope with 
special needs. I am making generalizations here, but I think it needs 
to be recognized that, by and large, families who step forward to adopt 
special needs children are usually very special people. Many are also 
very grateful to be able to adopt a child, including one with special 
needs, because they may not be able to have biological children and yet 
may not be able to afford to pay the high fees charged for private 
adoptions. And this brings me to the subsidy part.
    Children with special needs very often require services that 
require funds above and beyond basic medical care. I will use my own 
family as an example. My husband and I adopted because we were unable 
to have biological children. We also sat on a private adoption waiting 
list for an extended period. We were then told by the adoption agency 
that they could place a child with us immediately if we were willing to 
accept the risk involved with pre-existing psychological damage, as 
well as the substantial risk that he might be returned to his birth 
family. In short, we would have to be his foster parents with no rights 
to him at all, providing all the while the healing and love to repair 
the brokeness in his little heart, transporting him to twice weekly 
visits to his birth family, having caseworkers come through our home 
twice monthly, and knowing that the courts might return him at any time 
to the home that had damaged him. We said yes. We endured 2 years of 
this legal limbo, all the while coping with his attachment disorder, 
before we were able to adopt him. We received a subsidy of $590/month.
    Our next 2 children were a severely drug-exposed infant and a 
troubled teen. All 3 of these children require a lot of parenting. 
Children like these cannot be placed in daycare while both parents 
return to work. I was a professional RN Quality Improvement Manager, 
but I gave all of it up to provide the care my children require. They 
and my husband are the great loves of my life. And there is simply no 
way I could have continued not to work and give them everything they 
needed if we had not received adoption subsidies. That's just reality. 
These are not the kinds of children who can be latch-key kids. The 2 
with attachment problems need a parent who is not absent for long 
periods. The drug-exposed child, even now at age 3, can't tolerate long 
periods of exposure to excess stimulation, as would be present in a 
daycare center.
    I urge you to consider the larger picture when thinking about and 
discussing the issue of adoption subsidies. The children need them. The 
adoptive parents who cope with damage birth parents often created need 
them in order to provide the healing that the children must have to 
become whole. And society needs them, because without this wholeness, 
these children will not become productive members of our world.

                                 <F-dash>

         Statement of Shirley and Robert Bell, Aurora, Colorado

    We are a middle class family that live in a nice community with 
some of the best schools. My husband and I have worked for most of our 
lives. We intend to work up until retirement for our own security. We 
are very capable of taking care of ourselves. Adoption subsidies 
allowed us to adopt and continue to care for a sibling group of 2 
children. It takes care of daycare that otherwise we could not afford. 
With clothes, school supplies, activities, food, entertainment, 
vacations and time lost from work with sick children, school 
conferences, suspensions, doctors, dentist, vision, and therapy 
appointments, it would be more than we could afford. Also as the 
children get older their needs start to change. Not to mention the 
emotional draining aspect of it all. We hope to adopt other children in 
the future. The adoption subsidy allows us to consider moving other 
children from the system into a healthy, nurturing environment. With 
direct parental guidance we can possibly keep them from bringing up 
children without the knowledge, skills and education on how to provide 
for them. Without adoption subsidy we couldn't consider the possibly of 
adoption. This would reduce the amount of children being placed in 
healthy loving homes and receiving the attention and care that every 
child deserves.

                                 <F-dash>

            Statement of the Child Welfare League of America

    The Child Welfare League of America (CWLA) welcomes this 
opportunity to offer testimony on behalf of our 1,000 public and 
private nonprofit child-serving member agencies nationwide for the 
hearing on the ``Recent Failure to Protect Child Safety'' focusing on 
the recent tragic case in Camden County, New Jersey. We share with this 
Subcommittee a desire to ensure that we can work together to prevent 
other children from enduring such horrible abuse.
    It has been nearly two weeks since the Nation has learned of some 
of the details surrounding the New Jersey family that had adopted six 
children. The image of a child--indeed a young man--rummaging through a 
trash can to find food is both sad and appalling. It easily causes us 
to ask the question how could this happen and, more importantly, to ask 
how can we make sure that this never happens again.
Adoption Is an Important Permanency Option
    It is important to begin with a reminder that adoption is a very 
important permanency option for some children. Although the majority of 
children in foster care are able to be safely reunited with their 
families (in 2001, 263,000 children exited foster care, and 57% 
returned to their birth parents or primary caregivers), adoption is a 
very important option for those children who cannot safely return to 
their families. Adoption for these children can be their best chance 
for safety and security.
    Research has shown that adoption produces good outcomes for 
children. A study in 1994 on special-needs adoptive families indicated 
that most outcomes, in particular, school performance, family 
functioning, and parents' reports of the adoption's impact are 
distinctly positive.\1\ Another study on postadoption experience 
indicated that placements were very stable with approximately 97% of 
parents reporting that the adoptive children were still living in the 
home at the time of the survey up to two years later. In addition, this 
study reported positive outcomes not just for the children but the 
parents involved.\2\
---------------------------------------------------------------------------
    \1\ ``A Longitudinal Study of Special Needs Adoptive Families'' by 
James A. Rosenthal and Victor K. Groze, Child Welfare, 1994.
    \2\ ``The Postadoption Experience: Child, Parent and Family 
Predictors of Family Adjustment to Adoption,'' by Thomas P. McDonald, 
Jennifer R. Propp, and Kimberlee C. Murphy, Child Welfare, January-
February 2001.
---------------------------------------------------------------------------
    The numbers of legalized adoptions from foster care have increased 
since the passage of the Adoption and Safe Families Act in 1997. 
Nationally, adoptions have increased 37% from 37,059 in 1998 to 50,950 
in 2002. In the last three years, these national figures have remained 
relatively stable.

Existing Federal Supports for Adoptions from Foster Care
    Federal policy recognizes the importance of adoption of children 
from foster care and supports such adoptions in several ways. The 
primary support is the Title IV-E Adoption Assistance Program. That 
program provides subsidies to families who adopt children with special 
needs (as defined by the state) from foster care. In FY 2003, federal 
funding for that program was $1.6 billion. That federal program had 
increased its level of support from serving 34,698 children in 1988 to 
195,243 in average monthly claims in 1999.
    Since the passage of the Adoption and Safe Families Act in 1997, 
the federal government has also provided states with incentive payments 
for every child adopted above the previous year's level. On October 8, 
2003, by voice vote, the House of Representatives extended an 
authorization of $43 million per year for those incentive payments 
through 2008. Current funding for these federal payments to states is 
$42.7 million.
    Since 1981 adoptive families have also been supported with a 
federal tax credit. Currently, families who adopt children from foster 
care are eligible to receive a federal adoption tax credit of $10,000 
per child.
    The current federal supports in place to support adoption are 
important and should continue, however, more needs to be done. Despite 
the strides that have taken place to promote adoptions, the need 
continues: The number of children in foster care waiting to be adopted 
in 2001 was 126,000. Approximately 59% of these children were living in 
nonrelative foster homes. The average age of these children was 8.3 
years.\3\
---------------------------------------------------------------------------
    \3\ AFCARS report, Preliminary FY 2001 Estimates March 2003, U.S. 
Department of Health and Human Services, the Administration for 
Children and Families, Children's Bureau.
---------------------------------------------------------------------------
    The need for foster and adoptive families continues to grow. Many 
states are instituting expedited permanency planning systems that seek 
to place foster children with resource families who will eventually 
become the adoptive parents. Despite this trend, the need for unrelated 
adoptive families has not diminished; there continue to be waiting 
children. Renewed efforts must be made to recruit and retain well-
qualified foster and adoptive families.

Federal Supports for Other Permanency Options
    In addition to adoption, there are a number of other permanency 
options that are desirable and good for children. First and foremost is 
the option of keeping children safely at home with their families. 
Family support and preservation strategies are not always associated 
with permanency planning, yet they should be the first consideration in 
our efforts to ensure permanency for children. Primary prevention 
services can prevent many families from ever reaching the point where a 
child is removed from the home. Family support, home visiting, and in-
home services enable many parents to gain competence and confidence in 
their parenting while addressing other family concerns. Child care, 
housing, and job training/employment are services that enable families 
to stay together to the fullest extent possible. These and other 
preventive services need to be much more available to families early on 
as well as when a crisis occurs. Currently, the federal government 
provides only limited support for prevention and family support 
services. Too often, these programs must compete with other human 
services programs for scarce federal resources.
    For children who are away from their families, in family foster 
care, or in residential care, the preferred option is that of 
reunifying children with their families, whenever that can be done 
safely. Forty-three percent (239,552) of children in care on September 
30, 2000, had a case plan goal of reunification with their parents or 
other principal caregiver whereas 57% (157,712) of the children who 
exited care during FY 2000 returned to their parent's or caregiver's 
home.\4\ Successful permanency through reunification requires many 
things, but at a minimum, skilled workers, readily available support 
and treatment resources, clear expectations and service plans, and 
excellent collaboration across involved agencies. There also is a 
critical need for aftercare or post permanency services to ensure that 
safety and permanency are maintained following reunification.
---------------------------------------------------------------------------
    \4\ The AFCARS Report: Interim FY 2000 estimates as of August 2002.
---------------------------------------------------------------------------
    Finally, guardianship with relatives or, in special circumstances, 
with foster parents or another caring adult can be a positive 
permanency outcome for children. Kinship care, when properly assessed 
and supported, has been shown to provide safe and stable care for 
children who remain with or return to their families.\5\ Twenty-five 
percent of children in care are living with relatives, and some of the 
children will not be able to return to their parents.\6\ States vary in 
their use of kinship guardianship, even though federal regulations 
state that there is a preference for relative placements.
---------------------------------------------------------------------------
    \5\ Benedict, M.I., Zuravin, S., & Stallings, R.Y. (1996). Adult 
functioning of children who lived in kin versus non-relative family 
foster homes. Child Welfare, 75 (5), 529-549; Berrick, J.D., Barth, 
R.P., Needell, B. (1994), A comparison of kinship foster homes and 
foster family homes. Implications for kinship foster care as family 
preservation. Children and Youth Services Review, 16 (1-2), 33-63.
    \6\ U.S. Children's Bureau. (2002).
---------------------------------------------------------------------------
    In all these efforts, we must resist--on a national level--the 
temptation to see any one program or option as the answer for all 
children or any one child. If maintaining the child at home or 
reunifying the child with parents is not possible, the remaining 
options should be pursued on a case-by-case basis, weighing the 
strengths and risks of each option for a particular child and family.
CWLA's Observations About New Jersey's Child Welfare System
    The CWLA has been engaged in a series of practice improvement 
projects with the New Jersey Division of Youth and Family Services 
(DYFS) over the last several years. These activities have ranged from 
broad-based planning efforts to highly targeted assessment of direct 
case practice.
    DYFS has made a consistent and conscientious effort to evaluate the 
scope of its programs and to assess the quality of its direct services. 
It has developed generally sound plans, has sought both community and 
legislative support for implementation, and has initiated many program 
improvements.
    Despite the ongoing effort, the division has not been fully able to 
implement its plans and has continued to struggle in achieving a 
consistent standard of practice in all of its field offices. The 
practice issues faced by DYFS are similar to those that CWLA sees in 
other public child welfare systems that are confronted with resource 
shortages, larger than recommended caseloads, and ongoing staff 
turnover.
    In recent reviews of DYFS case records, CWLA has observed practice 
weaknesses that are similar to those seen in other jurisdictions and 
are consistent with inadequate investment of caseworker time in 
individual cases and lack of internal review and oversight. Concerns 
have included such issues as:

    <bullet>  Case records may not be well organized, making it 
difficult to follow the family, and child, progress over time.
    <bullet>  The basis for case decisions frequently is undocumented 
or lacking clarity.
    <bullet>  The results of investigations of alleged abuse in 
placement settings are not documented in a location easily identified 
or accessible.
    <bullet>  Application of policy may be uneven among the various 
district offices.
    <bullet>  Case narratives and other documents suggest that 
caseworkers make efforts to obtain services needed by a child. However, 
the outcomes of the services or utilization patterns are not clearly 
documented.
    <bullet>  Supervisory oversight of casework activities is not 
clearly documented.
    <bullet>  Case plans appear to be developed within appropriate time 
frames. However, they are sometimes missing from case records.

    CWLA's experience in New Jersey has revealed a microcosm of many of 
the serious problems that confront child welfare systems throughout the 
United States. Inadequate staffing levels coupled with staff turnover, 
at both the front line and state office levels, have made it difficult 
to implement what might otherwise be sound plans for reform and 
improvement. The need to respond to continuing crises has distracted 
the agency's staff and has worked against orderly and sustained 
implementation of new practices. The system is most in need of a 
consistent, long-term commitment to support well-trained, well-
supervised staff who are provided with the tools to implement the 
established standards of sound child welfare practice that DYFS has 
recognized in its own plans.

 Workforce Supports Are a Fundamental Building Block to an Improved 
        Child Welfare System
    We know that the majority of child welfare workers are dedicated 
with a commitment to helping children and families. We also know that 
child welfare workers do not have the necessary supports and tools to 
protect children under their care.
    No issue has a greater effect on the capacity of the child welfare 
system to effectively serve vulnerable children and families than the 
shortage of a competent and stable workforce and the adherence to 
national service and caseload standards. As more information on this 
particular case in New Jersey is revealed, we are likely to learn that 
high caseloads, inadequate supervision and inadequate training 
contributed to this tragedy.
    Initial information from the New Jersey case indicates that 
adoption workers are operating with a caseload that is well beyond what 
is considered good practice. The CWLA Standards of Excellence for 
Adoption Services (2000) recommend a caseload of 10-12 children per 
social worker preparing children for adoption who are older or who have 
special needs and supporting the children and families following 
placement.
    The challenges facing the child welfare workforce are not unique in 
New Jersey and are well documented in a March 2003 U.S. General 
Accounting Office (GAO) report entitled HHS Could Play a Greater Role 
in Helping Child Welfare Agencies Recruit and Retain Staff (GAO-03-
357). The report found that the child welfare system is seriously 
understaffed, undertrained and undervalued. The GAO report found that 
workforce problems limit state's ability to meet the goals established 
in the newly mandated federal Child and Family Service Reviews (CFSR). 
The report found that ``our analysis of the 27 available CFSR's 
corroborates caseworkers' experiences showing that staff shortages, 
high caseloads and worker turnover were factors impeding progress 
toward the achievement of federal safety and permanency outcomes.'' \7\
---------------------------------------------------------------------------
    \7\ HHS Could Play a Greater Role in Helping Child Welfare Agencies 
Recruit and Retain Staff. General Accounting Office, March 2003.
---------------------------------------------------------------------------
    The GAO report also found:

    <bullet>  Workforce issues were cited by one-third of the 27 states 
reviewed as a barrier to caseworkers maintaining diligent efforts to 
provide services to families in order to protect children in the home 
and to prevent removal.
    <bullet>  Another one-third of the states reported that workforce 
issues meant that caseworkers had difficulty finalizing adoptions with 
appropriate and timely efforts.
    <bullet>  Twelve states reviewed reported that they had problems 
with their caseworkers adequately monitoring safety and well-being 
through frequent visits with children, focusing on case planning, the 
delivery of services, and reaching goals for the family.
    <bullet>  All 27 states reviewed reported problems providing 
adequate training and necessary staff development to reach the goals of 
safety and permanency set forth in the CFSR.\8\
---------------------------------------------------------------------------
    \8\ Ibid.

    Recent evidence from the federal CFSRs and the Program Improvement 
Plans (PIP) submitted by states to U.S. Department of Health and Human 
Services (HHS) present a clear picture of how workforce issues impact 
outcomes for children. The federal government has found through this 
process, designed to measure the performance of state child welfare 
systems, that states need additional workforce supports to make the 
improvements required to meet the needs of children and families. More 
than half of the states that have submitted a PIP to HHS have addressed 
the need to improve workforce training, reduce caseloads, improve 
management, and provide better supervision.
    The bottom line is that child welfare work is labor intensive. 
Workers must be able to engage families through face-to-face contacts, 
assess the safety and well-being of children, monitor progress, assure 
that essential services and supports are provided, and assist with 
problems that may develop. This cannot be done if workers are unable to 
spend quality time with children, families, and caregivers.
    State budget decisions have contributed to the reductions in the 
child welfare workforce even though caseloads continue to climb. State 
cutbacks in workforce, whether direct cuts or hiring freezes, as well 
as reductions in training opportunities, undermine states' ability to 
guarantee a competent and stable workforce and increases the caseload 
burden on the remaining child welfare workforce. CWLA recently 
conducted a survey of state budget decisions. The findings of that 
survey revealed that:

    <bullet>  Virtually every state has developed spending or reduction 
plans for their child welfare agencies over the past three years. Forty 
states reported formal spending reduction plans and two states reported 
informal plans. The average annual percentage cut is approximately 8%, 
with a range of 3% to over 20%.
    <bullet>  States have made significant reductions in staffing and 
services within their own agencies. Nearly half have reduced staff 
training, tuition/education reimbursement, and other professional 
development/continuing education.
    <bullet>  Although New Jersey experienced a $30 million cumulative 
increase in the budget for the Office of Children's Services in FY 2003 
and 2004, including an exemption of front-line child protection workers 
from the state's hiring freeze and a re-focus on protection and 
permanency, New Jersey's baseline budget and the cumulative increase 
were still insufficient to guarantee an adequate workforce and to 
restrict caseloads to CWLA's recommended standards.

    Although the issue of supporting a child welfare workforce defies a 
simple solution, we do know that providing staff the right supports, 
including training and a manageable caseload, will result in better 
outcomes for our most vulnerable children. This can only be 
accomplished with greater financial investments by both the states and 
the federal government.

 Comprehensive Reform of Nation's Child Welfare System Is Needed to 
        Ensure Children Are Protected
    CWLA recognizes that the child welfare system, as currently 
constructed, cannot protect all children adequately. Failures occur. 
They are not limited to any single state. These failures to protect 
children will continue to occur until we put into place a comprehensive 
child protection system.
    This tragic case in New Jersey does bring into focus the need for a 
renewed national commitment to support abused and neglected children 
and underscores the urgency of that reform. We are overdue in 
implementing an improved and strengthened system. True child welfare 
reform will hinge on an improved system of shared financing 
responsibilities among federal, state, local, and tribal governments.
    The national child welfare system continues to be in need of:

    <bullet>  A reliable, responsive, and predictable method of 
guaranteed funding, for a full range of essential services, as well as 
placement and treatment services.
    <bullet>  A means of maintaining consistent focus on safety, 
permanency, and well-being as outcomes for children.
    <bullet>  Rigorous standards combined with strong federal and state 
accountability mechanisms.
    <bullet>  Recruitment and support of adequately trained child 
welfare professionals, foster and adoptive parents, mentors, and 
community volunteers.
    <bullet>  Resources that enable parents to provide adequate 
protection and care for their own children.

Conclusion
    This recent case in New Jersey is another reminder that we need to 
do better to care for our most vulnerable children. CWLA believes that 
important and necessary reforms must be enacted to ensure a consistent 
level of safety and care for all of America's children. We look forward 
to working with this subcommittee to develop a comprehensive child 
welfare reform proposal that meets all the needs of America's most 
vulnerable children and families and ensures that every child is 
protected.

                                 <F-dash>

        Statement of Kathleen Dooley Polcha, New York, New York

    As a child welfare professional with 32 years of experience I fully 
support and encourage the continued focus of ASFA in it's goal of 
securing a more timely permanent home for children. In the past 
children remained in ``temporary'' situations far too long, some 
children were never returned to family members or adopted and they were 
discharged from foster care only to become homeless or involved in 
criminal behavior.
    Children need families who are mature, loving, non-judgmental and 
accepting of the child who may have been the victim of physical/
emotional/sexual abuse. These children require services to address 
those very issues that resulted in their being removed from their 
families, and to accept the loss of their family and the adoption. Pre-
adoptive preparation of both the child and family are vital to a 
successful placement and post-adoptive services are vital to the 
support of the children and their adoptive families who will experience 
problems over the course of time as a very natural expression of the 
child's feeling secure in the home and sharing (either verbally or 
through acting out) some of the anger/rage/confusion/hurt over their 
past in both their birth homes and other foster home placements.
    There are many families who adopt children and receive subsidy, 
these families do not ``live off the backs'' of the children, rather, 
use the financial support to adequately care for those children. As in 
all life situations, there are some people who do a very poor job and 
misuse the funding, and sadly, abuse the children. Post-adoptive 
services are a necessary component to support ALL families and children 
adopted though the Nation's foster care system. Adequate funding is 
essential.

                                 <F-dash>

                               Evan B. Donaldson Adoption Institute
                                          New York, New York, 10005
                                                   October 31, 2003

The Honorable Wally Herger
Chair, Human Resources Subcommittee
Committee on Ways and Means
U.S. House of Representatives
1102 Longworth House Office Building
Washington, D.C. 20515

Dear Chairman Herger:

    The Evan B. Donaldson Adoption Institute is submitting the attached 
commentary that I wrote on the recent New Jersey abuse case and foster 
care adoption (published in the October 30, 2003 edition of the Los 
Angeles Times) to help inform the discussion during the Subcommittee on 
Human Resources' November 6, 2003 hearing on child safety.
    The Adoption Institute is one of the pre-eminent policy, research 
and education organizations in its field; because it is independent of 
any interest group, the Institute has long been a source of accurate, 
unbiased information for policymakers, journalists, researchers and 
professionals. Attached please find a fact sheet about the Institute 
and its programs. I am the author of ``Adoption Nation: How the 
Adoption Revolution is Transforming America'' and have received a 
Congressional Coalition on Adoption Institute Angel of Adoption award.
    I appreciate the opportunity to submit my commentary for the record 
and distribution at the hearing. If you have any questions, please feel 
free to contact me at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7c1d0c190e08111d123c1d18130c0815131215120f08150809081952130e1b">[email&#160;protected]</a> or at (617) 332-
8944.

            Sincerely,
                                                       Adam Pertman
                                                 Executive Director
                               __________
Copyright, Los Angeles Times, 2003

COMMENTARY
                  Adoption Horrors Blur the Real Story
By Adam Pertman
October 30, 2003

    Once again, an adoption horror story is in the headlines. And, once 
again, we are learning less than we think we are.
    This time the spotlight is on New Jersey, where Raymond and Vanessa 
Jackson have been criminally charged with starving the four sons they 
adopted from the State's foster care system. The boys, now aged 8 to 
19, evidently lived on pancake batter, peanut butter and plaster 
wallboard; the heaviest of them weighed less than 50 pounds when they 
were removed from their home October 10.
    Everyone who listens to talk radio, watches TV news or reads the 
paper knows these gory details, and also knows a few more things: that 
the foster-care system in New Jersey, as in many other States, is badly 
in need of repair; that children in the system generally have special 
needs; and, as reported in Wednesday's New York Times, that ``some 
State officials and child welfare experts'' worry that federal 
financial incentives meant to help kids get permanent homes instead may 
be ``transforming adoption into an extended form of foster care and a 
possible peril to children.''
    Based on available research and personal experience, I think all 
those observations are accurate--as far as they go. The problem is they 
do not go far enough or provide sufficient perspective. Even in the 
worst foster-care systems, good things are happening every day; many 
children are being reunited with newly healthy biological families, and 
a growing number of kids are being adopted by loving parents who treat 
them well. Yes, the boys and girls in public care are there because 
they suffered from abuse and neglect and they may bear painful physical 
or psychological scars as a result, but the unambiguous evidence from a 
multitude of studies is that those who are adopted improve and thrive 
far more readily than they would have if they had remained in the 
system.
    Similarly, federal financial incentives intended to increase the 
number of adoptions from foster care--which come in the form of annual 
payments to the States--evidently have led some child welfare officials 
to lower their standards for adoptive parents in order to get the 
money. And state subsidies intended to pay for special-needs children's 
care have lured some people to adopt in order to get the cash. But 
there is no indication that horrors such as the one in New Jersey are 
being repeated with any regularity elsewhere, though nearly every state 
has received federal incentives and thousands of parents have received 
state subsidies.
    I am not minimizing the tragedy unfolding in New Jersey or 
defending any system that does less than everything humanly possible to 
protect the children within it. But we live in a society in which 
nearly every program that helps children in need receives insufficient 
resources; in which well-intentioned quick fixes like federal 
incentives replace (rather than augment) thoughtful, long-term 
solutions such as post-adoption services; and in which people like the 
Jacksons can fuel our worst stereotypes about adoptive parents, about 
the children they raise and about adoption itself.
    Alas, we have not learned as much as we think we have. That's 
certainly true of the ``State officials and child welfare experts'' who 
told the New York Times that adoption itself is at risk of becoming a 
``peril for children.'' Such thinking stigmatizes millions of Americans 
for whom adoption is a positive, everyday reality. Worse, suggesting 
that foster children may be endangered if placed in adoptive homes 
undermines their prospects for the future and robs them of one of the 
few treasures they have: hope.

Adam Pertman is the Executive Director of the Evan B. Donaldson 
Adoption Institute, and is the author of ``Adoption Nation'' (Basic 
Books, 2000).

                                 <F-dash>

  Statement of William Haffner-Jones, Ph.D., Middletown, Rhode Island

BACKGROUND:
    I'm a certified teacher, age 56. I've worked with children one-on-
one for 30+ years. I paid for much of my college education working for 
the Iowa State Auditor's Office. I ``grew up'' in a domestic relations 
court, and my father was a prominent attorney. I served in the military 
at USMA, West Point.
    In Colorado, I was the ``mark'' in an illegal adoption scheme; my 
foster son was ``bait.'' I made more than 20 trips to court to 
extricate him from the system--that's how I acquired the information on 
these pages. There's much more where that came from, if you are 
interested.
FOCUS:
    The following changes need to be made in our foster-care system:

    1.  Adequate fiscal controls, including ``performance audits,'' 
must be instituted, to ensure that money intended to help the children 
is not passed ``under the table'' to keep them in the system.
    2.  ``Middle men,'' i.e. foster-care agencies, must be eliminated. 
They take more than two-thirds of every foster-care dollar, and do 
almost nothing to earn it. Worse yet, they insulate child abusers in 
the system from investigation and prosecution; and they enable State 
and municipal departments of social services to distance themselves 
from abuse when it occurs.
    3.  Confidentiality Laws must be repealed. The federal government 
should withhold federal funds from states which do not repeal these 
antiquated laws. When these laws were passed, the unfortunate histories 
of children in foster care were disturbing and shocking. Their 
histories are no longer shocking--they are the stuff of nightly TV 
drama. Confidentiality Laws no longer protect children; the only people 
being protected today by Confidentiality Laws are child abusers in the 
system.
    4.  The position of Inspector General at D.H.S. must be removed 
from the political arena. The recent spectacle involving the Rehnquists 
only gave a free hand to those who would abuse the system and its 
children.

                               __________

Re: CHILD ABUSE IN FOSTER CARE

Why do grotesque cases of child abuse occur within this nation's 
foster-care system?

Read how it happens:

    Foster care money is approximately 55% federal and 45% state. The 
average combined expenditure per foster child, per month, is roughly 
$3,000. But normal foster parents receive only about one-sixth of this; 
if medical expenses, therapy, and other special needs of the child are 
added in, then another 10 to 15 percent of the total amount benefits 
the child in one way or another. The remainder, roughly $2,000 per 
month for each foster child, goes to a private agency (read ``middle-
man'') for supposedly overseeing the foster parents.
    This money is tax free! And all that some of these agencies do to 
earn that $2,000 per child, per month, is place a few pieces of paper 
in a file folder. None of these agencies come anywhere close to 
providing services that are worth the money being paid.
    Federal rules allow that any foster home with four or more children 
(this includes ``natural born'' children) can qualify as an ``agency,'' 
and receive the larger amount (c. $3,000 per month for each foster 
child) instead of the lesser amount (c. $500 per month) normal foster 
parents receive.
    What happens to all this money? Nobody knows, because ``performance 
audits'' or ``compliance audits,'' designed to ensure that tax dollars 
are spent for what is intended, are never conducted--not by the U.S. 
Department of Human Services, not by the General Accounting Office, not 
by the state auditors, nor by state social services. If audits are done 
at all, they do nothing but confirm arithmetic on a bunch of financial 
statements. They are meaningless in terms of ensuring quality care for 
the children.
    So what happens to the money? As a former state auditor, I can tell 
you that a share of it goes ``under the table,'' in cash, to 
caseworkers, supervisors, therapists, and even judges, to look the 
other way when abuse occurs within the system. This is a systemic 
problem which needlessly imprisons thousands of children in our foster-
care system.
    How do these people get away with it, time after time, year after 
year? Why did it take two weeks for the current scandal to hit the 
media, even after it was uncovered? Here is the sad truth: The actions 
of people in the system are hidden by Confidentiality Laws--laws which 
are supposed to protect the children, but which, in fact, protect no 
one but child abusers in the system. At best these laws are antiquated; 
at worst, it is doubtful they should have ever been passed. Easy money, 
combined with protection from prosecution, actually attracts criminals 
into our foster-care system.
    An old saying goes, ``The measure of a society is how it treats its 
weakest members.'' There is no one weaker in any society than its 
homeless children. We don't seem to be ``measuring up'' right now!

                                 <F-dash>

             Statement of Joyce Hanson, Littleton, Colorado

    I appreciate the opportunity to communicate with you via e-mail. As 
an adoptive parent, I am truly horrified and deeply hurt over the 
incidence of brutal child abuse uncovered this past week in New Jersey. 
Sadly enough, even with the greatest efforts to ensure the safety of 
our children, this type of incidence will occasionally come to be. The 
sad truth is that these incidents happen in both adoptive and 
biological families as well.
    As an adoptive parent, I can speak for my husband and myself in 
stating that in adopting our daughter Jessica, we did so out of wanting 
to give her the best life and the best chance of a great life that she 
could have.
    We personally adopted Jessica while we were living in South Africa 
for several years. When we returned to the United States, we obviously 
brought Jessica (and our son) back with us. We therefore receive no 
subsidy (nor are we presently qualified according to the law). I would 
like to speak, though, through our own experiences with Jessica's 
special needs getting her the adequate help is so very vital! She 
presently is in private therapy and gets help in her school because of 
an IEP. If we were receiving subsidy for her, I can honestly say that 
we would need it very much in order to ensure Jessica a better life. 
Our daughter has attachment disorder because of being abandoned during 
the first year of life, has bi-polar disorder as well as fetal alcohol 
effect (she operates with an IQ of 73). Trying to ``make it'' as a 13-
year-old girl is so difficult for her because of the mistakes of her 
birth mother, as well as fighting a mental illness.
    Jessica is one of many who are like her. I ask that any efforts to 
``cut back'' on subsidy to adoptive families not be continued. On 
behalf of our children, they desperately need all of the avenues 
available to them.
    Thank you for reading this letter. . . . I pray that such an 
incident will be extremely isolated so that those of us who are 
seriously and lovingly trying to do the best for our children can 
continue to do so.

                                 <F-dash>

 Statement of J. Michael Smith, Home School Legal Defense Association, 
                         Purcellville, Virginia

    I am the President of the Home School Legal Defense Association 
(HSLDA), a homeschool advocacy organization with over 80,000 member 
families. For over 20 years, HSLDA has represented homeschooling 
families in the courts and in the legislatures. At times, these matters 
have included the allegation that homeschooling families are committing 
abuse. Fortunately, these matters are very rarely substantiated. I 
commend the Committee for undertaking this hearing. However, I do take 
issue with the testimony of one of the witnesses and its implications.
    In her written testimony, Carla Katz, the President of the 
Communications Workers of America, the union representing social 
workers in New Jersey, stated that ``Home schooling creates gaps. 
Nearly 20% of all abuse cases are reported by schools. When children 
are outside the school system, extra protections are critical. There 
are no homeschooling regulations that would require home-schooled 
children to see anyone from the public education system. There is no 
cross-referencing with the Department of Education to look for children 
who are in the `system' but have not been seen by anyone.''
    Katz's testimony comes on the heal of a two-part CBS News story 
called ``The Dark Side of Home Schooling'' and ``Home School 
Nightmares,'' and was recently echoed in a similar New York Times 
editorial calling for additional regulation of homeschools (November 
15, 2003). I submit that these calls for additional involvement of 
homeschooling families with the public schools are in error.
    The mistaken idea behind these calls for new regulation is the 
notion that it is the role of the public school to detect child abuse. 
While this undoubtedly occurs, and I am thankful it does, the truth is 
that the detection of child abuse is not the purpose of public 
education as declared by the courts. The purpose of public education is 
to promote literacy and self-sufficiency. Wisconsin v. Yoder 406 U.S. 
205 (1972). It is for this reason that it has been held that a state 
may not require all students to participate in the public school 
system. Pierce v. Society of Sisters 268 U.S. 510 (1925) (children are 
not ``mere creatures of the state''). It continues to be the 
presumption in America that parents act in the best interests of 
children, even if there is the inherent risk that a very small 
percentage may abuse children. Parham v. J.R., 442 U.S. 584 (1979).
    The situation in New Jersey, at least as it would seem at this 
early stage, is a tragedy. But to suggest that the reason why these 
four allegedly abused boys were not identified by authorities is 
because they were being homeschooled would also be a tragedy, as 
nothing could be further from the truth. The fact is, this family was 
visited at least 38 times by government social workers, and as most 
recently as June. Nine employees of New Jersey Department of Youth and 
Family Services were fired for missing what should have been obvious. 
This case is not about homeschooling. If anything, it is about the 
failure of child protective services.
    Unfortunately, statements like that made by President Katz plant a 
seed in the public's mind that there is a link between home education 
and child abuse. Consequently, some people might actually believe it 
and use the anonymous tip procedures available to report homeschool 
families for abuse and neglect without any factual basis for doing so. 
Child Protective Services are obligated to follow-up these reports and 
homeschool families will face unwarranted harassment. This already 
happens all too frequently to families all across America. More 
importantly, real abuse will be missed because the system may be 
clogged with false reports.
    Homeschooling meets the educational needs of 2 million children and 
is the safest environment to teach children to become mature productive 
adults. It deserves fairer treatment.

                                 <F-dash>

               Statement of Bette Hoxie, Old Town, Maine

    I am writing to inform you of how saddened I was to learn of the 
horrible tragedy that occurred in an adoptive home in NJ. I want to 
share that I have adopted 8 children from the State of Maine and have 
fostered over 150. I maintain contact with over 30 former foster 
children and 4 of the children I fostered were never adopted but 
consider my home as theirs. I have 5 children still at home. Four are 
my adopted children and I am raising my grandson who is the child of 
one of my adult adopted children. All of my children have significant 
special needs. None of them were adopted because I got a subsidy but 
the subsidy allowed me to provide for them in a way that would not 
otherwise have been possible. All of my birth and adopted children 
continue to be on my holiday gift list and get birthday, new baby 
gifts, etc. At no time do I think of them as other than my children. 
The adopted children's babies are my grandchildren just as are those of 
my birth children. There are no subsidies for that kind of extended 
family observances. Subsidies stop when the child reaches maturity. 
Parenting goes on for a lifetime. Please keep this in mind as you 
advocate for continuation of adoption subsidies and post adoption 
services.

                                 <F-dash>

      Statement of Jamie and Lisa Kanos, New Port Richey, Florida

    We wanted to share that our family is in the process of adopting a 
2-year-old little girl who has Down Syndrome. We are adopting her 
through the State of Florida, where she has been in foster care since 
birth. We are a middle class family including a self-employed husband, 
stay-at-home mom, and three kids under the age of 7. It is our desire 
to give a home to several more hard-to-place children over time. We 
live very modestly and are homeschooling our children. Our financial 
situation is adequate and stable, but not affluent. Without subsidies, 
we may not be able to help more of Florida's special needs children 
find a forever family. We are equipped emotionally to provide a home to 
some special kids; subsidies make it possible. It's pretty unrealistic 
to think that the families who are willing to take on special needs 
children can also afford to pay for the extra expenses related to their 
care. We think that if there were no subsidies, there would be a lot of 
people who would love to help a child, but can't afford to. Please 
consider this while making your decision regarding the necessity of 
adoption subsidies. Thank you.

                                 <F-dash>

         Statement of Dorothy Kernaghan-Baez, Augusta, Georgia

    Situations similar to the recent case in New Jersey happen because 
families are investigated and persecuted for such things as 
breastfeeding an infant or for eating donuts for breakfast. Legitimate 
cases will continue to slip through the cracks as long as families are 
forced to deal with Mickey Mouse allegations that do not meet the 
statutory definition of child abuse. The problem is not a lack of 
resources, but a lack of judgment and common sense. If this nonsense is 
not stopped, children will continue to be harmed, and child abusers 
will continue to escape punishment.

                                 <F-dash>

           Statement of Jodee Kulp, Brooklyn Park, Minnesota

    In 1987 we adopted a toddler with fetal alcohol spectrum disorder 
(FASD). The brain damage this child was born with will never go away 
and she will need a continuum of care throughout her life. She was our 
foster child for 10 months before we adopted and we knew we were 
committed and loved her unconditionally. Her mother was deceased, she 
was a ward of the state. The adoption subsidy our family received has 
been used to provide her the best opportunities to a successful and 
productive adulthood. In many cases therapies these children need are 
not available with insurances so we have used these extra finances to 
provide nutritional supplements, neurotherapy, vision therapy and 
neurodevelopment therapy. I left a professional position to provide 
support and care, we spent five years homeschooling, providing one-to-
one teaching. The investment in this child by our family with the help 
of adoptive subsidy paid for by the citizens of the United States has 
paid off and we thank each of you. Our daughter qualifies for 
developmental disability and yet with hard work and belief in herself 
passed our Minnesota Standards exams in writing, reading and math. She 
is a public high school senior and will graduate this year. She has one 
mainstream class ``Economics'' and is getting a B- with limited 
supports, she is on the B honor roll with her transitional classes. We 
believe in her ``abilities'' and she advocates as an author and speaker 
for others with FASD as she struggles with her own issues. She will 
enter her 18th year as a proud American citizen ready to cast her 
votes. Thank you USA for your support of our family.

                                 <F-dash>

                                        Twin Bridges, Montana 59754
                                                   February 5, 2003

Dear Committee Members,

    My name is Christine Lambert. I live in Twin Bridges, Montana with 
my husband Glenn Brackett. We are the foster/adoptive parents of 4 
sibling children, 3 girls and a boy. I would like to tell you about our 
family and how the state of Montana and the U.S. Government has helped 
to make our children a success story.
    In 1994, my husband and I became foster parents to a sibling group 
of children from our area. They were ages 3-9 years. We adopted them in 
1997.
    We receive a monthly subsidy and Medicaid for their medical needs 
with our adoption. We could never have adopted without these two 
subsidies. We are an example of why, and how successful, these monetary 
payments are to adoptive and foster parents. It has made it possible 
for ordinary people, of limited income, to adopt children in desperate 
need. This was the original intent of the subsidies, and it works.
    All of our adopted children had been abused and neglected when they 
arrived on our doorstep. Our goal was to stop the pervasive loss in 
their lives and to stop the generations of abuse and neglect. To that 
end, we are seeing some success. Medicaid benefits pay for the therapy 
for all our children, two of which are diagnosed with mental illness. 
One hospital stay 2 years ago saved one daughter's life. Upon hitting 
puberty, she slipped into mental illness and was bent on destroying 
herself. She spent a year out of the home in various facilities, all 
paid for by Medicaid. This daughter is now doing remarkably well 
because of this help. She is home, back in regular school, and leading 
a full exciting life. She is in the PATH program in Helena, Montana 
that is paid for, in part, by Medicaid. Because of risky behavior 
exhibited by our son, he, too, will enter this program in a few weeks. 
Our youngest daughter, who has been violent since she began living with 
us, is finally learning to deal with her rage and the outlook for her 
recovery, while guarded, at least is now hopeful. We could not afford 
to treat one of our children's emotional and mental illnesses on our 
own, let alone 3 out of the four, and wonder what would have happened 
if we were without Medicaid's mental health benefits.
    Our oldest daughter, being in the birth home the longest 
experienced the most abuse. She struggled for many years with anger and 
resentment. For the first five years she was with us, whenever we would 
hug her, she would stiffen her arms at her side and dig her chin into 
our shoulders. She had no real friends and lived miserably in the small 
world of her siblings. Even with our best efforts, she really never had 
a childhood. But, we insisted she continue therapy, all paid for by 
Medicaid. About 3 years ago, she made a breakthrough and began to 
embrace us. Her life changed completely. She allowed herself to love us 
and to be loved in return. Soon, friends began to call, she was on the 
honor roll, and she began to have a healthy teen life. Therapy stopped. 
In January 2001, she applied for the highly competitive Congress-
Budenstag Scholarship to study abroad her senior year. She is only one 
of four Montana students, 300 nationwide, awarded this congressional 
scholarship in 2001. She studied in Germany as a youth ambassador of 
the U.S. Government, met and charmed Chancellor Schrader, and learned 
to speak German fluently. She is now attending college in Kansas and 
doing well. We are so very proud of her and you should be, too. This is 
exactly why these subsidies are in place, to make a difference in a 
child's life.
    When cuts are made in any funding, as they are in Montana, we 
personally feel it. We have to make decisions on what we can afford, 
not what the children really needed. In the case of mental health this 
could mean life or death.
    We have seen the positive results of your funding adoptions and ask 
you not to cut any of these programs. Our story is a shining example 
that adoption subsidies and Medicaid is changing the lives of abused 
and neglected children.

            Sincerely,

                                                  Christine Lambert

                                 <F-dash>

                                      National Council For Adoption
                                         Alexandria, Virginia 22314
                                                   November 6, 2003

Dear Chairman Herger and members of the Subcommittee:

    The National Council For Adoption submits this written statement on 
the subject of your November 6, 2003 hearing examining the ``recent 
failure to protect child safety'' in the highly publicized and horrific 
case of the Jackson family in New Jersey.
    According to the Census Bureau report, Adopted Children and 
Stepchildren: 2000, in the census year there were 2.1 million adopted 
children living with their parents in 1.7 million households, 1.6 
million of those children under the age of 18. Sadly, there are abusive 
adoptive families, just as there are abusive biological families. It is 
statistically predictable that in a population of 1.7 million 
households there would be some examples of horrendous abuse.
    According to reports, the Jackson children in New Jersey were 
subjected to inexcusable and hideous treatment. One case of the cruelty 
these children suffered is one too many. If proven guilty, the Jacksons 
and the officials who oversaw their adoptions should be punished 
severely. Unfortunately, child abuse and neglect is a tragic fact of 
life in some families, whether adoptive or biological.
    However, the National Council For Adoption cautions against leaping 
to dramatic new conclusions about adoption, or adoption policy, based 
on this aberrant case. Adoption is an extraordinarily successful social 
institution in promoting child welfare. It is indisputable that 
children adopted out of foster care fare better than those who languish 
there. Adopted children score higher than foster children on measures 
of family adjustment, emotional and developmental functioning, and 
self-esteem. They are more likely to attend college and less likely to 
abuse drugs. Adoption into their own family gives children security, 
well-being, and love that foster care cannot.
    One of the chief reasons adoption has been so successful in meeting 
the needs of children is that law and society have respected adoptive 
parents as the real parents and treated them essentially the same as 
biological parents. NCFA cautions against policies that impose 
requirements on adoptive parents that are not expected of biological 
parents, such as requiring adoptive parents to provide medical 
information and submit their child to post-adoption medical 
examinations. Adoptive parents are as attentive to their children's 
needs as biological parents. Congress should be very reticent to enact 
a policy that treats them differently. Treating them differently 
creates a second-class status for adoptive parenting, which would 
violate the best interests of the child.
    The time to examine adoptive parents' suitability as parents is 
prior to adoption. There are policies that Congress can promote to 
facilitate the recruitment and preparation of suitable adoptive 
parents: (1) flexible funding that allows states to apply their IV-E 
dollars to adoptive parent recruitment and preparation programs and to 
improved training and oversight of case workers; (2) full funding of 
the Promoting Safe and Stable Families program; and (3) promotion of 
the Children's Bureau's efforts to develop a national network of 
adoption advocacy programs to recruit parents from faith-based 
communities.
    Some in the media have used the Jackson case to call into question 
the highly successful Adoption Incentives program just reauthorized by 
Congress in the Adoption Promotion Act of 2003. If ever there was a 
federal program worthy of reauthorization it is this program, which was 
instrumental in increasing the number of children adopted out of foster 
care from 31,000 in 1997, to 51,000 in 2002. Thanks in major part to 
these incentives, an additional 90,000 children have been adopted out 
of foster care than would otherwise have been. They are now enjoying 
the benefits of loving, permanent families. We daresay that these 
children do not object to the Adoption Incentives program.
    The National Council For Adoption (NCFA) is a research, education, 
and advocacy nonprofit whose mission is to promote the well-being of 
children, birthparents, and adoptive families, by advocating for the 
positive option of adoption. Since its founding in 1980, NCFA has been 
a leader in promoting child welfare and adoption policies that promote 
adoptions of children out of foster care, present adoption as a 
positive option for women with unplanned pregnancies, reduce obstacles 
to transracial adoption, make adoption more affordable through the 
adoption tax credit, and facilitate intercountry adoptions.

            Respectfully submitted,

                                                   Thomas C. Atwood
                                                          President

                                 <F-dash>

Statement of Steven D. Cohen, New Jersey Child Welfare Panel, Trenton, 
                               New Jersey

    My name is Steven D. Cohen, and I am submitting this testimony on 
behalf of the New Jersey Child Welfare Panel, which I chair. As you 
know, the Panel is an independent body created by the settlement of 
class-action litigation against New Jersey's child welfare system. That 
settlement was reached this past June, and the Panel began its work in 
July. The panel has five members, who collectively bring to it many 
decades of experience in working with troubled child welfare systems 
and providing services to children and families. The other four members 
are Kathleen Feely, Managing Director of the Casey Strategic Consulting 
Group at the Annie E. Casey Foundation in Baltimore, MD; Robert L. 
Johnson, M.D., Professor and Chairman of the Department of Pediatrics 
at the University of Medicine and Dentistry of New Jersey in Newark, 
NJ; Judith Meltzer, Deputy Director of the Center for the Study of 
Social Policy in Washington, D.C.; and Beatriz Otero, Executive 
Director of the Calvary Bilingual Multicultural Learning Center in 
Washington, D.C.
    I would like to begin my testimony by describing the function 
assigned to the Panel by the settlement agreement. We have two primary 
tasks. The first of these is to provide technical assistance to New 
Jersey's child welfare leadership--to make available to them the 
knowledge gained through many years of work in states across the 
country, and to connect them with experts who can provide concrete 
assistance with the reform effort. Our second role involves oversight 
and monitoring--and, most critically, the responsibility to make 
judgments about the adequacy of New Jersey's progress towards critical 
improvement goals. In carrying out these functions, the Panel is 
responsible to the Federal District Court which authorized the 
settlement agreement.
    Let me explain our oversight responsibilities in greater detail. 
The lawsuit settlement recognized that, while some actions could be 
taken immediately to address critical deficiencies in New Jersey's 
child welfare system, many more would require a far longer time 
horizon. Changing troubled child welfare systems is a long-term 
proposition, and all too often we have seen efforts at quick fixes 
produce only greater cynicism and a sense of defeat as fundamental 
problems continue. The settlement therefore required New Jersey to 
develop a comprehensive reform plan, due in January 2004. That plan 
must address the underlying principles and the specific requirements 
set out in that agreement. The panel is then charged with the 
responsibility of approving or disapproving the plan. If it approves, 
the Panel will also set legally enforceable standards and timeframes 
for implementation. New Jersey's leaders will be responsible for 
implementing the plan, and the Panel will issue public reports every 
six months on the State's progress and on any further actions it 
believes necessary. If the Panel disapproves the plan, the parties 
return to court and go directly to the remedy phase of the lawsuit, and 
the judge will order the relief he believes necessary.
    I said earlier that there were some actions that could begin 
immediately, without waiting for the larger plan. The most important of 
these, as most of America knows by now, was an immediate review of the 
safety of some 12,000 children in out-of-home care. (Some of these 
reviews were completed even before the Panel was formed. Because some 
children left care and others entered during the four-month review 
period, the actual number of reviews conducted was closer to 14,000.) 
The failure of at least one of these reviews to identify appalling 
problems that should have been apparent has shocked the nation. Most 
immediately, it has led to plans, recently approved by the Panel, to 
re-do approximately 5,000 reviews, and to have this work done by social 
workers who do not work for State government.
    This subcommittee has taken up the question of what changes in 
public policy and financing would best prevent a terrible case like 
this from happening again. In framing the Panel's response to that 
question, let me begin with two reminders.
    First, New Jersey is not unique. Tragic lapses in the functioning 
of child welfare systems have occurred in states and counties across 
the country. Child welfare and child protection are immensely difficult 
public functions and they are in need of strengthening throughout the 
United States.
    Second, it did not take this horror to demonstrate that New 
Jersey's child welfare system has been for a significant period of time 
very badly broken. That issue was already clear from the Federal 
lawsuit, and Governor McGreevey acknowledged it in public on the day he 
announced the lawsuit settlement. The question that has been before the 
Panel for the last four months--what must New Jersey do to re-make this 
system so it keeps children safe and produces better outcomes for kids 
and families?--is the same question that we face today. The answers the 
Panel would give to that question are the same today as they were when 
we began our work.
    Let me mention some of the major elements of those answers, without 
attempting to be comprehensive. We know that the work to be done in New 
Jersey must include the development of, at least, the following 
resources and standards:

    <bullet>  practice standards that identify what workers and 
supervisors must do to investigate allegations of child abuse and 
neglect, better assess the needs of children and families, and assist 
children and families in getting the help they need;
    <bullet>  enough additional staff to substantially lower caseloads, 
so workers can devote enough time to each child and family to make a 
difference;
    <bullet>  far more extensive training, which concentrates on 
building the skills workers need to do their jobs rather than the forms 
they have to fill out;
    <bullet>  the recruitment of hundreds and perhaps thousands of 
additional dedicated foster and adoptive parents, drawn primarily from 
the communities from which most children come into foster care, so 
those children can remain near home and continue to attend the same 
school, and so the State can make placement decisions based on a 
child's need rather than a desperate search to find any available bed;
    <bullet>  much stronger supports for foster and adoptive parents, 
along with quality post-adoption services;
    <bullet>  enough additional financial resources to create far more 
services that work with families before they reach the breaking point, 
so more children can remain at home safely, without the trauma of 
removal from parents, and at far less cost than that of foster care;
    <bullet>  enough additional financial resources to develop far more 
treatment services for children in foster care and their families, 
particularly in mental health and substance abuse;
    <bullet>  far greater involvement of community partners, including 
neighborhood-based organizations, service providers, and faith 
communities, because no child welfare system can accomplish its goals 
on its own; and
    <bullet>  a vastly improved management information system that will 
allow supervisors and managers to track cases, intervene when there are 
problems, and track progress against the goals of the reform effort.

    Critical as they are, none of these actions will guarantee that a 
horror like that of the children in Collingswood will never happen 
again. I am confident, however, that they will make it far less 
likely--and I am confident that, without this long-term and 
comprehensive system reform, no other action, however well-intentioned, 
will have lasting benefits.
    Because of these beliefs, I will end my testimony by turning to 
issues on which I believe that this Subcommittee can make a real 
difference. Child welfare work is inherently very difficult. We ask 
ordinary men and women, working under conditions of great uncertainty, 
to make decisions with life-and-death consequences. This is something 
that no action by this subcommittee or any other government entity can 
change; it is an integral part of the work.
    The Subcommittee, can, however, play an important role in solving 
two other critical problems. First, we must address the unacceptable 
conditions under which most of America's child welfare workers do their 
jobs. Across the country, these workers are far too often poorly 
trained; far too often poorly supervised and supported as they make 
critical decisions; usually asked to manage caseloads that are far too 
large for even an expert and highly-organized worker to handle; 
generally paid too little to attract and retain a high-quality 
workforce; and all too rarely provided with access to the resources 
they need to meet the needs of the children and families they are asked 
to help. In New Jersey, the Federal court settlement will make it 
possible to begin to remedy these fundamental problems. The Congress 
has an urgent obligation to ensure that they are addressed nationwide.
    Second, we must address the quite understandable demoralization of 
the child welfare workforce and of many thousands of dedicated foster 
and adoptive parents. Child welfare professionals go into unknown 
situations in the middle of the night to investigate allegations of 
child abuse and neglect, and labor to reunify children safely with 
their families or to find them loving adoptive homes. Foster and 
adoptive parents perform the difficult and essential service of raising 
other people's children--even kids with serious handicaps and very 
challenging behavior. Both groups deserve the public's respect and 
support, not the easy condemnation and guilt by association that's all 
too common when there is a tragedy in foster care. But for too many of 
these individuals, the dreadful story that led to today's hearing is 
just the latest installment in a long history of having their 
contributions ignored by the public most of the time, and being held up 
to scorn and ridicule when something terrible happens and child welfare 
makes another brief appearance at the top of the evening news.
    Without enough good workers and enough good foster and adoptive 
parents, you can't have a good child welfare system. It's that simple. 
I urge this Committee to re-dedicate itself to the task of ensuring 
that Federal policy adequately funds the State-level activities that 
recruit, support, and train these individuals, and that Federal 
oversight appropriately monitors State activities in these critical 
areas. Thank you.

                                 <F-dash>

      Statement of Anna Marie O'Loughlin, Bloomingdale, New Jersey

    It has been very upsetting for me to read articles like the New 
York Times 10/30/02 ``Cash Incentives for Adoptions Seen as Risk to 
Some Children'' lately where the state is questioned about giving 
adoption subsidies.
    My husband and I adopted four children through the Division of 
Youth and Family Services since 1991 and they all came with Medicaid 
and subsidies. All of our children are considered special needs. I 
would like to share some stories with you about our first child, and 
then you tell me that subsidies are not important.
    My first child was adopted in 1991. He was 2\1/2\ when he came to 
live with us. He was born failure to thrive with multiple handicaps. 
The largest one being born with drug and alcohol withdrawals. When he 
was evaluated at the Hackensack Medical Center, the Neurologist stated 
that he has Chronic Brain Damage.
    My husband and I both worked and so the first three years we used 
his subsidy money toward the expense of a good day care that could meet 
the needs of a child who had learning disabilities. We had to hold him 
back from school an extra year because he was not ready to start at the 
age of five.
    He had to have eye surgery before he started first grade so that he 
was not made fun of his entire life because in order for him to stop 
his eyes from shaking and focus, he had to tilt his head to his 
shoulder. The subsidies and Medicaid helped my son to look like other 
children. It is cute looking at a toddler tilting his head when he 
looks at you, but not so cute when he is school aged. He would have 
been tormented. Even with the surgery he will never have 20/20 vision 
and glasses will only correct 15% of his damaged vision. The first six 
years he had to have regular visits to an eye specialist. The doctors 
said that they don't know the long-term effects for him, as their 
prediction was that he would get worse and might possibly not be able 
to drive at some point in his life.
    Three years ago he contracted perpetual hives. He spent over a year 
with hives some days from head to toe before he was diagnosed correctly 
by the fourth doctor we took him to. There were days the school wanted 
to send him home because it was painful for them to look at him, not 
because he couldn't function. Thanks to a good allergist, it is under 
control.
    Our son is ADHD with learning disabilities and will never be able 
to be age appropriate in his school work. He has very low self esteem 
in school and always says that he is in the retard classes. He has 
however been blessed with the ability to play sports well and become a 
good skier. He is mandated to have regular physicals to play in school 
and town sports. He must have blood work done to be sure his ADHD 
medication is working for him. He has had stages of counseling through 
the years to help with some of the issues that have come up. He has 
gotten himself in trouble because of some bad choices that he made 
because of his impulsivity due to his ADHD. A lawyer is very expensive 
in court.
    So if we choose to use his subsidy one month toward paying for a 
season's pass to ski or to be on the town football team because that is 
where he gets his self esteem I want to see anyone argue that it wasn't 
used for a good cause. His subsidies go toward many things including 
the co-pay for a good family doctor that doesn't take Medicaid as well 
as his monthly medications.
    My son has to live every day knowing that he has handicaps that 
most people will not accept because they cannot see them. Subsidies are 
important to families with children who have special needs. It gives 
them an additional support to do everything possible to make their 
child a success despite their physical and emotional handicaps.

                                 <F-dash>

Statement of the Honorable Bill Frenzel, Pew Commission on Children in 
                              Foster Care

    Mr. Chairman, members of the Subcommittee, I am Bill Frenzel, 
Chairman of the Pew Commission on Children in Foster Care. I commend 
you for calling this hearing. The tragic situation in New Jersey is 
illustrative of problems facing child welfare systems across the 
country. For this reason, I urge the Subcommittee, and Congress as a 
whole, to look beyond New Jersey for national approaches to improving 
outcomes for children who have experienced abuse and neglect.
    Americans were sickened by the recent news from New Jersey that 
four boys adopted from foster care were discovered apparently starving 
in their parents' home. Subsequent reports that the parents were 
receiving publicly-funded adoption subsidies led some to question 
whether unfit adults were adopting children to collect public dollars--
and whether states were recklessly promoting adoptions from foster care 
to earn a federal adoption bonus.
    Every year, thousands of families adopt children from foster care 
and provide them with a loving, permanent home. Clearly, something went 
horribly wrong in the New Jersey case. But we won't fix the problem by 
playing the blame game or limiting our questions to adoption policies.
    The Pew Commission on Children in Foster Care shares Congress' 
desire to protect children from abuse and neglect, and place them with 
safe, permanent families. To do so, we as a nation need to address the 
overlooked policy question from the New Jersey tragedy: how to ensure 
that child welfare systems--the public agencies and courts charged with 
protecting abused and neglected children--have the necessary tools to 
meet the nation's goals of safety, permanency, and well-being for these 
children.
    The Pew Commission is asking just that question. This blue-ribbon 
panel is crafting recommendations to improve federal financing of 
foster care, adoption, and other child welfare services, and to improve 
court oversight of children in state custody.
    Today, decisions by state agencies and judges are heavily 
influenced by which services the federal government will pay for--and 
which ones it won't pay for. Federal dollars flow easily to pay for 
foster care for poor children. But they are much less available for 
services to help families stay safely together, reunify safely after a 
period in foster care, or establish safe, nurturing adoptive homes. As 
a result, the average foster child spends three years in foster care, 
in three different foster homes. Many have longer stays and even more 
placements. While foster care is necessary to protect some children 
from serious harm, lengthy stays in multiple foster care placements is 
a cruel form of protection that has lasting negative effects on 
children.
    The damage to children stemming from these perverse financial 
incentives is compounded by challenges facing the courts. Judges decide 
whether to place or keep children in foster care, send them home, or 
terminate parental rights so that a child is available for adoption. 
Yet crowded dockets and limited court resources often allow judges only 
fleeting inquiries into children's needs and circumstances before they 
must render a decision. Additionally, most courts lack the management 
tools to analyze and address sources of delay in their caseloads or 
track special needs among the children they oversee. The results are 
continuances and postponements that may needlessly prolong a child's 
stay in foster care.
    Caseworkers, judges, administrators, and advocates have told the 
Commission that the combination of greater flexibility and greater 
accountability would strengthen the ability of child welfare agencies 
and courts to serve children better. Expanding state options for using 
federal funding would enable courts and agencies to provide children 
and families with supports and services tailored to their specific 
needs. For some children in foster care, adoption will be the route to 
a loving, permanent family. For others, it will be reunification with 
their birth families or a permanent home with a legal guardian.
    Accountability helps ensure that states use their flexibility well. 
Public agencies and courts should have clear, measurable goals for 
which they should be held accountable, so that taxpayers can assess how 
effectively public officials are protecting the children in their care.
    As this Subcommittee knows, there are any number of ways to achieve 
greater flexibility and accountability. The Pew Commission is 
consulting widely, listening carefully, deliberating thoughtfully. We 
are particularly grateful for the input we have received from members 
of this Subcommittee and other members of Congress. We are also 
fortunate that child welfare legislation has a history of bipartisan 
support in Congress, and we are determined to give Congress a set of 
recommendations that continue that tradition.
    Let me close by sharing some advice we received two months ago from 
an extraordinary young man who was adopted from foster care.
    Luis is 19 years old. He had been neglected by his birth mother, 
abused by her boyfriend, then ignored by the state that placed him in 
foster care. Thankfully, a loving family adopted him as a teenager.
    Luis got right to the point. ``Everybody deserves a family,'' he 
told us. ``You have a right to be happy. You have a right not to be 
hit. You have a right to nourishment. You have a right to love and to 
be loved.''
    A parent's love can't be bought with money or ordered by a court. 
Even a perfect child protective system cannot be guaranteed to be 
foolproof. But with a better financing structure, stronger court 
practices, and greater accountability all around, our child welfare 
system can do a better job of getting children the loving families they 
deserve. On behalf of the Pew Commission, I look forward to working 
with the Subcommittee, and Congress as a whole, to reach this goal.

                                 <F-dash>

          Statement of Cheryl B. Sokoloski, LaPorte, Colorado

    I understand that you will hold a hearing tomorrow, November 6, 
about the tragic New Jersey child abuse case. All of us who have 
adopted special-needs children from the nation's foster care system 
shudder when these cases arise, both because of the children's 
suffering and because of the bad light they cast on foster and adoptive 
families.
    In recent years, a couple of very positive developments have 
occurred in the child welfare system, relative to adoptions out of that 
system. First is Expedited Permanency Planning, which helps to keep 
children out of foster care ``drift'' by mandating that young children 
be placed in permanent homes quickly. The second is the Promoting Safe 
and Stable Families program, which seeks to strengthen families so that 
their children aren't removed and also provides services for families 
who adopt these emotionally damaged children when efforts with the 
birth families are exhausted. I sincerely hope that both of these 
positive directions will be maintained and will not be derailed because 
of the New Jersey case.
    Both of the above programs require a financial investment from the 
nation, but this is much less costly than treating adult problems 
later: crime, drug use, welfare.
    There is another investment that has also been called into 
question: the use of subsidies for adoptions from the foster care 
system. Unfortunately, most of the public is unaware of the extra costs 
associated with raising special-needs children, whether these are 
medical costs, costs of extra help with learning, or regular therapy. 
In our case, we actually turned down a subsidy offered when we adopted 
an 8-year-old boy who had been severely abused and neglected. Later, 
after spending thousands of dollars on much-needed therapy, we were 
sorry we made that decision.
    The recent New York Times article called for post-adoption 
evaluation of families, and I think this is a good idea, provided it 
can be done legally once an adoption is finalized.
    This nation does not question the value of birth families, even 
though some birth parents are woefully inadequate, even abusive (of 
course, that's why these children need foster and adoptive parents to 
begin with!). Most of the foster and special-needs adoptive parents I 
know are truly extraordinary people, raising children with difficult 
behaviors who present challenge after challenge to their parents. They 
have remarkable patience and a huge reserve of unconditional love.
    Please consider this majority group when you discuss the tragic 
case in New Jersey, and don't penalize a system that has shown good 
improvement of late.

                                 <F-dash>

             Statement of Kay Upton, Hodgenville, Kentucky

    We are adoptive parents of 13 years. Two of our adopted children 
have Sacral Agenisis, affecting their central nervous system. One of 
those two children also has severe depression, attention deficit, 
compulsive disorder, and shows signs of fetal alcohol affect. He has 
never been able to handle public school and has been homeschooled for 
10 years (age 16). The sister to this son, has severe depression. The 
third child we have, was born without a thyroid. This causes her to 
have severe mood swings. She has in the past tried to harm the other 
children. We placed these children on our medical insurance which 
became primary insurance and used most of it on the children. My 
husband was a factory worker for 27 years and just recently lost his 
job due to the factory closing. He never made over $31,000 per year. We 
took in these children for better or worse and love them very much. The 
subsidy we get on them has been God sent. Please think about what you 
are doing when you meet to discuss adoption subsidy. Every time a child 
is abused, the public cries out and wants revenge. That revenge will 
ultimately filter down and hurt children. I want to know where these 
people are when children need homes? Are they adopting? If so let them 
speak out, if not let them get involved so that they will know what 
they are crying out about!


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
